<html>
<title> - E-911 IMPLEMENTATION</title>
<body><pre>[Senate Hearing 108-930]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 108-930

                          E-911 IMPLEMENTATION

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON COMMUNICATIONS

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 5, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






                  U.S. GOVERNMENT PRINTING OFFICE
99-966 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

                     SUBCOMMITTEE ON COMMUNICATIONS

                    CONRAD BURNS, Montana, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON SMITH, Oregon                 JOHN B. BREAUX, Louisana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 5, 2003....................................     1
Statement of Senator Boxer.......................................    16
    Article from the February 2003 ConsumersReport.org entitled, 
      ``Will your cell phone reach 911?''........................    31
Statement of Senator Brownback...................................    36
    Prepared statement...........................................    37
Statement of Senator Burns.......................................     1
Statement of Senator Nelson......................................    28
    Prepared statement...........................................    28
Statement of Senator Snowe.......................................    15
    Prepared statement...........................................    15

                               Witnesses

Abernathy, Hon. Kathleen Q., Commissioner, Federal Communications 
  Commission.....................................................    18
    Joint prepared statement.....................................    20
Adelstein, Hon. Jonathan S., Commissioner, Federal Communications 
  Commission.....................................................    26
    Joint prepared statement.....................................    20
Amarosa, Michael, Senior Vice President, TruePosition, Inc.......    75
    Prepared statement...........................................    77
Bradshaw, Thera, President, Association of Public-Safety 
  Communications Officials International.........................    70
    Prepared statement...........................................    72
Clinton, Hon. Hillary Rodham, U.S. Senator from New York.........     2
Eshoo, Hon. Anna G., U.S. Representative from California.........     3
Hansen, Jenny, Manager, Public Safety Services Office, State of 
  Montana........................................................    39
    Prepared statement...........................................    43
Koon, Hon. David, New York State Assemblyman.....................     7
    Prepared statement...........................................     9
Melcher, John, President, National Emergency Number Association..    47
    Prepared statement...........................................    51
Shimkus, Hon. John, U.S. Representative from Illinois............     5
Tuller, S. Mark, Vice President and General Counsel, Verizon 
  Wireless.......................................................    65
    Prepared statement...........................................    66

                                Appendix

Response to written questions submitted by Hon. Barbara Boxer to:
    Hon. Jonathan S. Adelstein...................................    85
    Jenny Hansen.................................................    88
    John Melcher.................................................    86
    S. Mark Tuller...............................................    86

 
                          E-911 IMPLEMENTATION

                              ----------                              


                        WEDNESDAY, MARCH 5, 2003

                               U.S. Senate,
                    Subcommittee on Communications,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Conrad Burns, 

Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. If we could call the Committee to order this 
morning, we have a couple of other special guests who are on 
their way, we hope, and if they show up, that is fine. We have 
a lot of witnesses today and I am going to forego my statement 
this morning, because it seems like the times are busy, but I 
want to welcome everyone to today's hearing on E-911 
implementation. I am very pleased that the co-chairs of the E-
911 Caucus were able to be here today. We are expecting the 
House Members any time, but my good friend from New York is 
here this morning, and we look forward to their testimony. I 
want to welcome also New York Assemblyman Koon, who will be 
introduced by the co-chair of the E-911 Caucus.
    Assemblyman Koon lost his daughter in a terrible tragedy, 
but has transformed his immense grief into very positive 
action. I want to congratulate him on getting the E-911 funding 
through the New York State Assembly on the eve of the launch of 
the E-911 Caucus, and I cannot think of a more inspiring 
example of political and moral courage. I thank you for being 
here.
    And this morning--well, we are joined by one House Member. 
Thank you for coming this morning, and just like I said, I will 
forego--but I happen to believe that probably E-911 was really 
a landmark piece of legislation, and now that we are embarking 
on the second phase of the implementation of that, of the words 
of that bill, it gives me great pleasure to introduce our good 
friends here today, because we want to emphasize this. We think 
it is important, in light of the times that we are in.
    And so with that, I will introduce to the Committee here 
this morning Senator Clinton from New York, and I would ask you 
if you would have any statement at this time. Thank you for 
coming this morning.

           STATEMENT OF HON. HILLARY RODHAM CLINTON, 
                   U.S. SENATOR FROM NEW YORK

    Senator Clinton. Thank you, Mr. Chairman, and thank you for 
your leadership, your constant and very effective leadership on 
this issue, and I am delighted that I am a part of this newly 
created E-911 caucus, along with Representatives Eshoo and 
Shimkus, and I thank you very much for your courtesy in 
extending an invitation to my friend, and an expert on this 
issue, Assemblyman David Koon from Rochester, New York, who you 
will hear from in a few minutes, and I also appreciate everyone 
appearing on the second panel, because they are the people who 
are going to make this happen for us.
    I cannot overstate how important I think this issue is 
today with respect to emergency preparedness, and the first 
responders in our communities deserve the kind of support that 
is now available to them if we do our job correctly, because as 
you know so well, Mr. Chairman, when an emergency occurs, 
Americans put all their trust and faith in three numbers, 911, 
and many Americans purchase cell phones for that very reason. 
It can be a wireless call from someone in an accident, like the 
tragic case of the four young men out in a boat on Long Island 
Sound several weeks ago, who were trying to get help. It can be 
the type of tragedy that Assemblyman Koon has experienced and 
will describe to you in his own words.
    In both of these cases, and in so many others around the 
country, people made that 911 call for help, but the person at 
the other end did not have the technology that would enable 
them to figure out where the call was coming from.
    Now, especially in this post-September 11 world, our 
emergency response systems have got to be modernized. 
Communications technology changes almost overnight, and some of 
those technologies will be discussed in the later panel, but 
our State and local response centers have not caught up with 
this technological revolution. Hundreds of PSAP's in New York, 
the 911 centers where the calls come into, and across the 
country, still lack the resources, equipment, and technology to 
respond to 911 cell calls made by a cell phone, so we have to 
ask ourselves, what is the good of the FCC's mandates on 
wireless carriers to implement new tracking technologies if 
they keep getting extended because those on the receiving end 
cannot respond?
    I am looking forward to working more closely with the FCC, 
and I am delighted that two of the Commissioners are here 
today. I think there are several key steps that need to be 
taken to enhance deployment of E-911 ubiquitously and quickly. 
First, wireless carriers and local telephone companies must be 
committed to this goal. We need them at the table, we need 
their guidance, we need to know what the obstacles are, and we 
need their ongoing commitment.
    Second, with the technology available, we have to provide 
the resources and technical guidance to our PSAP's. This could 
mean Federal funding, but it certainly means holding States 
accountable for the dollars they are already collecting through 
911 surcharges. As many of you know, in New York, tens of 
millions of dollars have been collected from 911 charges, but 
they have been diverted over the last several years for reasons 
completely unrelated to 911 upgrades. When New Yorkers see the 
$1.20 charge on their phone bill for a 911 call, the highest 
surcharge in the country, they have reason to expect a quality 
of service that in many cases they are not receiving because 
the State is not sending these dollars back to the PSAP's, and 
Assemblyman Koon, from whom you will be hearing, has been 
working on this issue in New York, and has a very creative 
solution.
    And finally, we do need a more active FCC on this issue. We 
in Congress must hear if the FCC needs greater authority to 
work with the carriers, to hold States accountable to 
coordinate E-911 deployment, and to guide PSAP's. The FCC 
reported just last month that nationwide wireless carriers have 
satisfied approximately 70 percent of all PSAP requests for 
Phase I.
    Now, 70 percent is not a small number, but the fact is we 
have hundreds of PSAP's that have not even requested Phase I, 
so I think we have to look at what is the pool that the 70 
percent is coming from, because we still have to encourage even 
more PSAP's to make that initial request, then we have got to 
go on to Phase II implementation.
    And finally, Mr. Chairman, I would like to add that there 
is another issue that really has to be addressed almost 
simultaneously, and that is the communication and the 
interoperability capacity between different first responder 
agencies. We learned on September 11 many of our first 
responders could not communicate with each other, let alone 
across agencies. We absolutely cannot let that happen again.
    So Mr. Chairman, I look forward to working with you under 
your leadership, along with our colleagues in the House. We are 
already at a point where somewhere between 30 and 50 percent of 
911 calls originate from wireless phones. This number is only 
going to grow, and I cannot imagine a more pressing issue to 
address than the one that you have brought to our attention, 
and I thank you, Mr. Chairman.
    Senator Burns. Well, we thank the Senator from New York, 
and her energy that she is putting into this effort, and we 
welcome you and look for good work coming from you.
    On the House side, we have also our co-chairs of the 911 
Caucus, and it is truly an honor to have them here today, John 
Shimkus, United States Representative, and we look forward to 
hearing your testimony.
    Mr. Shimkus. Thank you, Mr. Chairman. If I may, I would 
defer to my colleague, Anna Eshoo. She is senior to me and has 
been very helpful on this, and if you do not mind, I would like 
to be the gallant gentleman.
    Senator Burns. I might add, she is more attractive, too.
    [Laughter.]

               STATEMENT OF HON. ANNA G. ESHOO, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Ms. Eshoo. Well, I thank the gentleman, and good morning to 
you, Mr. Chairman. Thank you for holding this hearing and 
having me participate in it, and for your very steady 
leadership on this issue, and focusing attention on it. I have 
worked on this issue since 1996 and introduced legislation in 
the House with my colleague, John Shimkus, in 1999 to make 911 
the universal emergency number for both wireline and wireless 
devices.
    I would like to draw specific attention to that time line. 
It has been 7 years since we first directed the attention of 
the Federal Government to this issue, so it is disappointing 
that so much time has passed and we still do not have 
widespread deployment of E-911, because there are terrible 
consequences without having the coordinated system.
    In 1998, the House Energy and Commerce Committee, which I 
am a member of, held a hearing on E-911, and one of the things 
we emphasized was the need for PSAP's to upgrade their 
equipment. That was 5 years ago, and PSAP readiness is still 
something that demands our attention.
    Similarly, in 1998 we were shocked by stories similar to 
the most recent tragedy involving the teenage boaters in New 
York. I think we have been talking for a long time about this, 
and I think that it is about time that we bring this life-
saving technology to bear across our country.
    At last week's press conference announcing the E-911 
Caucus, Chip Yarborough traveled across the country from 
California. He is the head of E-911 in Mountain View, 
California. He expects that in about 6 months, Santa Clara 
County, which is the home of Silicon Valley, will become the 
first county in California with an operational E-911 network. I 
think that that is great news, but keep in mind there are 57 
other counties in California.
    With the formation of our caucus, I think that we can 
provide very important leadership in addressing the obstacles 
that are slowing deployment across our country. Let me just 
focus my remarks on a few of them.
    First, there is a need for a coordination of effort. There 
are so many pieces which must fit together to make a seamless 
E-911 network a reality. After a good deal of Congressional 
pressure, I believe that the FCC and the wireless carriers have 
demonstrated a commitment to deploy E-911 technologies as soon 
as possible and not tolerate further delays, and the Congress 
is essential in this, because we have to ensure that there is 
the appropriate oversight so that there is not any more 
slippage on the deployment schedule, but we also need to make 
sure that manufacturers, technology providers, public safety 
officials, and local exchange carriers are on the same page, 
and if the groups do not work together, I fear that we will 
only encounter more delays or, worse still, will fail to reach 
a caller in need.
    I also want to say that I think people across the country 
think that when they dial 911, E-911, whether it is a landline 
or a wireless line, they believe that they will be taken care 
of, so we need to live up to the expectation that they already 
have.
    There is a hidden danger in a lack of qualified staff at 
dispatch centers. They play an integral role in making sure the 
location information is communicated properly to emergency 
personnel. To have qualified staff, we have to provide 
appropriate training, and to prevent turnover, they must be 
adequately compensated. This is one more burden for States that 
already find themselves in dire financial straits.
    Finally, I think it is extremely important to take a big-
picture view of E-911 as we work to expedite its deployment. By 
that, I mean taking a look at the role it plays in our homeland 
as well as our hometown security. Does it make sense to put E-
911 oversight within the Department of Homeland Security? I 
think we should be examining that.
    How do other mandates impact deployment? If we require 
number portability across communication devices, whether they 
are wireless or wireline devices, could that create 
technological impediments to effective E-911 service? With 
regard to dead zones in coverage, if we are to eliminate them, 
we have to look at the issues of spectrum efficiency and 
building of more cell sites.
    I pose these questions understanding the complexities they 
raise, but also with the expectation that we can resolve them 
with the determined efforts of everyone in the E-911 Caucus and 
in our Congress.
    Finally, I would like to acknowledge the very important 
role that Assemblyman David Koon from New York is playing in 
this. His innovative idea of using State cell phone surcharges 
to leverage a $300 million bond to speed E-911 deployment may 
very well serve as a model for other States, and I really 
applaud his commitment to this issue.
    So Mr. Chairman, thank you again for your leadership. To my 
colleagues who are the co-chairs of this caucus, I think that 
we can really be the Energizer bunnies of this, and for the 
good of our Nation. E-911 had an appeal and an importance to it 
before 9/11, but in this post-September 11 era, I believe that 
since we have the technology, we have to have the political 
will to coordinate and to give people what they need. I think 
that we can do it, and I look forward to working with each one 
of you to accomplish it.
    Thank you very, very much.
    Senator Burns. Thank you, Ms. Eshoo, and we sure appreciate 
your remarks.
    John Shimkus, who shares the duties with you over on the 
House side on the caucus.

                STATEMENT OF HON. JOHN SHIMKUS, 
               U.S. REPRESENTATIVE FROM ILLINOIS

    Mr. Shimkus. Thank you, Chairman Burns, members of the 
Subcommittee. It is an honor to be here this morning to testify 
on the issue of the 911 deployment. I want to thank the 
chairman for his leadership on this issue. Not only are you the 
principal author of the Wireless Communication and Public 
Safety Act of 1991, but you also, along with Senator Clinton, 
initiated the formation of the Congressional E-911 Caucus this 
year. I am proud to be a co-chair of this caucus on the House 
side, with my colleague, Congresswoman Anna Eshoo.
    Not long ago, all 911 calls were local calls made on 
wireline phones. Today, it is estimated that nearly 130 million 
wireless phones are in use, generating an average of 150,000 
calls to 911 each day. However, few people realize that most 
wireless 911 calls do not go to the nearest public safety 
answering point, or PSAP, do not provide the caller's callback 
number, nor do they provide the caller's location. In some 
areas, wireless callers get an automated voice instead of help 
when they dial 911. With more and more Americans relying on 
wireless phones for safety, especially in the aftermath of 
September 11, it is important that we focus on implementing 
this safety technology as soon as possible.
    The goal of E-911 is simple: to make wireless Enhanced-911 
services universally available throughout the United States. 
However, implementing E-911 is proving to be anything but 
simple. In fact, sluggish deployment was so troubling that the 
FCC launched an inquiry into technical and operational reasons 
for the delays. The resulting Hatfield report was released in 
October 2002, and I encourage everyone to read that report. I 
found it very informative. I would like to reiterate some of 
the important points made in this authoritative report, along 
with my own observations.
    When something goes wrong with a wireless 911 call, the 
wireless industry gets the blame. That is not always 
appropriate, since wireless is only one part of the extremely 
complex E-911 system. Often compared to a kaleidoscope, 
wireless E-911 involves an interrelation of numerous parties, 
including the carriers, both wireless and wireline, public 
safety answering points, equipment providers, and State and 
local governments. Right now, wireless carriers have invested 
hundreds of millions of dollars toward E-911, and are generally 
able to provide location information on wireless calls 
throughout the country, but fewer than 30 percent of PSAP's are 
currently able to process that information.
    One weakness in the link that the Hatfield report 
highlights is a lack of alignment with the PSAP's. Amazingly, 
no one knows exactly how many PSAP's there are in the country 
today. Many States, including my own State of Illinois, do not 
have an official record of the number of locations of all of 
their PSAP's. This may be in large part due to the adaptations 
the call centers must make to meet changing community needs, 
and I read an article on the plane, a clipping from a local 
paper, and it talked about my home county of Madison County.
    Madison County has 16 emergency call centers scattered 
throughout the area. However, due to recent budgetary 
pressures, community leaders are in the process of 
consolidating these call centers for efficiency and better 
service. I suspect that this type of thing will be going on 
across the country, as economic realities, combined with 
increased demand for 911 services, force States and localities 
to make tough decisions. As these changes occur, it is 
important that we keep track of the PSAP's so that no one is 
left behind.
    Illinois has 102 counties, St. Clair being the first in the 
Nation to roll out E-911 to deploy. Bond County just went up on 
E-911, but there are many counties, as I stated before, that 
are just in Phase I, or just trying to pass referendums as we 
speak, so there is not, as we talked about last week, a 
ubiquitous system across the country.
    Another weakness Hatfield points to is a little-known fact 
that the incumbent local exchange carriers are critical 
conduits for E-911. However, their responsibilities toward 
enabling E-911 have not been well-defined. Further, Hatfield 
notes that their systems are antiquated, and must be upgraded 
to handle the necessary digital transmissions. We need to focus 
more attention on this important aspect of our communications 
infrastructure, and also work to ensure that we are enacting 
policies that promote investment in facilities-based networks.
    In addition to guarding against adverse policies toward 
wireline infrastructure, we also need to be protective of the 
wireless infrastructure. I am sure you will hear many times 
this morning some States are taxing wireless phone customers in 
the name of E-911, and then turning around and using those 
funds to meet budgetary shortfalls. This needs to stop. 
Illinois has a good record, but they have tremendous budget 
pressures, so they may--hopefully they do not go to the dark 
side and start doing that, but the Hatfield report points out 
that many State legislators have levied surcharges that failed 
to adopt E-911 cost recovery methods for the emergency call 
centers, and this is holding back PSAP readiness.
    Another issue that many State public utility customers are 
demanding is the immediate implementation of wireless number 
portability. I agree with their view that this is an important 
goal, and one that should be achieved. However, it is also a 
very expensive and technically complicated goal. It would be 
wise at this time to set a priority of safety before 
convenience. We should encourage the wireless industry to first 
complete their E-911 mandate and build out their networks for 
better coverage before we force them to spend money on 
something that is a mere amenity to customers, such as number 
portability, and, of course, this goes to the whole debate, 
certainty versus uncertainty, to be able to gain capital you 
need a certain environment.
    Under the current regulations, there are many disconnects 
in the E-911 implementation process. The Hatfield report speaks 
over and over of the need to coordinate on many levels in order 
to make E-911 readily available. All parties appear ready and 
willing to implement E-911, but no one is directing this 
national effort to remedy this.
    Hatfield proposes the creation of a national 911 program 
office within the Department of Homeland Security. I think we 
need to take a closer look at this issue of coordination, and, 
if necessary, pass legislation to close the gap on directing 
this effort successfully.
    Once again, I thank the Committee for holding this hearing, 
and hope that we can continue to work together to make 
Enhanced-911 a reality for all Americans, and thank you, Mr. 
Chairman.
    Senator Burns. Thank you, Congressman, and now it is a 
great deal of pleasure to introduce Mr. Koon this morning. He 
spawned an idea during our announcement that sort of fascinated 
us, and I think it needs further exploration, because I had not 
thought of it. I wish I had. But nonetheless, we think it has 
merit, and I am glad that your Senator from New York invited 
you to come back this morning and share your views on that, and 
we welcome you this morning. He is an Assemblyman, Hon. David 
Koon of New York State, and thank you very much for coming this 
morning.

                 STATEMENT OF HON. DAVID KOON, 
                   NEW YORK STATE ASSEMBLYMAN

    Mr. Koon. Thank you, Mr. Chairman. Good morning. My name is 
David Koon, and I represent the Eastern portion of Monroe 
County in Western New York, in the New York State Assembly. I 
truly appreciate this opportunity to testify here this morning 
before the Subcommittee on Communications. I would like to 
begin by thanking the FCC and Congress for taking the 
initiative to encourage development and deployment of wireless 
Enhanced-911. Both the FCC and Congress recognized early that 
this was an important public safety issue, and I am grateful 
for the hard work and leadership shown during this evolving 
process of improving and implementing wireless E-911.
    The issue of wireless E-911 service has a deep personal 
meaning for me. In 1993, our daughter was abducted and murdered 
in Rochester, New York. We had installed a wireless telephone 
in her car in the event of an emergency so that Jennifer could 
call 911 for help. Somehow, Jennie managed to dial 911 for help 
from her car phone, even though she was in the car with her 
abductor. However, the 911 dispatcher was unable to locate her. 
The dispatcher listened helplessly to the last 20 minutes of 
Jennie's life. It is this personal family tragedy that prompted 
my involvement in public service to help make New York a safer 
place.
    I am deeply grateful to have the opportunity to share my 
story with this committee, and hope that the implementation of 
E-911 technology in every State will make it possible to 
determine the location of a person making a wireless 911 call. 
It has been recognized in New York State that there is a 
problem with the funding of our public safety answering points, 
or PSAP's. The State collects a monthly wireless 911 surcharge 
that could be used for upgrading of the locator technology. 
However, New York State and many other States are not using 
this surcharge to provide funding for the PSAP's.
    This country faces a difficult public safety problem, 
because the reality of the wireless 911 is that each State is 
different in the advancement of cellular technology to locate a 
911 caller. With the guidance and leadership of Speaker Sheldon 
Silver, Assemblymembers Robert Sweeney, Roann Destito, and 
Thomas DiNapoli, and many other of my colleagues in the New 
York State Assembly, I have recently introduced a new piece of 
legislation that will change how New York State funds the 
deployment of wireless E-911 technology. A copy of this bill, 
A-3911, which passed the assembly on February 24, 2003, is 
attached to my written testimony for your reference.
    After many attempts to fund a successful E-911 program in 
the State of New York, I think that we have finally found a 
solution modeled after Virginia's successful program. This 
legislation creates a wireless 911 local initiative funding 
enhancement, or LIFE program, in order to provide localities 
with funding to expedite the development of enhanced wireless 
911 service. Wireless 911 LIFE will encourage the development 
of enhanced wireless 911 services by providing funding to local 
wireless emergency dispatch centers, or PSAP's.
    In order to be eligible, local PSAP's would have to submit 
a written plan, including a financial plan and implementation 
timetables, to the State 911 board for approval. Upon approval, 
local PSAP's would be eligible for funding related to 
equipment, software, and hardware necessary to provide the 
Enhanced-911 service. Bonds will be issued by the Dormitory 
Authority to fund the cost associated with the program. The 
debt service on these bonds would be paid from the existing New 
York State wireless 911 surcharge. This program will give vital 
technology dollars to the municipalities now, and avoid the 
postponement of this important safety issue any further.
    My current legislation is an extension of legislation 
passed in 2002 that enacted a local enhanced wireless 911 
program. This program provided $20 million from the existing 
cellular surcharge to help localities fund costs associated 
with the provision of enhanced wireless 911 service. $10 
million in funding was made available to reimburse eligible 
wireless 911 service costs, which include installation and 
maintenance of equipment, hardware, and software designed to 
meet the FCC enhanced wireless guidelines. Further, $10 million 
in funding was made available to purchase additional equipment. 
This program is administered by a 13-member board organized 
within the Department of State.
    The 2002 legislation reimburses localities for incurred 
expenses. This current legislation will allow localities to 
receive funds prospectively, ensuring quicker success to access 
technology. As I mentioned before, this legislation was modeled 
after a program in Virginia that provides funding to PSAP's in 
a similar manner, and has found that it greatly expedited the 
availability of the wireless E-911 service. At present, 
Virginia has well over 50 percent of the State in compliance 
with the Phase I requirements, and expects to fully comply with 
the Phase II requirements in the immediate future. Every State 
should demand the same technology.
    It is important to remember that successful implementation 
of wireless E-911 Nationwide requires the cooperation of all 
parties involved; local, State, and Federal Governments, local 
law enforcement agencies, carriers, and manufacturers. It is 
also important for the public to be better informed and 
educated about the process. These hearings are an important 
step toward both increasing participation of the public in this 
process and getting input from different organizations.
    Again, thank you for this great opportunity to speak before 
this Committee, and I look forward to answering any questions 
you may have.
    [The prepared statement of Mr. Koon follows:]

   Prepared Statement of Hon. David Koon, New York State Assemblyman
    Good morning. My name is David Koon and I represent the eastern 
portion of Monroe County in Western New York in the New York State 
Assembly. I truly appreciate the opportunity to testify here this 
morning before the Subcommittee on Communications. I would like to 
begin by thanking the FCC and Congress for taking the initiative to 
encourage development and deployment of wireless Enhanced 911. Both the 
FCC and Congress recognized early that this was an important public 
safety issue and I am grateful for the hard work and leadership shown 
during this evolving process of improving and implementing wireless E-
911.
    The issue of wireless E-911 service has deep personal meaning for 
me. In 1993, our daughter was abducted and murdered in Rochester, New 
York. We had installed a wireless telephone in her car in the event of 
an emergency so that Jennifer could call 911 for help. Somehow Jennie 
managed to dial 911 for help from her car phone, however, the 911 
dispatcher was unable to locate her. The dispatcher listened helplessly 
to the last twenty minutes of Jennie's life. It is this personal family 
tragedy that prompted my involvement in public service--to help make 
New York a safer place. I am deeply grateful to have the opportunity to 
share my story with this Committee in the hope that the implementation 
of E-911 technology in EVERY state will make it possible to determine 
the location of a person making a wireless 911 call.
    It has been recognized in New York State that there is a problem 
with the funding of our Public Safety Answering Points (PSAPs). The 
state collects a monthly wireless 911 surcharge that could be used for 
the upgrading of the locator technology. However, New York State and 
many other states are not using this surcharge to provide funding for 
the PSAPs. This country faces a difficult public safety problem because 
the reality of wireless E-911 is that each state is different in the 
advancement of the cellular technology to locate a 911 caller.
    With the guidance and leadership of Speaker Sheldon Silver, 
Assemblymembers Robert Sweeney, Roann Destito, and Thomas DiNapoli and 
many other of my colleagues in the New York State Assembly, I have 
recently introduced a new piece of legislation that will change how New 
York State funds the deployment of wireless E-911 technology. A copy of 
this bill (A. 3911), which passed the Assembly on February 24, 2003, is 
attached to my written testimony for your reference.
    After many attempts to fund a successful E-911 program in the State 
of New York, I think that we have finally found a solution modeled 
after Virginia's successful program. This legislation creates the 
Wireless 911 Local Incentive Funding Enhancement (LIFE) Program in 
order to provide localities with funding to expedite the development of 
enhanced wireless 911 service. Wireless 911 LIFE will encourage the 
development of enhanced wireless 911 services by providing funding to 
local wireless emergency dispatch centers or PSAPs. In order to be 
eligible, local PSAPs would have to submit a written plan, including a 
financial plan and implementation timetables, to the State 911 Board 
for approval. Upon approval, local PSAPs would be eligible for funding 
related to equipment, software, and hardware necessary to provide 
enhanced wireless 911 service. Bonds will be issued by the Dormitory 
Authority to fund the costs associated with the program. The debt 
service on these bonds would be paid from the existing New York State 
wireless 911 surcharge. This program will give vital technology dollars 
to municipalities NOW--and avoid the postponement of this important 
safety issue any further.
    My current legislation is an extension of legislation passed in 
2002 that enacted the Local Enhanced Wireless 911 program. This program 
provided $20 million from the existing cellular surcharge to help 
localities fund costs associated with the provision of enhanced 
wireless 911 service. Ten million dollars in funding was made available 
to reimburse ``eligible wireless 911 service costs'', which include 
installation and maintenance of equipment, hardware, and software 
designed to meet the FCC enhanced wireless guidelines. Further, ten 
million dollars in funding was made available to purchase additional 
equipment. The program is administered by a 13-member board organized 
within the Department of State. The 2002 legislation reimburses 
localities for incurred expenses. The current legislation will allow 
localities to receive funds prospectively--ensuring quicker access to 
costly technology. As I mentioned before, this legislation was modeled 
after a program in Virginia that provides funding to PSAPs in a similar 
manner and has found that it greatly expedited the availability of 
wireless E-911 service. At present, Virginia has well over fifty 
percent of the state in compliance with the Phase I requirements and 
expects to fully comply with the Phase II requirements in the immediate 
future. Every state should demand the same technology.
    It is important to remember that successful implementation of 
wireless E-911 nationwide requires the cooperation of all parties 
involved--local, state, and federal governments, law enforcement 
agencies, carriers, and manufacturers. It is also important for the 
public to be better informed and educated about the process. These 
hearings are an important step towards both increasing participation of 
the public in this process and getting input from different 
organizations. Again, thank you for the opportunity to speak before 
this Committee and I look forward to answering any questions that you 
may have.
                                 ______
                                 
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    Senator Burns. We thank you, Assemblyman Koon, and shucks, 
I thought that was an original idea, and you brought Virginia 
up, but no, I think most of our States--you know, we get to 
thinking we are going to build something internally, and we are 
afraid to look outside our States, and New York has done that, 
and under your leadership, and we appreciate that very much.
    I do not have any other questions. I wanted your testimony 
as a part of this record, because as we move into Phase II and 
we look at other things--you all mentioned interoperability in 
our communications centers. Tomorrow will be a hearing on 
spectrum, and we are dealing with the spectrum renovation, you 
might say, because we do not handle our spectrum in this 
country very well. We do not manage it to its highest 
efficiency, and we know there are a lot of areas that have to 
be coordinated, understanding the need for public safety and 
also military, and, of course, the demand on the commercial 
sector for more spectrum is every day increasing, so as we move 
this piece--this interest along on E-911, we also have to look 
at the tools that we have in front of us, and are we using them 
as effectively and as efficiently as we possibly can.
    I have been joined by Senator Boxer of California and 
Senator Snowe of Maine, and of course the Senator from Maine 
has some of the same challenges that we have in Montana. We 
have great spaces, and the ability to locate people who are in 
an emergency situation is very, very important.
    I have no questions of this panel, and I know every one of 
you here is busy. It is a busy time of the year, and I would 
excuse them, but do the two Senators have any questions for 
this panel?

          OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. I want to thank you 
for highlighting this most significant issue in terms of 
personal safety and national safety, and I want to thank our 
panelists, Senator Clinton, Congresswoman Eshoo, Congressman 
Shimkus, and Assemblyman Koon, and I thank you for being here 
and sharing with us the personal tragedy that your family has 
endured as a result of this lapse. The only thing we can do is 
to make something positive come out of this situation. We thank 
you for being here today.
    I think it is obvious that we need to do something, and the 
Hatfield report had indicated that there are not any champions 
within the Federal Government, but I see that we have a number 
of champions, and we thank you for creating the caucus. We want 
to take the next best step to beginning to provide this kind of 
service in the States, and standardize this service nationwide, 
and have the kind of cooperation at all levels of Government to 
make sure that this can happen, so the kind of tragedy that 
occurred with your family, Mr. Koon, and your daughter, never 
occurs again, so I thank all of you for bringing the attention 
that you have here today.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman, for holding this hearing today. I am very 
grateful for your leadership in drawing attention to this most 
important issue.
    The bottom line is, people all across America rely on 911 in an 
emergency. They expect it to be there when they need it. The very term 
``911'' is used as an adjective to describe something that responds to 
a crisis. And enhanced 911 or E-911 services can enhance our ability to 
save lives, protect property, and contribute to a more secure America.
    The capability of wireless location detection is an important 
component of homeland security and will provide our first responders 
with more accurate information. According to the Cellular 
Telecommunications & Internet Association, at least one-third of all 
911 calls are now made on cell phones. It is for this reason that we 
need to deploy E-911 services as quickly as possible all across America 
in both rural and urban settings, and that we understand the unique 
needs in each of these areas.
    We in Congress recognized the extreme importance of wireless 
enhanced 911 services several years ago. I was disappointed when the 
October 2001 deadline for implementation of this vital service came and 
went without seeing this goal realized--however, I understand that 
technology changes and other factors have complicated this matter more 
than initially anticipated.
    Indeed, I am concerned by the relatively distant deadline for 
completion of Phase II that will allow automatic location 
identification by all wireless carriers. The issues of adequately 
funding Public Safety Answering Points (PSAPs) and the training of 
personnel at PSAPs also must be addressed in more detail. I look 
forward to learning more about these issues and what role this 
Subcommittee, the Commerce Committee, and Congress as a whole can play 
in ensuring the expedited and successful deployment of fully functional 
Enhanced 911 services for wireless subscribers.
    Thank you Mr. Chairman.

    Senator Burns. Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Mr. Chairman, thank you for your leadership 
on this, and to the panel, we are very grateful. I wanted to 
say also to the assemblyman, taking your tragedy and turning it 
into action to stop these things from happening, it is so 
commendable and so important, because you will be focused like 
a laser beam until this gets done in your State, and as Anna 
and I know in our State, a State that has so many natural 
disasters, from earthquakes, fires, floods, droughts, 
everything that happens to us, we need to make this happen.
    I have one question, because I have been trying to grapple 
just--I have been driving my staff crazy. What is actually 
stopping this from happening? I mean, my understanding is, the 
technology is there to have this location technology on the 
phones. If anyone on the panel could give me some guidance on 
what is the biggest problem stopping this from happening, since 
the technology is there--if you say money, I want to know that, 
and if you have any idea of how much it would take us to do 
this.
    Mr. Shimkus. Well, I will go first. I know the other 
panelists that you will have, Mr. Chairman, will address this. 
There are three main players. There are the PSAP's, the local 
call centers, there are the local exchanges, which are the 
local phone companies and the wireline, and then there are the 
cellular companies, and based upon the meetings we had last 
week, they are all at different stages, and they all will take 
capital investment. Those local call centers get a tax. Some 
States take some of that money away and use it for other 
things, where it should be devoted to movement to the 
technological solution.
    Again, in my county--St. Clair County, Illinois, which is 
just south of my county, is the first county that went E-911 
location identification by cellular, but there are still some 
counties in the 102 counties in Illinois that have not even 
gone to Phase I, which is wireline 911, which takes a local 
referendum, so that is why we need, as Senator Snowe said we 
need champions--the Hatfield report said champions--so that we 
can push the disparate elements, and they are all stakeholders 
and they all want to get there, but sometimes the cellular 
company will be prepared to go, but the wireline is not ready, 
or the wireline and the cellular is ready, but the PSAP is not 
prepared, and so that is why we have got to continue to push 
forward, and I will defer to my colleagues.
    Ms. Eshoo. I think Congressman Shimkus has outlined, given 
you a very good snapshot of what exists. In California, in 6 
months, Santa Clara County will be the first county to be 
coordinated, and launch its E-911, but as I said in my 
testimony, we have 57 other counties, so I think that what 
Assemblyman Koon has identified makes a great deal of sense for 
us to take a look at, and that is, you have to have the money 
behind this as well, and with the pressure on States relative 
to their budgets, he really has presented, I think, a model for 
us to take a look at, but there is a great deal of coordination 
that needs to take place.
    It can be done. I mean, when you look at each part of it, 
it is moving, and the will in our local communities to 
implement this is very, very strong. It is a matter of pulling 
it together and making sure that the resources that are 
collected, and we are taking a look at what California collects 
and where it is going, that we have to turn that one around.
    Senator Clinton. Senator, I would add only one other 
factor, because both Congressman Shimkus and Congresswoman 
Eshoo have really summarized what the problems are, but the 
lack of certainty that has beset the telecom industry and much 
of our new technology over the last several years I think has 
played a role in slowing this down, and to some extent 
deterring action.
    There are some splits in the kind of technology that would 
be best to use. If you go one way, does that mean you cannot go 
another way? So that is why we need the FCC's help to really 
set forth some very clear guidance and to try--insofar as we 
can from a regulatory perspective create some certainty, and it 
may be that we have to make some decisions that will help local 
communities decide what direction is the way to go, not just 
next year, but for the foreseeable future, decades from now.
    We need a system that is seamless, interconnected, crosses 
county and State borders, and provides interoperability among 
various first responder agencies. I think it would be tragic 
if, at the end of this process, even if we keep it going and 
get everybody focused, we have different technologies, 
different systems that cannot talk to each other and cannot 
really come together in the time of a national emergency, so 
there is a lot of need to get some certainty in this, which I 
would add to the mix of everything that has been said.
    Mr. Koon. I would just like to add, in New York State I can 
tell you that the PSAP's that are working to get Enhanced-911 
are doing it on their own. They have not received one penny 
from the State of New York, even though the State of New York 
has collected a 70-cent surcharge on Enhanced-911 since 1991. 
We will approach well over $300 million that has been collected 
in the State of New York, and not one penny has been sent to 
the local PSAP's. That is the problem.
    The other problem, of course, is the coordination of 
getting, because every PSAP in New York that is working on it 
may be working on different technology, because the State has 
not taken the leadership to say to the PSAP's this is the 
technology we want to go with, this is how we are going to do 
it, and here is the money to do it with. That is what it is 
going to take.
    Senator Boxer. Thank you, Mr. Chairman. Thank you so much. 
It just seems to me that when money is taken for another 
purpose, there is something very immoral about that really, 
even if it might have been taken for another great cause, but 
taxpayers are paying for a purpose, it seems to me. I am not a 
litigious person, but it seems like a taxpayer lawsuit might be 
appropriate there, when you have money sitting for a specific 
purpose, and it is in the law, and it is taken for another use.
    Of course, I should not--we do that around here all too 
often.
    [Laughter.]
    Senator Burns. I was going to say----
    Senator Boxer. So I have to be careful, but I do not like 
that when we do that, either. But anyway, I just want to thank 
the panel and you, Mr. Chairman. Thank you very much.
    Senator Burns. Thank you, Senator. I was going to say, he 
who has no sin, cast the first stone.
    Senator Boxer. You have got to be careful around here.
    Senator Burns. We are going to excuse this panel, and again 
we want to thank you very much. Also, I want to add to this, 
there has been an explosion in E-911 calls coming from cells. I 
left a report at each of the Committee members' desk, or place, 
how there are 57 million 911 calls called from cell phones just 
this last year, so we have got that explosion out there, and 
the increased use of cell phones as primary communication 
devices has also exacerbated this thing as far as the switches 
and the local carriers and the service providers, so we have 
got a problem out there, and it is not easy, there is no easy 
answer.
    So I want to thank this panel very much, and you are 
excused, and I know you are awfully busy, but thank you for 
coming today.
    Senator Clinton. Thank you, Mr. Chairman.
    Ms. Eshoo. Thank you, Mr. Chairman.
    Senator Burns. Our next panel is Hon. Kathleen Abernathy, 
who is a Commissioner of the Federal Communications Commission, 
and Hon. Jonathan Adelstein, also from the Federal 
Communications Commission, and we welcome them here today and 
appreciate their testimony, and maybe we can get some answers 
from the FCC, if we could have order, and we look forward to 
their testimony.
    I would ask Ms. Abernathy if you would offer your remarks 
at this time.

STATEMENT OF HON. KATHLEEN Q. ABERNATHY, COMMISSIONER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Ms. Abernathy. Good morning, Chairman Burns and 
distinguished members of the Subcommittee. I appreciate the 
opportunity to appear before you on behalf of the Federal 
Communications Commission to discuss our progress----
    Senator Burns. Could the Commissioner suspend just for a 
second? Could somebody catch the door there and close that 
door, if they could? Thank you. You always do good work, Scott.
    Please.
    Ms. Abernathy. Thank you. I do want to discuss our progress 
in speeding the deployment of Enhanced-911 wireless services 
throughout the United States, and I fully agree with Senator 
Clinton, Representative Shimkus, Representative Eshoo, and 
Assemblyman Koon that nationwide deployment of E-911 is a 
critical public safety matter, and we will step up to our 
responsibilities, as requested by Senator Clinton.
    Today, I am going to focus on three points surrounding the 
implementation of E-911, first, the importance of this 
technology to our citizens, second, the FCC's current 
enforcement efforts, and third, the FCC's most recent outreach 
initiative.
    As pointed out by Senator Clinton and Representatives Eshoo 
and Shimkus, E-911 can be and should be an effective public 
safety tool. For example, boaters who have lost their way in 
fog have been pinpointed and rescued, police have been able to 
locate crime scenes even in situations where caller information 
is extremely limited, and drivers whose cars have rolled off 
the roads have been found, thanks to location capabilities, but 
this capability is not yet available nationwide, and one life 
lost is one too many, as we know from the testimony of 
Assemblyman Koon.
    Because of the widespread use of mobile phones by American 
consumers, and because of the potential to enhance consumer 
safety and security, the FCC has taken the lead to ensure that 
nationwide E-911 capabilities become a reality, and I remember 
when the FCC first initiated its proceeding on E-911 location 
in the mid-1990's, and many were skeptical, and you might ask 
why. Well, there was no commercial demand at that time, there 
was no statutory mandate, and no technology available.
    There was also uncertainly regarding timing and cost, but 
fortunately, the leadership at the FCC at that time forged 
ahead with this important public safety initiative, despite the 
numerous obstacles. Over time, we have learned a great deal 
about the nature of E-911 and how to overcome unanticipated 
barriers to deployment. For example, when the Commission found 
out that handset-based solutions would allow increased 
accuracy--like these kind--we modified our rules to allow 
carriers to select either a network solution or a handset-based 
approach, and the handset-based approach is now being widely 
deployed, with impressive results.
    We have also come to appreciate the technological and 
operational complexity associated with E-911 deployment. As 
pointed out by Representative Eshoo, multiple Federal, State, 
and local jurisdictions are involved in this roll-out effort, 
and for example, to ensure an accurate location, first the 
wireless carriers must implement either a handset or a network-
based E-911 system, then the incumbent local exchange carriers 
must provide appropriate trunks and update their automatic 
location identification databases, and last, the local public 
safety community, the PSAP's, must be able to process that 
location data that is transmitted from the wireless carriers to 
the other phone companies, and at every stage of this pipeline, 
there are funding and operational issues that can arise.
    Despite these hurdles, Phase II has been deployed in 
approximately 125 markets across the country to more than 300 
PSAP's in 16 States, including Houston, Dallas-Forth Worth, 
Chicago, East St. Louis, and the State of Rhode Island. 
Additionally, with respect to location-capable handsets, there 
are numerous choices available on the market today at very 
reasonable prices, but we must do more. As deployment 
continues, we must remain vigilant about ensuring that E-911 
service is delivered as promised. If a carrier fails to meet 
its deployment obligations, the FCC will not hesitate to use 
its enforcement power. This is consistent with one of my key 
regulatory principles. The FCC must have clear rules, and then 
we must enforce those rules.
    Although my first choice is always for the carriers to use 
their resources to deploy E-911 services, when they fail to 
comply with their individual roll-out plans, the Commission 
must take action. So in several instances, the FCC has 
negotiated consent decrees with wireless carriers, requiring 
contributions to the Treasury, and we have imposed deployment 
benchmarks and reporting obligations to ensure ongoing 
compliance, but perhaps more importantly, we are looking at new 
ways to help speed deployment and ensure the smooth 
implementation of E-911 across the country.
    To this end, the FCC has held a variety of proceedings on 
E-911 implementation, and we also commissioned a report by 
independent expert Dale Hatfield. We specifically asked him to 
examine the technical and the operational issues affecting E-
911 implementation.
    As the Hatfield report recognized, delivering on the E-911 
promise is a highly complex process that requires an enormous 
amount of coordination among numerous stakeholders. You have 
the FCC, the wireless carriers, the PSAP's, Congress, State and 
local governments, location technology vendors, the LEC's, and 
911 service providers, and this coordination effort is an 
essential component in the Commission's implementation plan for 
E-911.
    But what is most important to us is, our citizens do not 
really care how they are located. They do not care who takes 
the call, or how it is routed, or what data is used to transmit 
the information. They simply want to know that help will arrive 
as soon as possible, and the FCC is committed to doing 
everything in our power to ensure that the various stakeholders 
work in harmony to make this happen. Therefore, Commissioner 
Adelstein and I are pleased to announce the launch of the FCC's 
E-911 Coordination Initiative, with the first meeting scheduled 
for April 29, 2003. This initiative will help ensure that 
everyone has a clear understanding about the roles and 
responsibilities of the parties involved, and it will provide a 
framework for working out unexpected problems that may delay 
deployment, and an opportunity to share best practices, and I 
believe this effort should be directly responsible to some of 
the concerns that were expressed by Senator Clinton, 
Congresswoman Eshoo, and Congressman Shimkus.
    In addition, the initiative will build on the can-do spirit 
of many of the participants in the E-911 Caucus, including 
leaders such as John Melcher from NENA, and Thera Bradshaw of 
APCO, who are here today to testify.
    In closing, I want to thank you, Senator Burns, and this 
subcommittee for your leadership in this very important area, 
and for the opportunity to provide information on the 
implementation of wireless E-911, and I appreciate Congress' 
efforts and, in particular, the efforts of this subcommittee 
and the E-911 Caucus to keep attention focused on this critical 
issue, and I look forward to working with all of you to advance 
our common goal of improved safety and security for all 
wireless customers.
    Thank you very much.
    [The joint prepared statement of Ms. Abernathy and Mr. 
Adelstein follows:]

    Joint Prepared Statement of Hon. Kathleen Q. Abernathy and Hon. 
Jonathan S. Adelstein, Commissioners, Federal Communications Commission
    Good morning, Mr. Chairman and distinguished members of the 
Subcommittee. We appreciate this opportunity to appear before you this 
morning on behalf of the Federal Communications Commission (FCC) to 
discuss the Commission's work in support of the deployment of Enhanced 
911 (E-911) wireless services throughout the United States. This 
hearing is an important opportunity to focus a spotlight on a critical 
public safety matter, and we commend Chairman Burns and the other 
members of the Congressional E-911 Caucus for their leadership in this 
area.
I. Introduction
    Since the tragic events of September 11, 2001, and during these 
uncertain times, we are reminded now more than ever of the importance 
of our Nation's emergency response system and the public's reliance on 
dialing 911 to reach first responders in times of crisis. Increasingly, 
911 calls are being made from wireless phones. Public Safety Answering 
Points (PSAPs) report that they receive 30 to 50 percent of emergency 
calls from wireless phones.
    An important goal of the FCC is to ensure that each American who 
uses a wireless phone has enhanced 911 capabilities. This is made more 
challenging by the fact that wireless phones are mobile. Mobility 
creates technological challenges related to automatic location 
identification when dialing 911--a crucial element in responding to 
emergency situations.
    The FCC's E-911 regulatory regime is a government-led effort to 
mandate the development and deployment of wireless 911 automatic 
location identification technology prior to commercial demand for that 
product. Indeed, the FCC's initial decision in 1996 to impose an E-911 
requirement on mobile wireless carriers was not based on any statutory 
mandate, nor was it based on any tangible technological showing. 
Subsequently, in 1999, Congress passed S. 800, the Wireless 
Communications and Public Safety Act of 1999, which was championed by 
Chairman Burns, among others. This legislation mandated 911 as the 
universal number for emergency calls and furthered E-911 implementation 
by addressing key issues such as privacy and carrier liability.
    The deployment has been a tremendous undertaking full of 
uncertainty about the technology, the timing, and the costs for all 
parties involved. The Commission set an ambitious roll out schedule for 
the deployment of wireless E-911. In hindsight, wireless carriers and 
their vendors may not have fully appreciated the difficulties in 
deploying such a new, but important, technology. All parties have been 
frustrated by unforeseen obstacles, but continue to work through the 
issues to ensure successful deployment of a nationwide E-911 system.
    As part of our commitment to the deployment of Enhanced 911 
nationwide, the FCC has worked very hard over the past 18 months to 
clarify the rules and schedules governing the deployment and 
implementation of E-911 services. We are pleased to report that many of 
the wireless carriers have followed suit. Moreover, several 
technological solutions to identify a wireless 911 caller's location 
are now available, with more anticipated in the future.
    Now that the E-911 rules and policies have been clearly 
established, our focus has rightly turned to ensuring prompt wireless 
E-911 implementation. Implementation is an extremely complex process, 
and the Commission has taken firm steps to ensure that wireless 
carriers assume their responsibility in ensuring that the deployment of 
wireless E-911 is not unnecessarily delayed. Enforcement actions have 
been initiated, million dollar fines have been issued, and consent 
decrees now are in place.
    To speed full implementation, greater coordination is necessary 
among all stakeholders--the FCC, wireless carriers, PSAPs, location 
technology vendors, incumbent local exchange carriers (ILECs), local 
and state governments, equipment manufacturers, and 911 service 
providers. And the FCC will do its part. We are pleased to announce 
that the FCC will launch an E-911 Coordination Initiative to complement 
current efforts by those parties to speed and rationalize the E-911 
deployment process, and to ensure that all parties and the public have 
clear expectations about the roles of the respective parties and 
deployment plans. The Coordination Initiative will be launched with a 
joint session of all the affected parties and the public at the 
Commission on April 29, 2003. In particular, the event will follow up 
on the findings and recommendations of the Commission's Hatfield Report 
on E-911 deployment. We look forward to a full dialog on these issues 
that will spur efficient and effective E-911 deployment.
    Not all aspects of E-911 deployment are within the Commission's 
control, however. For example, financial support and assistance from 
state and local authorities to provide funding to the PSAPs for their 
part in this important initiative is also imperative. We know that 
members of Congress and particularly members of this Subcommittee share 
the Commission's goal that the entire Nation will have access to 
wireless E-911 services as soon as practicable. We are pleased that 
Congress is continuing its active role in the roll out of wireless E-
911 through efforts such as the bipartisan Congressional E-911 Caucus, 
co-sponsored by Senators Burns and Clinton and Representatives Shimkus 
and Eshoo. We look forward to working with you on achieving the goal of 
a nationwide E-911 system.
II. Background
    The FCC and Congress have been working toward E-911 deployment for 
almost a decade. In 1996, based in large part on a consensus agreement 
developed by the wireless carrier and public safety communities, the 
FCC established two phases of E-911 deployment. Phase I requires 
carriers to deploy a service that provides the telephone number of the 
911 caller and the location of the cell site or base station receiving 
the 911 call. Phase II service requires wireless carriers to provide 
precise location information for wireless E-911. Because of 
technological challenges associated with Phase II deployment, the FCC 
has allowed nationwide wireless carriers to commit to individual 
compliance plans. In some cases, wireless carriers have violated the 
terms of their compliance plans, and these violations have led to 
enforcement actions.
III. Wireless E-911 Deployment Today
    The deployment of E-911, because of technological and other 
challenges, was never intended to be a flash-cut process, but a gradual 
phase-in over several years. It is estimated that there are between 
5,000 and 7,000 PSAPs across the Nation. Despite these challenges, 
wireless E-911 is becoming a reality. Deployment of Phase I service is 
well under way. Of the Phase I requests received from PSAPs, five of 
the six nationwide carriers reported that they have fulfilled 
approximately 70 percent or more of these requests, and two wireless 
carriers, AT&T Wireless and Verizon Wireless, report that they have 
each fulfilled over 90 percent of Phase I requests received.
    The precise rollout of Phase II service, like that of Phase I, 
depends in large part on when the PSAP makes a request to the wireless 
carrier for Phase II service. PSAPs must have the ability to upgrade 
their systems to receive location information and have cost-recovery 
mechanisms in place before a wireless carrier must implement Phase II 
pursuant to a PSAP request. Unfortunately, because of budget cuts, many 
jurisdictions do not have the required funding to upgrade their PSAPs 
so that they are technologically ready to support Phase II 
implementation.
    When wireless carriers implement Phase II services, they may select 
either a handset-based or network-based solution. Wireless carriers 
that use network-based solutions must deploy Phase II to 50 percent of 
the PSAP's coverage area within six months of a valid request, and to 
100 percent of the PSAP's coverage area within 18 months of a request, 
unless the parties agree upon a different schedule. Wireless carriers 
choosing a handset-based solution must complete any necessary upgrades 
to their systems within six months of a PSAP request. Additionally, the 
rules provide for specific benchmark dates by which these carriers must 
begin to sell and activate a certain percentage of handsets that 
provide location information. By December 31, 2005, these carriers must 
ensure that 95 percent of their customers' handsets are location-
capable.
    The 2005 date is popularly referred to as the final implementation 
date of Phase II wireless E-911. However, it is important to note that 
the December 31, 2005 date primarily requires carriers choosing a 
handset-based Phase II solution to ensure that at least 95 percent of 
their subscribers have location-capable handsets. As the Commission 
does not have jurisdiction over PSAPs, there is no corresponding 
requirement that PSAPs actually be able to receive Phase II data at 
that time. Also, those carriers who have selected a network-based 
solution will continue to deploy Phase II within six months of a valid 
PSAP request. With regard to the 2005 date for carriers with handset-
based technologies, the Commission has held firm to this implementation 
date for location-capable handset deployment. We recognize that a 
continuing set of delays could seriously hinder E-911 deployment and 
therefore could reduce safety-of-life services for all Americans.
    According to the most recent reports submitted to the FCC by the 
nationwide wireless carriers, Phase II has been deployed in 
approximately 125 localities across the country, to more than 300 PSAPs 
in 16 states. Multiple wireless carriers are providing Phase II service 
to their customers in metropolitan areas such as Houston, Dallas/Fort 
Worth, Chicago, East St. Louis, as well as Rhode Island. At least one 
wireless carrier has deployed Phase II service in cities such as Kansas 
City, Miami, Richmond, San Antonio, and Indianapolis.
    Additionally, with respect to location-capable handsets, every 
nationwide carrier using a handset-based approach is offering at least 
one location-capable handset model, in accordance with applicable 
benchmarks. Both Sprint PCS and Verizon Wireless have reported that 
they are offering their customers at least ten different GPS-enabled 
handset models. Sprint reported that it has sold over 5.8 million GPS-
enabled handsets.
IV. FCC Actions To Promote Continued E-911 Deployment
    To further promote the successful implementation and deployment of 
nationwide E-911, the FCC has engaged in four major areas of activity: 
(1) enforcement, (2) implementation, (3) investigation of technical and 
operational challenges, and (4) outreach and coordination. As discussed 
below, all four areas are essential to ensure that E-911 deployment 
moves forward as swiftly and effectively as possible.
A. Enforcing FCC Directives
    The Commission requires carriers to comply with our E-911 rules, 
and during the past year we have not hesitated to use our enforcement 
power when wireless carriers are not justified in failing to meet the 
FCC's requirements. In cases where the public interest warrants, we 
have provided additional flexibility in situations where delayed 
compliance is beyond the wireless carrier's control.
    When the FCC last reported to Congress on the status of E-911, we 
indicated that individual compliance plans for the nationwide carriers 
were in place. Since that time, the Commission has taken the following 
actions where carriers have failed to comply with these plans:

  <bullet> Entered into consent decrees with AT&T Wireless (June 2002) 
        and Cingular Wireless (May 2002) regarding deployment of E-911 
        over their Time-Division Multiple Access (TDMA) Networks, 
        notwithstanding the fact that both carriers plan to phase out 
        much of their TDMA networks as they transition to the Global 
        System for Mobile Communications (GSM) standard. These consent 
        decrees require AT&T Wireless and Cingular Wireless each to 
        make a $100,000 voluntary contribution to the U.S. Treasury, to 
        deploy E-911 Phase II technology at their TDMA cell sites, and 
        to provide Phase II service in response to PSAP requests by 
        specified benchmark dates. The consent decrees also require the 
        carriers to make automatic penalty payments for failure to 
        comply with deployment benchmarks and to submit periodic 
        reports on the status of their compliance efforts.

  <bullet> After issuing a Notice of Apparent Liability against AT&T 
        Wireless for apparent E-911 violations concerning its GSM 
        network, the Commission and AT&T Wireless entered into a 
        consent decree in October 2002 to address these apparent 
        violations. This decree requires AT&T Wireless to make a $2 
        million voluntary contribution to the U.S. Treasury, to deploy 
        E-911 Phase II technology at its GSM cell sites and provide 
        Phase II service in response to PSAP requests by specified 
        benchmark dates. The consent decree also requires AT&T to make 
        automatic penalty payments for failure to comply with 
        deployment benchmarks and to submit periodic reports on the 
        status of its compliance efforts.

  <bullet> Recently, the Enforcement Bureau initiated an investigation 
        into Cingular Wireless's and T-Mobile's deployment of E-911 
        with respect to their GSM networks and will make a 
        recommendation to the FCC shortly on how to proceed.

    The Commission continues to monitor each carrier's progress in 
deploying Phase I and Phase II E-911 and to investigate alleged 
failures to meet FCC-mandated benchmarks. Where warranted, the FCC will 
continue to take quick action to ensure that wireless carriers comply 
with the FCC's E-911 rules and regulations.
    It is worth noting that the three wireless carriers deploying GSM 
networks have experienced difficulties in meeting their benchmarks due 
to technology problems. The Commission has repeatedly met with these 
carriers to emphasize the seriousness of the existing benchmarks. All 
three carriers were referred to the FCC's Enforcement Bureau. Within 
the past six months, two of those carriers have announced their 
decision to switch location technologies to ensure improved performance 
of their E-911 systems.
    Finally, on a separate enforcement front, in December 2002, in 
response to allegations made in lawsuits filed by the Wireless 
Consumers Alliance, the Commission's Enforcement Bureau initiated an 
investigation against ten equipment manufacturers regarding possible 
violations of the 911 call processing rule with respect to certain 
handset models. The Enforcement Bureau sent letters to the 
manufacturers requesting information as to whether a total of 33 
handset models are in compliance with the 911 call processing rule. The 
Bureau is reviewing the responses and preparing follow-up letters to 
some of the manufacturers and working with the FCC's Office of 
Engineering and Technology on possible field and lab testing protocols 
to ensure the manufacturers are in compliance with our rules.
    The 911 call processing rule requires that all mobile phones 
manufactured after February 13, 2000, and capable of operation in an 
analog mode, incorporate one or more of the special procedures for 
processing 911 calls endorsed or approved by the Commission. Such 
procedure must recognize when a 911 call is made and must override any 
programming in the mobile phone that determines the handling of a non-
911 call in order to permit the 911 call to be handled by an analog 
carrier other than the user's preferred analog carrier.
B. Moving Towards Full Implementation
    Although significant progress is being made, we still have a long 
way to go before wireless E-911 is deployed across the Nation. In 
addition to actively enforcing its existing rules, the FCC is also 
looking at new ways to help speed and smooth implementation of E-911 
across the country. To this end, over the past year, the FCC has made a 
number of E-911-related rulings, including:

  <bullet> Setting a deployment schedule for smaller, non-nationwide 
        carriers to begin to provide E-911 service. Specifically, under 
        this schedule, mid-sized carriers were required to begin 
        deployment on March 1, 2003 and small carriers will begin 
        deployment later this year. Like the nationwide carriers, mid-
        sized carriers must report regularly on their E-911 deployment 
        progress, and smaller carriers must provide a report outlining 
        their plans for E-911 deployment.

  <bullet> Clarifying PSAP readiness issues and providing for a 
        certification process for wireless carriers where wireless 
        carriers have completed all necessary steps toward E-911 
        implementation that are not dependent on PSAP readiness.

  <bullet> Issuing guidance on cost recovery issues regarding the 
        demarcation point between PSAPs and carriers.

  <bullet> Issuing a Further Notice of Proposed Rulemaking seeking 
        public comment on how the 911 and E-911 rules should apply to 
        technologies not currently covered by the rules, such as Mobile 
        Satellite Service, telematics services, and emerging voice 
        services and devices; and seeking updated information on issues 
        involved with the delivery of callback and location information 
        on 911 calls from stations served by Multi-Line Telephone 
        Systems, such as PBXs. This item provides an early forum for 
        the possible extension of our 911 and E-911 rules.

    In other instances, the Commission directly responded to concerns 
raised by several of the national public safety organizations regarding 
the unnecessary diversion of PSAP resources to respond to unintentional 
or harassing 911 calls from wireless phones. In October 2002 and 
pursuant to a specific public safety request, the Commission issued a 
public notice clarifying that its 911 call-forwarding rule does not 
preclude wireless carriers from blocking fraudulent 911 calls from non-
service initialized (NSI) phones pursuant to state and local laws. The 
public notice highlighted the waste of public safety resources that 
results from fraudulent 911 calls made from NSI handsets, which lack a 
call back number. The Commission continues to look at the issue of NSI 
wireless phones through an ongoing proceeding.
    In December 2002 the Commission released a Staff Report on 
unintentional wireless 911 calls, which occur when a consumer 
accidentally dials 911, often through use of a preprogrammed auto-dial 
key. The report confirmed that unintentional wireless 911 calls pose a 
significant problem for PSAPs, and outlined steps that industry 
participants can and should take to address the problem. For example, 
the major wireless carriers have requested that their vendors cease 
shipping phones with an active, auto-dial 911 feature. In nearly all 
cases, wireless phones distributed by these carriers have not had an 
auto-dial 911 feature since at least February of 2002. In addition, the 
Cellular Telecommunications and Internet Association (CTIA) has 
modified its handset certification program such that certified handsets 
may not be preprogrammed with an auto-dial 911 feature.
    The FCC has also received a commissioned report of an independent 
expert, Dale Hatfield, which examined the technical and operational 
issues affecting wireless E-911 implementation. Mr. Hatfield, a widely 
respected telecommunications expert with nearly four decades of 
experience, met with interested parties to elicit more detailed 
information regarding E-911 deployment issues. In October 2002, he 
released a report to the Commission containing his findings and 
recommendations. The Commission sought public comment on the Hatfield 
report late last year, and the Commission is actively considering Mr. 
Hatfield's recommendations.
    In his report, Mr. Hatfield made a number of findings identifying 
obstacles to E-911 deployment, which include:

  <bullet> Wireless carrier implementation issues;
  <bullet> ILEC cost recovery and technical issues;
  <bullet> Cost recovery and PSAP funding issues;
  <bullet> Ongoing need for PSAP education, assistance, and outreach; 
        and
  <bullet> Lack of comprehensive stakeholder coordination.

    While the FCC had already become aware of many of the issues raised 
in the Hatfield report and was working on potential solutions, the 
Hatfield report suggested many novel approaches, which the FCC is 
actively studying and, in some cases, implementing.
C. Overcoming Technical and Operational Challenges
    The Hatfield report confirmed that ILECs play a critical role in 
the deployment of wireless E-911 service. ILECs generally serve as 911 
system operators, providing trunks, facilities, and services necessary 
to connect wireless carriers and PSAPs. For Phase II, they also provide 
the Automatic Location Identification (ALI) databases that are used for 
wireline 911 and must be upgraded to accommodate wireless ALI data. The 
FCC has sought cooperation from the ILECs to fulfill their E-911 
implementation role. In response to concerns from both the PSAP and 
wireless communities, late last summer, the FCC requested additional 
information from the six major ILECs regarding their role in E-911 
deployment, including specific information on technical issues and cost 
recovery plans.
    Additionally, Commission staff has been working with state 
commissions, wireless carriers, PSAPs, and ILECs regarding specific 
cost issues that have been brought to our attention. In one instance, 
the Commission staff issued a letter regarding a dispute over 
responsibility for the costs to upgrade ALI databases for purposes of 
deploying wireless E-911 Phase II service. We fully intend to take 
action where appropriate to ensure that actual wireless E-911 
deployment is not delayed because of perceived regulatory disputes. In 
an Order released last fall, the Commission similarly expressed concern 
over the potential threat to timely wireless deployment due to a lack 
of cooperation by the ILECs and noted that it would consider 
instituting enforcement actions or imposing additional regulatory 
obligations on ILECs, if necessary.
    The Hatfield report also confirmed that there continue to be E-911 
implementation issues outside of the Commission's purview. 
Specifically, we note that PSAP funding continues to be a significant 
barrier to deployment. Although cost recovery mechanisms are in place 
in a number of states, these funds have on occasion been diverted for 
other uses unrelated to E-911. If PSAPs do not have funds in place to 
upgrade their systems, Phase II service will not be implemented in 
those areas. We know that this issue already has been raised by the 
Congressional E-911 Caucus, and we applaud your efforts to resolve this 
critical issue.
D. Coordination and Outreach
    Wireless E-911 implementation is a highly complex process that 
requires an enormous amount of coordination. Both coordination and 
outreach are essential components in the Commission's ongoing effort to 
facilitate E-911 implementation. We look forward to working with the 
Chairman and our fellow Commissioners on our E-911 Coordination 
Initiative. We believe that the upcoming April 29 meeting will 
complement the national public safety organizations' leadership efforts 
and result in substantial progress for all parties.
    The Commission's Wireless Telecommunications Bureau (WTB) and 
Consumer and Governmental Affairs Bureau (CGB) have provided ongoing 
outreach to consumers, public safety, and state legislators on E-911 
issues. In addition to speaking at numerous conferences, the Bureaus 
have served to educate PSAPs, state legislators, and the public on 911 
and E-911 issues. With respect to educating the public, CGB most 
recently established a Consumer Alert on unintentional 911 calls and 
WTB has established a web page for 911 and E-911 issues, which include 
Fact Sheets on the wireless E-911 requirements generally and the 
nationwide carriers' obligations to deploy E-911 pursuant to their 
approved compliance plans. We will continue these efforts and begin 
other outreach efforts to ensure that E-911 implementation is as 
efficient as possible.
    The Commission staff also has been monitoring the E-911 
coordination efforts of other organizations to enhance stakeholder 
coordination. We applaud the joint efforts of industry and public 
safety to focus on E-911 deployment and coordination of stakeholders. 
For example, public safety outreach efforts such as the National 
Emergency Numbering Association's Strategic Wireless Action Teams 
Initiative and the Association of Public-Safety Communications 
Officials' Project Locate have been instrumental in working with local 
PSAPs to ensure PSAPs are aware of their responsibilities and to assist 
with on-the-ground implementation efforts. Additionally, the joint 
industry and public safety group, Emergency Services Interconnection 
Forum (ESIF), an arm of the Alliance for Telecommunications Industry 
Solutions, has worked to develop and refine technical and operational 
interconnection issues to ensure wireless 911 will be available to 
everyone.
    Last month, ESIF submitted to the Commission a PSAP Readiness 
Package, which was developed through the joint efforts of wireless 
carriers, 911 service system providers, and public safety 
organizations. This serves as a useful tool for PSAPs that are 
unfamiliar with the E-911 request process. The Department of 
Transportation has also established a Wireless E-911 Initiative, which 
includes efforts to bring national leadership and attention to the E-
911 issue, to provide technical assistance and guidance and training to 
accelerate PSAP readiness, and to engage the Nation's leading 
information technology experts in a reexamination of the technological 
approach to E-911.
V. Conclusion
    Wireless communications have become increasingly important to our 
national communications infrastructure and our everyday lives. That 
significance is further validated by the fact that the United States is 
the only nation in the world that has required that wireless telephones 
are E-911 capable to assist the public safety community in performing 
their vital work. All the stakeholders who have worked on this 
process--Congress, the public safety community, wireless carriers, 
ILECs, state and local governments, equipment vendors, technology 
vendors, and the Commission--should be proud of this accomplishment. 
However, these very same stakeholders must continue to be diligent in 
completing the availability of Nationwide E-911 in the near future.
    The Commission continues to make wireless E-911 deployment one of 
its highest priorities. We have come a long way, and through some 
difficult times, but we are optimistic about the future of wireless E-
911. We appreciate Congress's efforts, and in particular, the efforts 
of members of this Subcommittee, to keep this issue in the forefront.
    We would like to thank the Subcommittee for this opportunity to 
provide information on wireless E-911. We look forward to hearing your 
views and answering any questions you may have.

    Senator Burns. Thank you, and thank you for your testimony.
    Commissioner Adelstein, thank you for coming today.

STATEMENT OF HON. JONATHAN S. ADELSTEIN, COMMISSIONER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Mr. Adelstein. Thank you, Mr. Chairman, for inviting me to 
testify. Senator Nelson and Senator Boxer, good morning. I am 
honored to join my friend and colleague, Commissioner 
Abernathy, in reporting on the FCC's role in promoting the 
deployment of E-911 services. I am thrilled that so many 
members of the public safety community are here with us this 
morning as well. They are on the front lines every day, and 
they deserve our thanks and our support.
    Mr. Chairman, I commend you and Senator Clinton and 
Representatives Shimkus and Eshoo for your leadership and 
vision in establishing the E-911 Caucus. It was nice to join 
you last week at the roll-out of that initiative, and I think 
that is really a necessary continuation of leadership that you 
and Senator Hollings and this committee have shown and 
demonstrated on this issue, foremost by enacting the 911 
legislation back in 1999.
    Mr. Chairman, you have been at this a long time, and you 
have really kept pressing us forward. I remember at my 
confirmation hearing you asked me about this very issue. I told 
you then that, in my Jewish tradition, the Talmud says if you 
save one life, you save a whole world. When people look back on 
your career and those of the people on this committee, I think 
they will recognize that you have saved a lot of worlds. You 
will have helped so many people that otherwise would have 
suffered perhaps death or disability, or horrible harm, to be 
located more quickly by emergency personnel.
    As far as I am concerned, as a Commissioner at the FCC 
there is no higher calling or higher priority for us at the FCC 
than wireless E-911. Every day, we confront issues that affect 
billions of dollars, and sometimes you read about them on the 
front pages. However, I do not think there is anything more 
critical than this issue, because it is a matter of life and 
death.
    I want to share a story from the pre-E-911 days from my 
home State of South Dakota. You might have heard about a woman 
named Karen Nelson, whose car got stuck in the snow along a 
country road in a huge snowstorm. Fortunately, she had a cell 
phone, but this was back in 1997, before the days of E-911, and 
she did not know where she was. But she heard a search plane 
flying overhead, and when the noise got louder she told the 
dispatcher, ``it is getting closer, it is getting closer'', and 
as it got further away and the noise got fainter, she said, 
``it is getting further away.'' Eventually she provided enough 
information that after several passes, she was rescued, and 
that was only after spending 40 hours in her car in the dead of 
winter, so thank God she was saved. This is truly a primitive 
but innovative use of location technology.
    Now we have really got to make wireless E-911 happen 
everywhere. We have come a long way since then, but we still 
have a long way to go. I think the deployment had a fitful 
start. It was based on a new and unproven technology, as 
Commissioner Abernathy indicated, and required unprecedented 
cooperation from a wide range of players. Commissioner 
Abernathy mentioned some of the players that are involved, and 
it is worth repeating, because it is incredible how complex it 
is to get those involved coordinated.
    There are wireless carriers, public safety answering 
points, equipment and technology vendors, local exchange 
carriers, State utility commissions and local governments, and 
the FCC. Now we have the Department of Homeland Security and 
the Department of Transportation involved and, of course, 
Congress showing leadership the whole way.
    Looking back, though, I think that many of us agree that 
the ball was dropped on occasion as we moved down the line on 
this; but I really think, if you look at the numbers in the 
recent reports, that things are turning a corner. In the last 
year, the FCC cracked down on some of the wireless carriers, 
and most of them, I think, have responded well. Some hard 
decisions were made, some technologies were dropped, and fines 
were levied, but we all needed to get a well-deserved kick in 
the pants to get back on track.
    The numbers reveal the progress. Five of the six nationwide 
carriers report that they have deployed 70 percent or more of 
Phase I requests. It is not enough, but it is a good start, and 
it is a huge improvement over what we have seen in the past. 
Phase II is now deployed to more than 300 PSAP's in 16 States. 
Again, it is not much, but it is a lot more than we had, and it 
shows that we are getting the job done. We are starting to see 
the roll-out in actual deployment. Millions of GPS-enabled 
handsets have been sold. Sprint alone sold 5.8 million of them. 
Some of this deployment is a direct result of consent decrees 
that were negotiated by the Commission in earlier enforcement 
actions.
    Now, the FCC absolutely can and must do more to speed the 
roll-out of E-911. In my view, we can never do enough. That 
means when carriers come seeking waivers or extensions, we have 
to think enforcement first. We must continue to give guidance 
to our partners on State public utility commissions on cost 
recovery, and other deployment issues. We have got to continue 
to respond to PSAP's need to deal with such issues as 
unintentional 911 calls, and noninitialized phones.
    Finally, we should aggressively support the incumbent local 
exchange carrier's vital role in this. We have heard about it 
in the Hatfield report. We heard about it again this morning. 
We must continue to convey to them the importance of this as we 
have done over the last year.
    I certainly share Commissioner Abernathy's enthusiasm about 
the Commission's upcoming E-911 Coordination Initiative that we 
are announcing this morning. This initiative, along with our 
ongoing outreach efforts, will ensure the FCC continues to lead 
the deployment effort for wireless E-911, as Congress clearly 
envisioned and as this committee intended when it enacted the 
911 Act. But we really need your help as well, and I think this 
morning is very helpful to us. Given that the FCC has no 
jurisdiction over many of the key players in this effort, the 
continued leadership of members of this Committee and the 
Congressional E-911 Caucus will remain essential.
    For example, the Commission does not have the ability to 
ensure that States do not raid funds specifically set aside for 
E-911 services. We do not have the financial resources to help 
those PSAPs that want Phase II service, but are located in 
jurisdictions without a cost recovery mechanism, or if they 
have a mechanism, from which they are not getting any funding, 
as we heard about in the case of New York.
    So we are all partners in this effort, and it is up to us, 
and I really mean all of us in this room and those that we 
represent, to work together to get this done quickly and 
effectively. I look forward to working in partnership with you 
and the other stakeholders who share our commitment to finish 
this job.
    So thank you for the opportunity to testify, and I would be 
happy to answer any questions you might have.
    Senator Burns. Thank you, Commissioner. We have been joined 
by Senator Nelson of Florida.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Would you put my statement in the record?
    Senator Burns. We would.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Enhanced 911 is the most important challenge facing the wireless 
industry.--I want to tell you a story about Karla Gutierrez. This young 
woman might be alive today if Enhanced 911 technology had been in place 
when her car left the Florida Turnpike and plunged into a canal. 
Gutierrez called for help from her cell phone and informed a 911 
operator that she was sinking, but she couldn't provide authorities 
with her exact location.
    By the time she was found, it was too late. Her car was discovered 
upside down in the water by a State Trooper who happened to notice a 
broken guardrail where her car spun out of control.
    Florida was working to install E-911 when the accident occurred, 
but Karla's death served as a wake-up call that the process needed to 
be accelerated.
    Since Karla's tragic accident in February 2001, the State of 
Florida, working with the telecommunications industry, has made 
significant progress in implementing E-911 systems across the state--
but much work remains to be done.
    The task of implementing a statewide Enhanced 911 system in Florida 
has been challenging for local jurisdictions and carriers. While 
Florida has a population in excess of 15 million, there are counties 
with populations of less than 15,000 people, and individual system 
designs have required different approaches.
    Despite these difficulties, E-911 is needed more today than ever 
before.--During this time of heightened security we are asking state 
and local public safety officials to bear an increased share of the 
burden of keeping America safe. We are asking them to do more law 
enforcement as federal resources are shifted to the war on terror and 
we're asking them to be prepared for attacks including the use of 
weapons of mass destruction which could result in mass casualties.
    The least we can do is ensure that local jurisdictions have the 
resources necessary to deal with the new public safety challenges posed 
by terrorism including making sure every PSAP is equipped and prepared 
to request E-911 service from carriers.
    Florida has come a long way in the last couple of years not in 
small part due to the State's E-911 Coordination Board and the state's 
decision to allocate funding to pay for a portion of the E-911 upgrade. 
But we need to stay on top of this issue at the federal level to make 
sure this important process is moving forward. I look forward to 
working with the Committee to ensure this process is completed in a 
timely manner.

    Senator Nelson. I have to go to a classified briefing, and 
I also have a couple of questions if I could insert them for 
the record.
    Senator Burns. We would sure step aside and let you ask 
your questions now, if you have any. If you do not have any, 
next time, duck.
    [Laughter.]
    Senator Nelson. I was just going to say--you have a great 
way of putting it in words, Mr. Chairman.
    Mr. Chairman, I was just going to say, this is personal to 
us in Florida. We have a lot of canals along major roads, and 
there was a lady named Karla Gutierrez that her car went out of 
control, she went into a canal, she was using her cell phone, 
she could not tell the dispatcher where she was, and it was too 
late by the time that the trooper got there, so it is just 
another example of with technology that is available now, by 
the way, technology that is as a result of the space program, 
Mr. Chairman, that we can make this, that our citizens are the 
beneficiaries, and so I encourage it, and I thank you for 
letting me make this statement, and I will just submit the 
questions for the record. *
---------------------------------------------------------------------------
    * The questions referred to were not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Senator Burns. Thank you. First of all, I know you have 
been handling waivers and this type of thing on the areas where 
deployment has not taken place. Wireless carriers continue to 
challenge those rules with respect to the PSAP readiness and 
have recently sought reconsideration once again.
    How does the Commission balance the relative importance of 
PSAP readiness and the obligations of the wireless carriers, 
and the problems that they face? Anybody--I know--do you study 
those waivers on a case-by-case basis, or is it a blanket 
situation?
    Ms. Abernathy. Well, it depends upon the specific waivers 
involved. When it comes to the largest, the wireless providers, 
those have been case-by-case reviews generally involving a 
request for a bit more time to initiate the roll-out. We have 
never given any waiver of the back-end date, the 2005 date by 
which they need to be ready, and in each instance, we have 
looked at the technology involved, the efforts of the carrier, 
and what has been going on on their part.
    When the PSAP issues have arisen, we have been dealing with 
questions regarding, if a PSAP puts in a request for E-911 
capability to a wireless carrier, and the wireless carrier then 
devotes resources to a particular community, the wireless 
carrier wants to make sure that in fact that PSAP is ready to 
rock and roll, and that they are not devoting those resources 
from another community, so we have spent some time and effort 
ensuring that the PSAP does, in fact, have a cost recovery 
mechanism in place, and that the necessary upgrades will be 
completed in time to ensure that it is a valid PSAP request.
    And then with regard to any other waivers that are in 
place, we did look at rural wireless providers. We gave them a 
longer timeframe to start the initial roll-out of either a 
network solution or a handset-based solution. The reason we did 
this is that the costs were very significant upfront, and the 
belief was, if the largest carriers did the initial placement 
of requests for the technology and for the handsets, the cost 
would be driven down by the time the wireless guys started the 
roll-out, and it would make it much easier for them to assess 
the technology, because it would be there on the shelf, they 
would have better information, so those waivers have been 
handled more on a broad scale for the mid-size and the small 
LEC's, as opposed to the waiver process for the largest of the 
wireless providers.
    Mr. Adelstein. I would just add that, we will take an 
extremely hard view of waivers going forward. We are thinking 
enforcement first now, as I indicated in my testimony, and we 
will only consider waivers in the most narrow circumstances, 
with a substantial justification backed up by hard evidence. We 
prefer to use enforcement mechanisms that lend to a consent 
decree, to make sure that there are strong plans and forfeiture 
provisions going forward to address any issues that result from 
waiver requests.
    You know, at the time that we initially did provide for 
these waivers, we came up with carrier-specific compliance 
plans, so that while a waiver was given, the Commission 
required carriers to meet certain deadlines, and roll this out. 
Now, if they come back to us again and say, well, we need 
another waiver, they had better have a good reason, otherwise 
we will just send it to enforcement at that point.
    Senator Burns. Senator Boxer.
    Senator Boxer. Commissioner Adelstein, I am really glad to 
hear that, because I was concerned when the waivers were 
granted in October 2001, and I guess I do not think you were on 
the Commission at that time, and so I could talk to 
Commissioner Abernathy about that.
    My own view at the time was that the waiver was sending the 
wrong message, and I guess I want to ask you, since you voted 
for that, you do have a chance to now send a message to a lot 
of people in this room about future waivers, and I am glad the 
Chairman started off with that, because it is not going to do 
us any good if we have all these great plans and we hear all 
these horrible stories about people who have lost families, and 
then we are just moving forward, and then there are waivers. It 
does not do us any good.
    So maybe you could make a statement on your view about 
future waivers on final deadline dates.
    Ms. Abernathy. Thank you, Senator. Yes, I think we did 
learn our lesson on those first waivers. The companies came in 
basically requesting waivers at the time saying, look, we do 
not manufacture the equipment, the equipment is not available, 
we are going to miss the initial deployment dates and please 
give us these temporary waivers pursuant to these facts. We did 
that.
    They then came back, and they still were not ready, at 
which point we said, we have learned enough. We sent them to 
enforcement. We have subsequently entered into consent decrees 
with fines or contributions to the Treasury, as well as very 
concrete roll-out dates, and we are in lockstep, Commissioner 
Adelstein and I, as far as where we go from here. You know, the 
technology is there now, the equipment is there, they are 
pretty much--absent something highly unusual, these are 
enforcement matters.
    The good news is, the wireless carriers have, I think, 
gotten the message, too, and they, at this point, it appears, 
are not the slow-down. I think in virtually all instances where 
the PSAP is ready, the wireless carriers are moving forward, 
but that, you know, along with all of your efforts we have to 
keep up the pressure and ensure that everyone knows this is not 
a matter of taking excuses any more. It is a matter of rolling 
out the services.
    Senator Boxer. Good. Well, I think, Mr. Chairman, thanks to 
your leadership, and this hearing today and the announcement 
that you have the special working group or subcommittee, or 
whatever you are calling it, and the statements made by these 
two fine commissioners today, I just think the message is 
clear, and it is very uplifting to me.
    I just have one question, Mr. Chairman, then I am done, and 
that is, you have given me this really fine article in Consumer 
Reports, or your staff handed it to me this morning, and I 
would ask unanimous consent to place it in the record of this 
hearing.
    Senator Burns. Without objection.
    [The information referred to follows:]

                   ConsumerReport.org, February 2003

                    Will Your Cell Phone Reach 911?

   you can't be sure. our research produced some disturbing results.
    One in three people who own a cell phone say they bought it mainly 
for safety--to have if they need to call 911 from the side of the road 
or a dark street at night. And at least one-third of all 911 calls are 
now made on cell phones--just under 57 million calls in 2001, according 
to the Cellular Telecommunications & Internet Association (CTIA), a 
trade group.
    As large as that number is, it's not the total. Some cellular calls 
to 911 never get through. The number of failures can't be known; a call 
that goes nowhere can't be tracked. Our research does give some 
dimension to the problem, however.
    When we surveyed 11,500 subscribers to ConsumerReports.org last 
fall, 1,880 said they had tried to call 911 using a cell phone in the 
previous year. Some 15 percent of them, or 280 people, said they had 
trouble connecting; that includes 4 percent who never got through at 
all.
    For most of those, a weak signal, a bad connection, or some other 
phone-system problem seemed to have caused the trouble. Trouble for the 
remaining respondents apparently involved the emergency system: 
excessive rings, unanswered calls, or being left on hold.
    Wireless 911 calls in California seem especially problematic, 
according to our survey. There, nearly 12 percent of calls to 911 never 
succeeded; one-third of our California respondents said they 
encountered some difficulty getting through to 911.
    When we went into the field, we found problems with the system. 
With a significant number of the calls we made to real 911 centers, the 
phones did not do all we believe they could to make calls connect.
    As anyone who has used a cell phone knows, dropped calls and bad 
connections are a part of everyday life. ``Consumers know when they 
pick up a wireless phone they're making a trade-off between mobility 
and service quality,'' says Travis Larson, a CTIA spokesman.
    But shouldn't 911 calls be different? After all, the landline phone 
system has been especially designed to put through essentially every 
911 call. And the Federal Communications Commission (FCC) has a 
regulation designed to be a kind of safety net for cellular (otherwise 
known as wireless) 911 calls, to improve your chances of getting 
through.
System Realities
    The wireless phone system in the U.S. often handles a call to 911 
just like any nonemergency call. Here's how:
    The phones can be all-digital or, more typically, digital with 
analog calling as a backup. Analog is the common wireless language, 
compatible with any carrier that provides such service. (Phones with 
analog and digital modes are known as dual-band, tri-mode, or 
multinetwork.) Most wireless phones in the U.S. use one of four 
incompatible digital modes.
    When your phone is in digital mode, it can work only with your home 
carrier (the company you use for service) for any call--including those 
to 911--unless the home carrier has a roaming agreement with another 
carrier.
    Phones that can work in both digital and analog modes give you more 
options. Analog provides that safety net for emergency calling. Indeed, 
the principal FCC regulation governing wireless 911 recognizes the 
importance of the analog mode.
    The regulation, which took effect in 2000, says that whenever a 
wireless phone dialing 911 in analog mode can't get through via its 
home carrier, that phone must seek another signal, even if it's from a 
competing carrier, to quickly establish a voice connection.
    The FCC concedes its rule is only a small step toward improving 911 
service. Multinetwork phones, which are normally in a digital mode, 
aren't required to switch to analog to make a 911 call. There are no 
regulations for digital-only phones, such as the kind offered by T-
Mobile and Nextel.

                   Who provides an analog safety net?
   Only some major national wireless-service providers offer an analog
                 safety net as well as digital calling.        Company              Digital format *          Analog backupAT&T Wireless            TDMA, GSM                Yes
Cingular                 TDMA, GSM                Yes
Nextel                   IDEN                     No
Sprint PCS               CDMA                     Yes
T-Mobile                 GSM                      No
Verizon Wireless         CDMA                     Yes*Digital-format abbreviations are defined in our February 2003 report on
  cell phones.

Testing The System
    Last summer, an engineer working for the Wireless Consumers 
Alliance, a nonprofit advocacy group, used our labs to demonstrate that 
wireless phones dialing 911 in analog mode and covered by the FCC 
regulation may still fail to connect.
    That led us to conduct our own real-world tests to find out what 
would happen in places where a home carrier has a weak signal but 
competing carriers have strong signals.
    We ran two rounds of trials making 911 calls to active emergency-
communications centers. We had the full cooperation of local officials 
in Steuben County, Ind., and Sullivan County, N.Y., and were assured 
that our testing did not interfere with response to real emergencies.
    Both areas receive a heavy influx of travelers and vacationers, 
people who are likely to be far from a home calling area. Major 
highways cut through both counties. Steuben County is well served by a 
local carrier that uses the same digital system as AT&T Wireless; 
service from Verizon Wireless and Sprint PCS, however, is marginal. In 
the area of Sullivan County where we ran our tests, the reverse is 
true: Verizon and Sprint have strong signals, but AT&T is marginal.
    All the phones we used in the tests have analog and digital 
capability. According to FCC registration data, only one of the phones 
we used was made before the 911 calling regulation took effect. The 
manufacturers certified that the phones meet all applicable FCC rules.
    In Steuben County, we made 14 test calls on 12 different phones 
with accounts from Sprint and Verizon. In Sullivan County, we made 7 
test calls on 6 phones with accounts from AT&T and Cingular. Overall, 
of the 18 phone-and-service combinations tested, 9 calls failed to 
connect to 911. In every instance, there was a strong signal from 
another carrier the phones could have used.
    In a separate test, some phones connected to 911 on a strong analog 
signal from a competing carrier when they couldn't find any home-
carrier signal.
    Our two field tests represent a small picture of a situation that 
can change with time and location. But we believe that the results 
illustrate a significant problem--a phone's inability to switch from a 
too-weak home-carrier's signal to a strong signal available from 
another carrier.
What Needs To Be Done
    The 911 system needs fixing. The FCC's 911 regulation is out of 
date for today's wireless phones, which increasingly depend on 
digital--not analog--technology. When the rule was written, fewer than 
half of the wireless customers used a dual-mode phone; that has now 
surpassed 87 percent.
    The FCC's regulation also defies ``general common sense,'' says 
Roger Hixson, technical issues director for the National Emergency 
Number Association, the nonprofit umbrella organization for U.S. 
emergency call centers. Hixson explained that phones that can't connect 
in a digital mode or don't automatically roll over to analog for an 
emergency call ``subvert the idea that any call dialed to 911 has to be 
handled by the wireless carrier and brought into the call delivery 
network.''
    The FCC needs to impose higher standards for the wireless 911 
system. A reasonable way to start could be to change the current 
regulation to apply as well to multinetwork phones dialing 911 in 
digital mode. If the call can't be quickly completed through the home 
carrier, the phone should seek another signal.
    Manufacturers and carriers need to invest in safety. We think 
carriers should make the existing 911 system work more effectively, 
which may require some reprogramming of the phones.
    The FCC must ensure that digital phones are more compatible. The 
FCC voted last fall to phase out its requirement that some wireless 
providers offer an analog backup signal. We think that was a mistake 
because the agency did not also require companies to make their digital 
technologies talk with one another. Simply allowing analog to fade away 
removes the principal common wireless language. In the end, you will 
have less assurance than you do now that your phone will get through to 
911.
    The industry needs more diligent oversight. The FCC has the 
industry on an honor system. The agency does no testing to monitor 
compliance with its 911 rule, says Steven Dayhoff, an electronics 
engineer at the FCC labs. Of wireless companies and 911, he says, ``We 
assume that they have the software or firmware for call-handling that 
they're supposed to have.'' He noted, however, ``We have not tried it 
out.''
    At a minimum, the FCC should run its own tests to see that phones 
perform as they should--and as manufacturers have certified--when 
dialing 911.
    Last November the Wireless Consumers Alliance filed a series of 
class-action suits in federal and state courts against various wireless 
phone manufacturers and service providers, maintaining that they 
knowingly sold phones that did not comply with the FCC's regulations. 
The suits seek injunctions against the sale of the phones, as well as 
monetary damages. Consumers Union, publisher of Consumer Reports, is 
not a party to those suits.
What You Can Do

  <bullet> Do not dial 911 to test the system. It's unethical and, in 
        many areas, illegal.

  <bullet> Avoid digital-only phones or carriers if you want a cell 
        phone for emergencies. See the table above.

  <bullet> Some phones that use the Code Division Multiple Access 
        (CDMA) digital format can be forced into analog by the user. 
        Check the user's manual.

  <bullet> If you don't use your cell phone every day, make sure that 
        its battery stays charged.

  <bullet> While driving, leave the phone on and its antenna extended. 
        That may shorten the time needed to reach 911.

  <bullet> If you have trouble connecting to 911 from inside a car, get 
        out, if possible, and call from the side of the road; that may 
        help you get a better signal.

  <bullet> In an emergency, ignore a ``no service'' message on the 
        phone's display. Try the call anyway.

  <bullet> Tell the FCC what you think of the present wireless 911 
        system. To register a complaint or voice your opinion, contact 
        the agency at 888-225-5322.

    For more information about wireless calling and advice on how and 
where to complain about service, go to our advocacy web site, 
www.consumersunion.org.

    Senator Boxer. And I wonder whether you have seen it yet, 
either of you, called ``Will Your Cell Phone Reach 911? You 
Can't Be Sure, Our Research Produced Some Disturbing Results.'' 
Have you read this?
    Ms. Abernathy. I have seen that. It is very----
    Senator Boxer. Just two questions here, or one question. 
The industry needs more diligent oversight, they have put 
forward here. They say, the FCC has the industry on an honor 
system. The agency does no testing to monitor compliance with 
its 911 rules, and I wonder how you would respond to that, 
either of you or both of you.
    Mr. Adelstein. Well, I think there is a deep concern. I saw 
that article, and people are not getting through. This is not 
even Enhanced-911, these are people dialing and getting no 
answer at all when they dial 911. It kind of shows you how much 
of a problem we have in the broader sense, because we are 
trying to build upon an existing system with these enhanced 
capabilities. There are problems within the existing system as 
well, and carriers have an obligation under the rules to make 
sure that these calls go through. We do need to do more 
enforcement. This has been referred to our Enforcement Bureau, 
and I am encouraging them to look at the issue in a very hard 
way.
    We do not have, I do not think, all the resources we need 
to do the kind of testing that we should be doing. We would 
appreciate any resources that Congress could provide to beef up 
our enforcement capabilities in this regard. I personally think 
it would be helpful if we had those resources to get out there 
and test these systems, because if a person dials that number 
and cannot get through, that is the end right there for some 
people. It might result in disability or death if they cannot 
get a timely response.
    There is this golden hour after you have an accident. If 
you can get to a victim quickly, you can really make a big 
difference in terms of the level of trauma they suffer, 
permanent disabilities, or even death. So we cannot afford to 
have these calls not going through.
    Senator Boxer. And compounding it is the fact that in some 
cases it appears as if people buy the phone and think that it 
is compatible, and is going to work, and so that is a travesty, 
and maybe it is even a fraud if the thing does not work, but 
are you saying, just because I want to hone in on this, that--
do you know how to test the systems? Do you have that 
knowledge, and how would you do it? You tell your enforcement 
people to do it. What does that exactly mean? How would they go 
about overseeing the fact that, in fact, the companies are 
complying with the rules even as they are today? How do you do 
that?
    Ms. Abernathy. That became part of the consent decree 
process that I referred to earlier, which is these quarterly 
reports that we are requiring from the carriers, and in those 
reports, we are requiring not only deployment information, but 
information about the types of accuracy that they are finding 
with the specific technologies, because what we found out----
    Senator Boxer. Is that an honor system, because that is 
what this article says. The FCC has the industry on an honor 
system, not really enforcing anything, and that is----
    Ms. Abernathy. Well, I guess in the sense that we look at 
what they report are the stats, and it is in coordination with 
the PSAP's.
    Now, we may need to think about, if that will not work, 
where we had looked at it as a package, if the PSAP's were not 
getting the appropriate information, then we would know because 
they would tell us, but we may need to look further and see if 
some more direct oversight--but part of the reason for the 
reporting was, we did not want to rely just on, trust us, we 
will do the right thing. We wanted to know, in fact, they were 
deploying the right technology with the right kind of accuracy.
    And the other good news, and the other reason why we have 
to continue to push for Phase II of E-911 is that the good news 
is there are so many consumers with wireless phones out there 
today that if someone sees an accident, for a single accident, 
you can get maybe 50 calls, 50 911 calls for a single accident, 
and it ties up the lines, but the people who are answering the 
phones do not know that it is about the same accident, and they 
cannot really move them quickly off the system.
    With location capability, they will know. They will all 
cluster around a single location, and you will be able to make 
the entire system so much more efficient, so that other 911 
calls that absolutely have to get through will get through, so 
the technology, assuming that we do our part, which is to make 
sure it works, it is deployed, the PSAP's are working together, 
and the ILEC's do their part, the technology, no doubt in my 
mind, will dramatically improve all of the personal safety of 
all of the citizens.
    Senator Burns. I have no further questions of this panel. 
We appreciate your testimony. I would like to see some 
movement. We did not know we were going to get lobbied for 
money up here, but that is OK. We handle that every day. I 
think you raise a good point, though, Commissioner Adelstein.
    We did appropriate more money for your labs out there, and 
that is starting to be modernized now, but the monitoring of 
these systems, as you do with television, as you do with radio 
broadcast, the broadcasting industry, and as you do with 
industry, anybody that uses spectrum, of course, you have means 
of monitoring and engineering to make sure everybody is staying 
in their lane on the highway, so to speak, so if that takes 
more dollars then maybe we can find some loose change on the 
floor somewhere and get it to you if you want to pursue that.
    We have been joined by Senator Brownback of Kansas. We 
welcome you, and we had the first panel. This is the second 
panel, the FCC, and if you have any comments or questions of 
this panel we would sure welcome them at this time.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you very much, Mr. Chairman. I 
appreciate that, and I appreciate you holding the hearing and 
pressing this issue of E-911, because it is lives that are at 
stake and lives that will be saved, and I think your pushing 
this forward will be very helpful in the effort to save a 
number of people's lives.
    If I could just note that there have been some 
difficulties. The Chairman is well aware of some of those. We 
need to correct those in the overall process to make sure that 
this works.
    I come here to the hearing for two purposes. One is to 
express support for E-911, because I think it is a great 
product and something we really need to do, and we have got to 
get the process down completely. But also to note, there have 
been a lot of difficulties recently at the Federal 
Communications Commission creating uncertainties in the 
marketplace that I think the Commission really needs to look at 
aggressively and consider what it is doing. The triennial 
review process, that has really created conflicting Federal-
State jurisdictional standards supposedly derived from one 
Federal standard in the act. I voted for the Telecom Act, but I 
cannot recall ever voting in favor of regulation by multiple 
choice.
    This is something that has been widely covered in the media 
overall, and my point in saying it is that the FCC has done 
this with this Telecommunications Act, created a great deal of 
uncertainty. I hope the FCC can get something like E-911 
correct, and working well, given what is apparently going to 
take place in the triennial review that is coming forward.
    I do not intend to spend time today discussing the 
particulars of that. It has not been written yet. I know we 
have heard a lot of rumblings, and there has been tens of 
billions of dollars moved in capital marketization as a result 
of the rumors out from it. I really hope the FCC can work 
together, can work unified, can address some of these issues 
that have really been problematic within telecommunications.
    I hope we can do well with E-911, dealing with its 
problems, and within the Triennial Review, and if either of you 
would care to comment on that, I would appreciate hearing any 
explanation that you might have, or thoughts.
    Mr. Adelstein. Senator Brownback, that is a very good 
point. I would like to say that this Commission is as unified 
on this issue as I have ever seen us. Of course, I have not 
been there that long, but I have spoken to each of my 
colleagues about this issue. I have spoken to the Chairman 
about it and every one of my colleagues, and to a person, they 
have indicated that they have absolute, 100 percent commitment 
to getting this job done, to getting E-911 deployed as quickly 
as possible, as effectively as possible, and to taking a 
leadership role in the Commission on trying to coordinate the 
many different parties that are involved in this. They see it 
as a life-and-death issue, as I do and you do.
    So it is wonderful to see that kind of unity. It is 
wonderful to see that kind of commitment, and I think that 
should provide for certainty. The message should go forth from 
here today that the FCC is on top of this, that we are going to 
get it done and that we are not going to have a lot of patience 
for anything that slows this down. That is, I think, a good 
message coming out of the previous couple of weeks.
    Ms. Abernathy. I think the only point I would add is, one 
of the reasons that Commissioner Adelstein and I were both 
anxious to be here today is to demonstrate that this is a 
united FCC on public safety, on E-911. We will do what it 
takes. We will step up to the plate and show leadership in the 
coordination efforts that are a critical piece of this, and you 
know, I cannot think of an issue, again, and I have been around 
a little bit longer than Commissioner Adelstein, where all of 
us are in complete agreement about the need to see that this 
happens as soon as possible, as effectively as possible.
    Senator Brownback. Well, I am concerned about the process, 
and I hope you follow up and you pull together in the process 
to get this one done. The last one on the Triennial Review to 
date looks very divided and difficult, and has resulted in a 
lot of difficulties for a number of companies. At a time when 
we need more capitalization going to telecommunications, not 
less, you have created a regulatory uncertainty that is 
draining money from a sector of the economy that we really need 
to help.
    We need it to grow. We do not need it to be drained, and I 
would hope, as you are getting the final order on that one, 
that maybe you can look and see, what is it that we can get 
done here that is going to help this industry to move it on 
forward at a time that it has gone through a real wrenching 
period, and yet it is such a critical industry to our economy.
    This industry needs to perform well for us to move forward 
as an economy. We are trying to get the overall economy moving 
forward more aggressively now. It is a soft economy. A lot of 
people are having difficulty. We can do things broadly, tax 
policy, but we also can do things sectorally to try to push 
various industries, and here is one that really needs to have 
an FCC that is going to try to get that industry moving forward 
aggressively and together, and I hope you will take a hard look 
at doing that.
    Mr. Chairman, I would like to put a full opening statement 
into the record, if I could.
    Senator Burns. Without objection.
    [The prepared statement of Senator Brownback follows:]

   Prepared Statement of Hon. Sam Brownback, U.S. Senator from Kansas
    Today the Committee convenes to review the status of E-911 
implementation. This is an extremely important issue, as increasing 
numbers of Americans cut the cord and go wireless. In Kansas there are 
plenty of places where wireless subscribers may find themselves in need 
of emergency services, but without access to a wireline phone or 
geographic markers that would permit them to inform emergency services 
of their location--to say nothing of those dire circumstances where 
they may be physically unable to identify their location.
    E-911 will ensure that our constituents, regardless of their 
location and condition, can be located by public safety and law 
enforcement in the event a 911 call is required. Unfortunately, E-911 
has developed into an issue requiring continuous oversight. In order 
for E-911 to be a success, all stakeholders--federal and state 
regulatory authorities, public safety and industry--must work together 
to ensure the vital interests of the public are met.
    Given the oversight role performed by the FCC on E-911 
implementation I would like to thank Commissioners Abernathy and 
Adelstein for joining us today. It is all too infrequent that we have 
the opportunity to visit with our FCC Commissioners, who have the 
responsibility of administering our nation's telecommunications law--
vital for providing for public safety and welfare, and of ever 
increasing importance to our nation's economy.
    I find myself presented with this rare opportunity at the same time 
I have concluded that there are serious problems at the Federal 
Communications Commission. Today we are here to address E-911 
implementation, but how can the Commission be expected to help make E-
911 a success if the Commission is broken?
    An FCC Commissioner's job--his duty--is to ensure that he first 
does no harm. The Commission's recent Triennial Review hardly embraced 
that concept. Today we are faced with unprecedented uncertainty in the 
telecom sector created by fly-by-night rulemaking, public admissions by 
a Commissioner suggesting he didn't know what he was voting on, and a 
final product consisting of what appears to be conflicting federal-
State jurisdictional standards supposedly derived from one federal 
standard in the Act. I voted for the Telecom Act, but I cannot recall 
ever voting in favor of regulation by multiple choice.
    I do not intend to spend time today discussing the particulars of 
the Triennial Review--it hasn't been written yet, even though we heard 
rumblings about the deal making it possible several weeks ago. Instead, 
I will let the tens of billions of dollars in lost market 
capitalization, including the loss of half of the value of one company 
in particular, Covad, speak for the order. The process leading to the 
order, however, leaves much to be desired.
    Later this morning I will be meeting with Chairman McCain to 
discuss the Committee's agenda, and I intend to ask him to make FCC 
reform a priority during the 108th Congress.

    Senator Brownback. And again, I want to thank you for 
holding the hearing.
    Senator Burns. Thank you, and thank you, Commissioners, for 
coming today. We appreciate your testimony and your interest in 
this issue, and if you will work with the providers and the 
vendors, we will sure work with the PSAP's to make sure they 
get the money and they are ready for the actions you have 
taken, the results of your actions, so thank you very much.
    Ms. Abernathy. Thank you very much, Mr. Chairman.
    Mr. Adelstein. Thank you, Mr. Chairman.
    Senator Burns. Our next panel consists of both carriers and 
those folks who coordinate the different programs around the 
country. We have Ms. Jenny Hansen, Manager of State of Montana 
Public Safety Services Office, John Melcher, President of the 
National Emergency Number Association, and Thera Bradshaw, 
Association of Public-Safety Communications Officials, Mr. 
Michael Amarosa, Vice President, Public Affairs for 
TruePosition, and Mr. S. Mark Tuller, who is General Counsel of 
Verizon Wireless with us this morning, and we certainly 
appreciate the participation of these folks, who really, it 
drops in their lap on coordinating and developing the systems 
that serve our respective States.
    First of all, I want to welcome Ms. Jenny Hansen, Manager 
of the State of Montana Public Safety Services Office. It is 
good to have you back, Jenny, and you have been back here often 
enough you can almost vote here now, but we certainly 
appreciate your work. I did leave a copy of your State plan 
with each one of the members of the Committee, and we 
appreciate you bringing that along, so with that, if you want 
to summarize your statement we can do that, but your entire 
testimony will be made a part of the record.
    Ms. Hansen, please.

              STATEMENT OF JENNY HANSEN, MANAGER, 
        PUBLIC SAFETY SERVICES OFFICE, STATE OF MONTANA

    Ms. Hansen. Mr. Chairman, thank you. Members of the 
Committee, Senator Burns, thank you very much for providing me 
with this opportunity to speak to you today. I am Jenny Hansen, 
Manager of the Public Safety Services Office----
    Senator Burns. Pull that microphone up a little closer.
    Ms. Hansen. I am Jenny Hansen, manager of the Public 
Services Office for the State of Montana. I sat before this 
committee a year ago, a little over a year ago, in October of 
2001, testifying about the challenges of deploying wireless-
Enhanced-911 in rural America, among other public safety 
challenges we have. My testimony at that time took place amidst 
a world of new-found interest and heightened sensitivity to 
what public safety professionals do. Our bottom line is to save 
lives. It is the reason we are here, and the answer we give 
when we are asked what we do.
    Mr. Chairman, I would like to take this opportunity to 
thank you for your leadership on this issue in Montana and 
throughout the Nation. Your 1999-sponsored Wireless 
Communications and Public Safety Act was an important road map 
in deploying wireless 911. Then-President Clinton signed that 
bill, Senate bill 800. Last week, the co-chairs, yourself and 
Senator Clinton, launched the E-911 Caucus, bringing together 
leaders from Government, emergency response, and industry to 
grapple with the challenges facing our Nation in deploying 
modern emergency response technologies.
    The E-911 Caucus brings focus to the 911 industry. More 
importantly, it provides a platform for getting the right 
resources to the right people at the right time to save lives. 
I thank the membership for their leadership on these critical 
issues, and look forward to the work and successes ahead.
    The fundamentals of public safety are just that, 
fundamental. You have said that 911 should be a no-brainer, yet 
911, let alone public safety technology alone, is not a plug-
and-play operation. There is a delicate balance between people 
and their privacy, the price of technology and the return on 
investment, rules to participate, and enforcement issues when 
you do not comply. Which one has a greater cost?
    I remember a conversation with a wireless carrier's 
representative who, when discussing the feasibility of 
deploying wireless E-911 in Montana actually compared telephone 
networks by citing, ``there are actually more switches in a 
highrise in New York City than there are in the State of 
Montana.'' What we have is what we have. The fundamental needs 
are the same. We need each other, the collaborative make-up of 
this room, to take care of the bottom line, and for us, whether 
we are in New York or in Montana, the bottom line will always 
be saving lives.
    Project management is typically tempered with strategy. We 
must first build a foundation upon which to build and add and 
improve technology, time- and life-saving tools to ensure the 
bottom line. What does that mean in our industry? You need 
basic 911 before you can move into Enhanced-911, and you need 
to have enhanced landline 911 before you can move into wireless 
Enhanced-911. It may sound reasonable, even simple, but there 
is so much that has to be done between A to Z that in our zeal 
to reach the finish line, we must never forget, or leave anyone 
behind.
    Technically speaking, it is not possible to deploy wireless 
E-911 without everyone in that chain of survival being 
proactive and successful in their own right. If one cog in that 
wheel fails, we all fail.
    We have heard arguments about who is ready and who is not. 
The success stories we are hearing today are the culmination of 
solution-oriented project teams versus finger-pointing 
sessions, with delays being seen as conveniences instead of a 
threat to public safety. Project management is a role we all 
have in this business of deploying E-911. Each of us, however, 
has our own limitations in our respective jurisdictions, our 
authority, and ability to enforce the rules. It is here where 
we need your help.
    An added factor, the cost of doing business in rural 
America, has inherent challenges. The fourth-largest State in 
the Nation, Montana covers over 147,000 square miles, 
encompassing over 550 miles of international border, the 
mountainous terrains of the Northern Rockies, and the vast 
flatlands of the Northern Plains.
    Montana's total population of fewer than 900,000 is 
unevenly distributed across the vast area of the State. Over 
half of the Montana residents are concentrated in only six 
counties that exceed 50,000 in population. Fewer than 400,000 
Montanans are spread throughout the State's remaining 50 
counties. Everyone I know does the work of two, three, or four 
people, doing more or less and with less as the rest of us in 
this country, but at a significantly greater margin.
    Demographics aside, it is truly the last best place. 
Integrity, for the most part, is the way of life in this big 
small town. Deals are still made on a handshake. Your word is 
your deed. We do whatever it takes to take care of business.
    I recall many a morning at O'dark-Thirty, you call it in 
public safety lingo, meeting with the fire council at the local 
truck stop to identify needs, recommend solutions, turn them 
into action items before the sun came up, and it was time to 
tend to their fields and their cattle, volunteers for the most 
part, some at or near retirement age, a characteristic not 
unique to Montana, but more of a challenge for us in public 
safety to use and recognize the resources we have in this 
country and, more importantly, provide them with the resources 
so they can do their jobs safely, seamlessly, and in the 
Nation's eyes, heroically. In their own eyes, all in a day's 
work.
    We respect each other's privacy in Montana, and we have a 
Constitution that addresses this unlike any State, and many 
States in this country. This has presented unique challenges to 
the public safety community and, most recently, homeland 
security discussions in identifying risks, sharing 
intelligence, and deploying mitigation strategies.
    In communities with great need, each step forward is a 
success story. Like my colleagues testifying before you today, 
we have successes of our own. In the last year, the Governor's 
office created the Public Safety Services Office in the 
Department of Administration. The Public Safety Services Office 
manages the State's 911 program and the State-wide planning of 
public safety radio communications.
    Montana is among only a handful of States that have 
attained State-wide basic 911, but Enhanced-911 service is 
expected by the public, even in remote areas. The 911 program 
is successful due to extensive cooperation among legislators, 
regulators, State and local government administrators, and the 
telephone industry. Continued success will require further 
cooperation to solve impending problems caused by new 
technology and conditions.
    Montana's 911 program successes include landline E-911 
deployments, and in the past year, our first year of our 
office, of the 58 public safety answering points, we have gone 
from 8 to 16 public safety answering points providing E-911 
landline services with an additional 29 E-911 plans developed 
and approved for deployment in fiscal year 2004.
    We have an aggressive work plan where the goal is State-
wide landline E-911 services by 2005. Additionally, by 
establishing minimum standards or characteristics of our 911 
technologies, and with the collaborative efforts of public and 
private stakeholders, local and Federal offices, the State will 
be Phase II-ready by 2005. Each PSAP is researching the best 
approach for embracing new technologies. Gallatin County and 
the city of Bozeman is within 6 weeks of deploying Phase I E-
911.
    There is a lot of work ahead. This long-awaited success is 
still met with a lot of work with respect to locating the call 
for help. My office is responsible for the State-wide picture. 
We are looking at solutions that can move the State forward 
into an interoperable public safety environment. Currently, our 
discussions include building our own routers, moving the State 
all at once into a Phase II readiness stage, and identifying 
what the costs are and the benefits, and the next steps for 
deployment.
    We are also undertaking the issue of upgrading the 
multiple-line telephone system, MLTS, or public branch exchange 
PBX.
    Telephone systems in many schools, hotels, large 
businesses, hospitals, or even large multifamily units only 
provide the main number and billing location for these MLTS 
systems, not the direct phone number or exact location. 911 
calls in many of these systems suffer from inadequate and even 
incorrect location. This is a daily problem for the Nation's 
911 professionals, and leads to delays in law enforcement, 
fire, and emergency medical response.
    The first step in providing E-911 services on an MLTS is to 
make sure we practice what we preach. For us in Montana, it is 
the State capitol complex, then local government buildings, 
school districts, universities, and so on.
    Some institutions raise concerns about E-911 installation 
and maintenance costs. The reality is, when viewed as an add-on 
feature to a new premises-based system, E-911 generally costs 
less than 5 to 10 percent of the total expense.
    Of greater concern to an institution may not be the cost, 
but the liability. The lack of an adequate E-911-ready system 
is a potentially catastrophic financial risk. Past court 
decisions have held institutions and managers personally liable 
for safety and negligence. I applaud corporations such as 
American Express and State Farm Insurance, who are proactive in 
providing life-saving solutions on their MLTS, for their 
employees and their families.
    The interrelationship between people, technology, and 
training is the foundation of public safety communications. 
Building that foundation is a collaborative effort that is 
represented by the make-up of this room. Providing 911 
telephone networks to make and answer the call for help, the 
interoperable radio system upon which to send help and ensure 
the safety of the field units, and securing the programs and 
budgets of the offices supporting these efforts takes the 
concerted efforts of everyone in this room, not just today, but 
every day, 24 hours a day, 365 days a year. This includes 
putting a stop to the new trend of diverting 911 funds, also 
referred to as State raids, paid by the consumers to augment 
deficits in State budgets.
    Currently, 33 States have 911 programs and most, but not 
all, have responsibility for both wireline and wireless 911. 
The State coordinator's scope of authority needs to cover both 
technologies. The remaining States have been slow to make 
appropriate appointments, according to your Senate bill 800 and 
Public Safety Act, and the FCC's order. Appropriate in this 
case means the appointee has working knowledge of wireline and 
wireless E-911 issues and technology, and has the State-wide 
authority and organizational capability to effectively 
coordinate the deployment of State-wide E-911.
    Effectively means that the appointee is in a position to 
bring the stakeholders together for cooperative working 
relationships in the interest of achieving economies of scale 
that only come with a State-wide vision and a State-wide plan. 
Today, much of the R&D or research and development for future 
interoperable 911 systems is done by volunteers, again most at 
or near retirement age. Some may say an incentive is needed to 
move public safety R&D efforts forward.
    There are several R&D efforts already underway. We do not 
need to reinvent wheels, merely sharpen our focus. Many have 
developed solutions, authored documents, and made 
recommendations toward the deployment of 21st Century tools. 
The USDOJ's Office of Community-Oriented Policing Services has 
studied the effects of 911 technologies on the law enforcement 
community. This guide, presented in your packet for your 
consideration, Misuse and Abuse of 911, is based on sound 
problem-oriented policing principles and, as new technology is 
deployed, new challenges are identified. Unintentional calls 
occur when a person or phone inadvertently dials 911. This 
category includes phantom wireless calls and misdials and hang-
ups.
    Deployment of new technologies has a cause-and-effect 
relationship with the public safety community. With the 
commencement of wireless E-911 Phase II, 911 centers will have 
to determine whether they dispatch to phantom call locations. 
If they adopt this approach, the drain on police resources 
could be enormous. For instance, the California Highway Patrol 
estimates it would potentially need twice its current number of 
officers to respond to the 1.8- to 3.6 million phantom calls it 
receives annually.
    The R&D is being conducted now, with education and outreach 
programs underway, and by the time we reach national 
deployment, we should have solutions to these 21st Century 
problems. However, the problem is already serious enough to 
suggest that ignoring it could have severe ramifications for 
police and legitimate 911 callers elsewhere.
    Senator Burns. Could we wrap up a little bit, at the risk 
of losing a vote here?
    Ms. Hansen. Certainly. Vermont and other states have 
success stories on State-wide deployments. A frustration that 
California shares is one in their hindrance in getting the 
LEC's, the local exchange carriers, to file and upgrade their 
systems. One would upgrade, and one would lag behind. That 
would allow the project to move forward with their 
implementation.
    We all have APCO, NENA, NASNA, never a shortage of 
Government work and acronyms. All successes and all 
frustrations, but again it is the Federal request on project 
management where we need your help on enforcement.
    We are required to take a leadership role with respect to 
planning for public safety communications systems. We are 
challenged to prepare for the impacts of dramatically changing 
communications environments. We are coordinating our efforts 
with E-911 caucuses in testimony similar to this. The State of 
Montana does not need to replicate New York, but asks for equal 
access to the basic systems in public safety that are available 
today.
    In collaboration with your efforts, all the stakeholders, 
public and private industry, and with your help, we will get 
the job done. I give you my word.
    I thank you for your time, your commitment to doing the 
right thing, and your support of the public safety industry in 
this Nation. Thank you, Senator.
    [The prepared statement of Ms. Hansen follows:]

             Prepared Statement of Jenny Hansen, Manager, 
            Public Safety Services Office, State of Montana
    Mr. Chairman, members of the Committee, Senator Burns, thank you 
very much for providing me with this opportunity to appear before you 
today. My name is Jenny Hansen, and I am the Manager of the Public 
Safety Services Office for the State of Montana. I sat before this 
Committee a little over one year ago, in October of 2001, testifying 
before you about the challenges of deploying wireless enhanced 911 
among other public safety challenges in rural America. The testimony 
took place amidst a world with newfound interest and a heightened 
sensitivity to what public safety professionals do. Our bottom line: to 
save lives. It is the reason we are here, and the answer we give when 
we're asked why we do what we do.
A Special Thanks
    Mr. Chairman, I would like to take this opportunity to thank 
Senator Conrad Burns for his leadership on this issue in Montana and 
throughout the nation. In 1999, Senator Burns sponsored the Wireless 
Communications and Public Safety Act, an important roadmap for 
deploying wireless 911. President Clinton signed that Bill (SB800). 
Last week, Co-Chairs Senator Burns and Senator Clinton launched the E-
911 Caucus, bringing together leaders from government, emergency 
response and industry to grapple with the challenges facing our nation 
in deploying modern emergency response technologies. The E-911 Caucus 
brings focus to the 911 industry. More importantly it provides a 
platform for getting the right resources to the right people at the 
right time to save lives. I thank the membership for their leadership 
on these critical issues and look forward to the work and successes 
ahead.
The Fundamentals of Public Safety
    The fundamentals of Public Safety are just that . . . fundamental. 
Senator Burns has said, ``911 should be a no-brainer''. Yet 911, let 
alone public safety technology is not a plug and play operation. There 
is a delicate balance between people and their privacy, the price of 
technology and the Return On Investment, rules to weigh in and 
enforcement issues when you don't comply, which one has greater cost? I 
remember a conversation with a wireless carrier's representative who, 
when discussing the feasibility of deploying wireless E-911 in Montana, 
actually compared telephone networks by citing, ``there are actually 
more switches in a high-rise in New York City than there are in the 
entire State of Montana''. What we have is what we have. The 
fundamental needs are the same. We need each other, the collaborative 
make-up of this room, to take care of the bottom line. For us, whether 
in New York or Montana, the bottom line will always be saving lives.
    Project management is typically tempered with strategy. We must 
first build a foundation upon which to add new and improved technology, 
time and life-saving tools to insure the bottom line. What does that 
mean in our industry? You need basic 911 before you can move into 
enhanced 911. And you need to have enhanced landline 911 before you can 
move into wireless E-911. It may sound reasonable, even simple. But 
there is so much that has to be done between A and Z, that in our zeal 
to reach the finish line, we must be sure we don't leave anyone behind. 
Technically speaking, it is not possible to deploy wireless E-911 
without everyone in that Chain of Survival being proactive and 
successful in their own right. If one cog in the wheel fails, we all 
fail. We've heard arguments about who's ready and who's not. The 
success stories we're hearing today are the culmination of solution-
oriented project teams versus finger-pointing sessions with delays 
being seen as conveniences instead of a threat to public safety. 
Project management is a role we all have in this business of deploying 
E-911. Each of us, however, has our own limitations in our respective 
jurisdictions, authority and ability to enforce the rules. It is here 
where we need your help.
The Cost of Doing Business in Rural America
    An added factor, the cost of doing our business in rural America 
has inherent challenges. The fourth largest state in the nation, 
Montana covers over 147,000 square miles, encompassing over 550 miles 
of international border, the mountainous terrain of the Northern 
Rockies and vast flatlands of the Northern Plains. Montana's total 
population of fewer than 900,000 is unevenly distributed across the 
vast area of the state. Over half of Montana's residents are 
concentrated in only six counties that exceed 50,000 in population. 
Less than 400,000 Montanans are spread throughout the state's remaining 
50 counties. Everyone I know does the work of two, three, even four 
people, doing more with less as the rest of us in this country, but at 
a greater margin.
    Demographics aside, it is truly the last best place. Integrity, for 
the most part, is the way of life in this big, small town. Deals are 
still made on a handshake. Your word is your deed. We do whatever it 
takes to take care of business. I recall many a morning, ``O dark-
thirty'' we call it, (public safety lingo), meeting with the fire 
council at the local truck stop to identify needs, recommend solutions 
and turn them into action items before the sun came up and it was time 
for the ranchers to tend to their fields and their cattle. Volunteers 
for the most part . . . some at or near retirement age. A 
characteristic not unique to Montana, but more of a challenge for us in 
public safety to use and recognize the resources that we have in this 
country, but more importantly, provide them with the resources so they 
can do their jobs, safely, seamlessly, and in the nation's eyes, 
heroically. In their own eyes: all in a day's work.
    We respect each other's privacy in Montana, and we have a 
Constitution that addresses this issue unlike many states in this 
country. This has presented unique challenges to the public safety 
community and most recently, homeland security discussions in 
identifying risks, sharing intelligence and deploying mitigation 
strategies. In communities with great need, each step forward is a 
success story. Like my colleagues testifying before you today, we have 
successes of our own.
    In the last year, the Governor's office created the Public Safety 
Services Office in the Department of Administration. The Public Safety 
Services Office manages the State's 911 Program and statewide planning 
of public safety communications.
    Montana is among the handful of states that have attained statewide 
911, but enhanced 911 service is expected by the public, even in remote 
areas. The 911 program is successful due to extensive cooperation among 
legislators, regulators, state and local government administrators and 
the telephone industry. Continued success will require further 
cooperation to solve impending problems caused by new technology and 
conditions.
    Montana's 911 Program successes include landline E-911 deployments. 
In this past year, the first year of our office, of the 58 Public 
Safety Answering Points, we've gone from 10 to 16 PSAPs providing 
landline E-911 services with an additional 29 E-911 plans developed and 
approved for deployment in FY04. We have an aggressive work plan with a 
goal of statewide E-911 (landline) services by 2005. Additionally, by 
establishing minimum standards or characteristics of our 911 
technologies, and with the collaborative efforts of public and private 
stakeholders and local, state and federal offices, the state will be 
Phase II ready by 2005. Each PSAP is researching the best approach for 
embracing new technologies. Gallatin County and the City of Bozeman is 
within six weeks of receiving Phase I wireless E-911. This long-awaited 
success is still met with much work ahead with respect to locating the 
call for help.
    My office is responsible for the statewide picture. We're looking 
at solutions that can move the state forward, into an interoperable 
public safety environment. Currently, our discussions include building 
our own routers, moving the state, all at once into Phase II readiness. 
What are the costs, the benefits, and the next steps for deploying 
these tools?
    We've also undertaken the issue of upgrading the Multiple Telephone 
Line System (MLTS) or PBX for all state buildings. Telephone systems in 
many schools, hotels, large businesses, hospitals, or some large multi-
family housing units only provide the main phone number and billing 
location of the multi-line phone system--not the direct phone number or 
exact location. 911 calls from many of these systems suffer from 
inadequate and even incorrect location information. This is a daily 
problem for the nation's 911 professionals and leads to delays in law 
enforcement, fire, and emergency medical response. The first step in 
providing E-911 services on an MLTS is to make sure we practice what we 
preach. First the State Capitol Complex, then local government 
buildings, school districts, University systems and so on. Some 
institutions raised concerns about E-911 installation and maintenance 
costs. The reality is, when viewed as an add-on feature to a new 
premises-based telephone system, E-911 generally costs less than five 
to 10 percent of the system's total expense. Of greater concern to an 
institution may not be the cost, but the liability. The lack of an 
adequate E-911-ready system is a potentially catastrophic financial 
risk. Past court decisions have held institutions and managers 
personally liable for safety and negligence. I applaud corporations 
such as American Express and State Farm Insurance who are proactive in 
providing life-saving solutions on their Multiple Telephone Line 
Systems for their employees, their family.
National Solutions for a National Standard of Care
    The interrelationship between people, technology and training is 
the foundation for public safety. Building that foundation is a 
collaborative effort that is represented by the make-up of this room 
today. Providing the 911 telephone network to make and answer the call 
for help, the interoperable radio system upon which to send help and 
insure the safety of the field units and securing the programs and 
budgets of the offices supporting these efforts takes the concerted 
efforts of everyone in this room. Not just today, but everyday, 24 
hours a day, 365 days a year. This includes the new trend of diverting 
911 funds (also referred to as State raids), paid by consumers, to 
augment deficits in State budgets.
    Currently, 33 states have statewide 911 programs, and most, but not 
all, have responsibility for both wireline and wireless 911. The State 
coordinator's scope of authority needs to cover both technologies. The 
remaining states have been slow to make appropriate appointments 
according to the 1999 Wireless Communications and Public Safety Act and 
the FCC's Order. ``Appropriate'' means that the appointee has working 
knowledge of wireline and wireless E-911 issues and technology and has 
the statewide authority and organizational capability to effectively 
coordinate development of statewide E-911 plans for both wireline and 
wireless technologies and with all stakeholders. Effectively means that 
the appointee is in a position to bring the stakeholders together and 
forge cooperative working relationships in the interest of achieving 
the economies of scale that only come with a statewide vision and a 
statewide plan.
    Today, most of the Research and Development for future, 
interoperable 911 systems is being done by volunteers, again, most at 
or near retirement age. Some might say an incentive is needed to move 
public safety R&D efforts forward.
    There are several R&D efforts underway. We don't need to reinvent 
wheels, merely sharpen our focus. Many have developed solutions, 
authored documents, made recommendations toward the deployment of 21st 
Century technologies.
    The U.S. Department of Justice's (DOJ's) Office of Community 
Oriented Policing Services (COPS) has studied the effects of 911 
technologies on the law enforcement community. The Problem-Oriented 
Guides for Police Series--Number 19: Misuse and Abuse of 911 is based 
on sound problem-oriented policing principles, and as new telephone 
technology is deployed, new challenges are identified. Unintentional 
calls occur when a person or phone inadvertently dials 911. This 
category includes phantom wireless calls, and misdials and hang-up 
calls. Deployment of new technologies has a cause and effect 
relationship with the public safety community. With the commencement of 
wireless E-911, Phase II, 911 centers will have to determine whether 
they will dispatch to phantom call locations. If they adopt this 
approach, the drain on police resources could be enormous. For 
instance, the California Highway Patrol estimates it would potentially 
need twice its current number of officers to respond to the 1.8 million 
to 3.6 million phantom calls it receives annually. The R&D is being 
conducted now, with education and outreach programs underway, by the 
time we reach national deployment; we should have solutions to these 
21st Century problems. However, the problem is already serious enough 
to suggest that ignoring it could have severe ramifications for police 
and legitimate 911 callers.
    The U.S. Department of Transportation's (DOT's) Wireless E-911 
Initiative provides stakeholder leadership, technical assistance, and 
technological innovation. A recent report on Wireless E-911 technical 
and operational issues by former FCC official Dale Hatfield termed the 
DOT's Wireless E-911 Initiative as ``perhaps the most visible'' of all 
Federal activities related to wireless implementation. USDOT convened 
key stakeholder representatives from the public safety, communications, 
and state and local government communities to formulate and initiate 
actions to accelerate wireless E-911 availability. The Intelligent 
Transportation Service (ITS) Public Safety Program provides funding 
support for the Wireless Implementation Program, which provides 
technical assistance, guidance, and training to accelerate Public 
Safety Answering Point (PSAP) readiness for wireless E-911.
    The National Steering Council reached consensus on a six-point 
Priority Action Plan:

        1.  Establish support for statewide coordination, and identify 
        points of contact within each state for each of the 
        stakeholders;

        2.  Help to convene stakeholders in appropriate 911 regions in 
        order to facilitate more comprehensive, coordinated 
        implementations;

        3.  Examine cost recovery/funding issues at the state level to 
        determine what is available and whether it is adequate;

        4.  Initiate a knowledge transfer and outreach program to 
        educate PSAPs, wireless carriers and the public;

        5.  Develop a coordinated deployment strategy encompassing both 
        rural and urban areas;

        6.  Implement a model location program.

    Implementation of the Plan has begun. A repository for all 
information and resources, including state implementation models, is 
soon becoming available through national public safety associations. 
Resources to help states with the six actions will become available as 
well.
    One statewide success story is the story about Vermont. Vermont has 
a single statewide E-911 system incorporating wireless and wireline E-
911, under a single statewide authority, the Vermont Enhanced 911 
Board. Vermont's network is entirely digital, using SS7 from End 
Offices to Tandems, and ISDN from Tandems to PSAPs. It was designed and 
built that way from the beginning in anticipation of wireless E-911. 
Six wireless carriers provide service in Vermont. All have implemented 
Phase I. Three have implemented Phase II. Two of the remaining three 
will implement Phase II within the next coming weeks. The deployment 
was relatively painless in this particular case. Some of the variables 
that helped in this case include the carriers having one point of 
contact, in this case, the State office, and didn't have to interface 
with the nine PSAPs, and the minor CPE upgrades that were needed had 
already been made.
    One statewide frustration story includes that from California. 
Their hindrance in deploying wireless E-911 has been in getting the 
right expertise from the right entity--be it the Local Exchange Carrier 
(LEC), 3rd-part database providers, Wireless Service Providers (WSP's) 
or the PSAPs. Getting everyone to agree on what the issues are and who 
is responsible for resolving them within a ``reasonable'' timeframe has 
also been an issue. LECs are slow to file appropriate tariffs that 
would allow the project to move ahead with implementation. One would 
file, yet the other lags behind. Progress in this particular case 
becomes tedious versus a ``success story''. Another example of ``we all 
go, or we don't get there.''
    APCO, NENA, NASNA, (there is never a shortage of acronyms in 
government work), the list goes on and on showcasing the associations 
comprised of people who care and who get the job done. I sit on APCO 
International's Homeland Security Task Force. Their White Paper and top 
priorities for 911 and the Public Safety industry include: Radio 
Spectrum; Interoperability; Planning; Survivability & Redundancy; 
Security and Personnel & Training. All facets of the 911 Center.
    This is just the beginning of a process that will be ongoing for 
some years as we all do our part in ramping up our nation's Homeland 
Security.
Where Do We Go From Here?
    The State of Montana is required to take a leadership role with 
regard to planning for public safety communications systems used by 
state, local and federal entities in Montana. Implementing standards 
and interoperable systems are objectives that need to be met, as well 
as integrating radio, 911, and GIS technologies for improved emergency 
response for the public. Montana, and the nation are challenged to 
prepare for the impacts of a dramatically changing communications 
environment. By partnering with state, federal and local public safety 
and implementing advanced communications technologies, the state has a 
unique opportunity to not only prepare for the future, but make 
significant improvements in public safety communications as well.
    The public expects and demands high quality 911 service. They 
expect that no matter where they are, the 911 system is going to work, 
is going to produce consistent results when they call for assistance, 
and will obtain the desired response to urgent situations. They expect 
that the 911 system will work essentially the same way whether they are 
calling from their home, their business or their car. I do too.
    Two weeks ago, Senator Burns addressed the Joint Session of the 
House and Senate in the State of Montana. He invited me to sit on the 
House floor and spoke about people taking care of business in Montana. 
People doing their job every day, 24 hours a day, seamlessly, quietly, 
below the fold. Then he introduced me as one of the ordinary Montanans, 
doing extraordinary things. My Grandfather from Oslo, Norway probably 
smiled, as did my dad in Detroit and my public safety colleagues in 
California. I am proud to stand among the hard-working citizens of this 
State and take care of business in this last best place. We'll 
occasionally peer above the fold and speak to you about our needs, 
advocating for our bottom line, all in the name of getting the job 
done.
    The State of Montana does not need nor wish to replicate New York, 
but asks for equal access to the basic systems that are in place for 
public safety in America. The Public Safety Services Office, in 
collaboration with local stakeholders, public and private industry, and 
with your help, will get the job done. I give you my word.
    I thank you for your time, your commitment to ``doing the right 
thing'' and your support of the public safety community, the first 
first responders, the 911 industry.

    Senator Burns. And thank you. We appreciate your testimony 
and your interest in this. I know you have been a real 
Energizer bunny in the State of Montana.
    John Melcher.

             STATEMENT OF JOHN MELCHER, PRESIDENT, 
             NATIONAL EMERGENCY NUMBER ASSOCIATION

    Mr. Melcher. Good morning, Mr. Chairman, and thank you for 
the opportunity to appear.
    Senator Burns. Yes, sir.
    Mr. Melcher. You know, looking around the room, we have 
probably the most august group and best collection of 
intellect, but I have to remark about your incredible 
leadership. It reminds me of my family. I was raised in a 
family of Evangelical preachers, and my grandmother founded and 
pastored a church in Pasadena, Texas, and a woman in the 
ministry back in the 1940s and early 1950s was quite a 
phenomenon, and she taught me early on you can always tell the 
pioneers by the arrows in their back, and your incredible 
leadership on this, Senator Burns, I know has brought you a lot 
of heartache in trying to get what should be a no-brainer 
accomplished, but the spirit that my grandmother taught me 
certainly is evident in your efforts, and I applaud and 
appreciate your help, and looking around the dais, you are 
truly the last man standing on this issue.
    I represent the National Emergency Number Association----
    Senator Burns. You have got to remember, John, I was in the 
Marine Corps. We did not take any arrows in the back.
    [Laughter.]
    Mr. Melcher. Absolutely, Mr. Chairman. Semper Fi.
    I am here today representing the National Emergency Number 
Association as their President and also as Chief Operating 
Officer of the Greater Harris County 911 Network, which 
implements and administers 911 service for the Greater Houston 
Metropolitan Area, all of Harris and Fort Bend County, some 4.5 
million citizens, over 3 million wireline subscribers, almost 1 
million wireless subscribers, and having been in public safety 
for the majority of my life, it is very comforting to know that 
you are shining a spotlight on what represents, amongst my 
colleagues here, the body of our life's work, and so this type 
of awareness is very valuable, and we appreciate that.
    However, I think you know that this is not an easy issue. 
This is full of complexities. It is not rocket science, by any 
means, but it certainly is full of challenges, and there are 
hurdles and obstacles that we must overcome.
    In our recent assessment through all of our meetings, we 
have tried to figure out who is to blame and how much to blame, 
and I am happy to report that there is an abundance of blame, 
plenty to go around everywhere.
    You have heard this morning about PSAP unreadiness. Some of 
the carriers will talk about how the PSAP's are not ready, and 
because of the FCC's King County decision, the LEC unreadiness 
falls in the lap of the PSAP community, and we find that to be 
almost somewhat disturbing, because we have no control over the 
local exchange carriers, although we are their customers.
    There is also the diversion of funds, which you have 
referred to as bait and switch, which we think is unacceptable, 
and very critical to making things happen, but I need to 
address the PSAP unreadiness issue just briefly, because most 
of these communities that do have fees in place and are raising 
the funds to buy this technology were also waiting on a couple 
of other things to happen.
    They were waiting on the carriers to show up at their 
doorstep with a fee schedule, they were waiting on the LEC's to 
get their tariffs filed so they knew how much to budget for--
imagine yourself trying to deliberate when you were on the 
county commissioner's court, that you had somebody come to you 
with an idea, say, you know, I want to deploy Phase II. Well, 
how much is it going to cost? Well, I do not know. The LEC has 
not filed their tariff yet, and the wireless carriers have not 
told me how much it is going to cost, but we are building up a 
savings account, let me deploy. You would never allow that.
    So as these funds were being built up, waiting on these 
things that have just in the last few months started to happen, 
now we find that we are ready with the technology, we are ready 
with the tariffs, and we are ready with our upgrades, and there 
is no money to commit to either of these things, so it is a 
very, very critical issue that must be addressed.
    Wireless technology, as Tom Wheeler once said, we wrestle 
the laws of physics to the ground. This is no longer a 
technological issue. As a matter of fact, Mr. Chairman, I would 
submit to you that this is an issue of political will and 
funding, and where the former is present, certainly the latter 
will follow.
    There are successes. We are about solutions today. I do not 
want to cry over spilled milk, because there are successes out 
there. We need to maintain constant vigilance, but I come from 
an area that has successes. All six of our carriers are 
deployed. We are doing incredible things in St. Clair County, 
Illinois, as Representative Shimkus said, and other areas, the 
State of Rhode Island, my friend David Jones in Spartanburg, 
South Carolina, systems are up and running and saving lives 
today. In Tarrant County, Texas, we had an officer whose life 
was saved because they were able to pinpoint his location when 
he slid off the ice.
    Not only is basic 911 so valuable, and not only do we have 
Enhanced-911 that is starting to see successes in over 300 
instances in the country today, but we are even seeing beyond 
911. I have behind me, I brought with me my guest, Officer 
Chris Murray, if he would stand. I would like for you to 
recognize him. He is proof positive that technologies above and 
beyond Enhanced-911 are possible.
    Officer Murray in December flipped his patrol car, and it 
was one of those, some 500 patrol cars in the Houston area that 
are equipped with automatic crash detection technology, and 
that box was able to call for help, the safety center was able 
to conference up the 911 center in Pasadena on a 911 trunk, and 
all of that crash-related data showed up on the 911 call-
taker's screen. They were able to respond in less than a 
minute, and although he was unconscious, unable to respond, 
they were able to locate him. He is proof positive, and we have 
others proof positive this is doable. It is a matter of 
political will, and it is a matter of consensus-building and 
bringing the parties together.
    I applaud the Federal Communications Commission for hanging 
a target on the wall. It was a very troubling time, as my 
colleague, Ms. Bradshaw, will attest to, when we all came 
together with a lot of uncertainties and a lot of unanswered 
questions, but with a lot of courage and a lot of faith, that 
this was doable. The FCC adopted what was the consensus 
agreement that was developed by public safety and the wireless 
industry, which my colleague signed on behalf of NENA, when she 
was president.
    Now that we have got a few years under our belt and some 
experience, we know that there are some obstacles and some 
hurdles that we did not anticipate. We need to make sure the 
LEC's are onboard. We need to make sure the carriers are 
onboard. We need to make sure the public safety's onboard, but 
we also need to make sure that everybody is funded and can 
execute their jobs with the adequate funding that they need to 
make sure their costs are recovered.
    This represents, wireless 911 represents what is a shift, a 
fundamental shift in public policy and the mindset and 
expectation level of our citizens. 911 is no longer a local 
issue, Mr. Chairman. It is now a global issue, as you well 
understand, and we have to address it as a global issue and 
stop supporting a patchwork that does not work any more. It is 
broken. The technology is not interoperable, and the funding is 
not right. We need to fix those things.
    We are hard at work. It is not like we have been sitting 
around waiting for the sun to shine on us. Through efforts of, 
like Ms. Bradshaw, the Public Safety Foundation of America is 
raising money to distribute to PSAP's to try to bring planning 
and even equipment purchases to light in so many of these areas 
that are so inadequately, woefully underfunded. There is the 
NENA and ATIS partnership. You have got testimony submitted by 
the President of ATIS, Susan Miller, attesting to the ESIF 
forum, the Emergency Services Interconnect Forum, setting 
standards in PSAP readiness and checklists and the like.
    There is Secretary Mineta's DOT Secretarial Initiative, on 
which many of us serve, that are trying to bring solutions, 
and, of course, thanks to your leadership and that of your 
peers, we now have the E-911 Caucus that was launched last 
week, and which we think is an incredibly valuable tool in 
helping bring solutions to us, but mainly raising public 
awareness to help us in our efforts.
    The NENA organization recently formed what we are calling 
the NENA SWAT team, the Strategic Wireless Action Team, and 
that is a three-level endeavor. We have the subject matter 
experts from all parts of industry, and NENA is very unique in 
this, because the pillars of our association membership are the 
carriers, wireless and wireline carriers, the third-party 
service providers and equipment vendors, and, of course, the 
public safety folks who implement and administer these systems.
    The SWAT team is broken up into four disciplines. There are 
the technical folks who are figuring out the spreadsheet. Your 
colleagues this morning have asked, how much is this going to 
cost, and how long is it going to take? Well, our technical 
folks, my techie buddies, the propeller-heads, as we like to 
refer to them, are coming up with those spreadsheets, and we 
are actually going to give you real hard-dollar figures as to 
what it is going to take to make our networks talk to each 
other and to make this technology a reality for all Americans.
    We have the operations team, because you can invent gold, 
but unless you can show your colleagues how to implement it, it 
is of very little value.
    And then, of course, the policy and finance teams, and you 
are going to see participation at the highest levels in 
creating solutions for policy and finance.
    This leads to constituent roundtables, which are the senior 
executives of all of the carriers and the public safety 
community who will advise the CEOs, and this will culminate in 
a CEO summit in early June. That CEO summit will be a true 
consensus arrangement that will present a document, an action 
plan document to you, Mr. Chairman, and this committee, to the 
members of the Federal Communications Commission and their 
chairman, and to all the State legislative officials who are 
responsible for making things happen in their State. It is all 
about solutions.
    We shared with you once before that if we just were able to 
get the collective intellect together in the same room at the 
same time, no problem was too large to solve, and we are 
proving that now through the NENA SWAT initiative, and our hat 
is off to our colleagues who are helping us, but some are slow 
to the table, Mr. Chairman, and those are going to need the 
political might and the political will of gentlemen such as 
yourself to make them understand the importance and the value 
of participation.
    It is all about making this happen, coming together for a 
common cause, because the bottom line on everything that we are 
doing is the salvation of lives and property. We want to make 
sure that no instances like you have heard of this morning 
occur ever again where we can stop it and help it, and we want 
to make sure that this is done in a very timely and fiscally 
responsible fashion.
    Mr. Chairman, I thank you so much for your time, your 
effort, and your grace and your wisdom, because you have truly 
been a friend to public safety, and I am here to let you know 
that there will always be a John Melcher in your conscience 
somewhere.
    [The prepared statement of Mr. Melcher follows:]

            Prepared Statement of John Melcher, President, 
                 National Emergency Number Association
    Mr. Chairman, members of the Committee, Senator Burns, thank you 
very much for providing me with this opportunity to appear before you 
today. My name is John Melcher, and I serve as the President of the 
National Emergency Number Association (NENA) and as the Deputy 
Executive Director of the Greater Harris County [Texas] 911 Emergency 
Network.
Acknowledgements and Appreciation
    Before we get started, allow me to extend a special thank you to 
the Committee and the United States Senate for all your individual and 
collective efforts and leadership on these critical issues. Mr. 
Chairman, I would especially like to thank you (Senator Conrad Burns) 
for your commitment to 911 in the Committee, Congress and throughout 
the nation. In 1999, you sponsored the Wireless Communications and 
Public Safety Act, an important roadmap for improving emergency 
communications, and specifically for deploying wireless E-911. As a 
member of the United States Senate and Chair of the Subcommittee on 
Communications you have furthered the education of your colleagues and 
constituents. Most recently, you led the formation and creation of the 
Congressional E-911 Caucus, a bi-partisan, bi-cameral caucus to advance 
the issues, education and discussion of enhanced 911 services. In these 
many efforts, you have been a passionate supporter of technology, 
communications, first responders and 911. I extend my personal 
gratitude and thanks of the 911 industry and nation for your work and 
dedication.
    Additionally, I would like to thank Senator Burns' colleagues in 
the United States Congress and the co-chairs of the Congressional E-911 
Caucus, Senator Hillary Rodham Clinton and Representatives Anna Eshoo 
and John Shimkus.
    Thanks also to my fellow panelists from the Federal Communications 
Commission (FCC), Commissioners Abernathy and Adelstein; New York 
Assemblyman David Koon; Ms. Thera Bradshaw of the Association of Public 
Safety Communications Officials International (APCO); Mr. Mark Tuller 
of Verizon Wireless; Mr. Mike Amarosa of TruePosition; and Ms. Jenny 
Hansen of Montana, all of whom we continue to work closely with on 
these important issues.
The Voice of 911
    Serving more than 7,000 members nationally, NENA represents the 
nation's very best in 911. Our membership consists of fire, emergency 
medical services (EMS), law enforcement, private vendors, industry and 
911 officials throughout the nation--all professionals, dedicated to 
advancing the use of 911 for all emergencies, citizens and 
communications devices. This membership is important because it 
collectively and uniquely represents the technical, operational and 
policy foundation and expertise to make 911 work like it should. It 
also represents the decision makers, stakeholders and leaders of 911 
reaching into the disciplines of telecommunications (both wireline and 
wireless), public safety, and third party service providers. A broad 
foundation of public and private service providers, NENA is truly the 
``Voice of 911.''
    Having been involved in the 911 industry for well over two 
decades--from a dispatcher, to a paramedic, to my current position as 
chief operating officer--I have personally participated in the many 
stages of implementation and deployment of E-911. From the inception of 
new technology to the detail and complexity of public policy, I can 
personally attest that the focus of this hearing is truly important. It 
recognizes that E-911 implementation requires a partnership, a 
sequencing of leadership and a commitment of all parties to work 
together in a coordinated way to overcome barriers and challenges. It 
also recognizes the critical need to move forward as quickly as 
possible, and the opportunity to ensure that the American public 
receives the very best in calling 911 from any communication device, at 
any time, anywhere.
    E-911 implementation is a complex and challenging process. While 
there is much to applaud in the many broad-based efforts to implement 
E-911, the goal of E-911 ``anywhere and everywhere'' remains elusive. 
Homeland security issues, and the continuing reminders of the essential 
role E-911 plays in our public safety, emphasize the need to move past 
the rhetoric and truly address the systemic issues of E-911 
implementation.
Technology and Public Safety Answering Point (PSAP) Readiness
    The deployment of E-911 services, coupled with new technologies, 
has dramatically improved personal safety and security and given new 
promise to what is possible. What was once a dream is now a reality in 
places like St. Clair and Bond County, Illinois; Spartanburg, South 
Carolina; Tarrant and Harris County, Texas and the State of Rhode 
Island, just to name a few.
    In these jurisdictions, wireless 911 callers are being located, new 
technologies are being introduced, lives and resources are being saved.
    Just last Wednesday (February 26, 2003), Euless, Texas Police 
Corporal Mike Privitt, was saved by the newly-deployed wireless E-911 
system in Tarrant County, Texas. Driving home after working the 
nightshift, his truck hit a patch of ice, causing it to roll over 
several times down a deep embankment. Dazed and confused as his pickup 
lay upside down in a remote area, Privitt had no idea where he was. He 
called 911 from his wireless phone. Receiving the call in Tarrant 
County, Sergeant Jeromie Penrod was able to use the E-911 information 
to locate Corporal Privitt in a matter of seconds. Rescuers arrived 
just minutes later. Resources were saved and tragedy averted.
    Another shining example of technology and E-911 is here with me 
today in the gallery Officer Chris Murray of the Pasadena, Texas Police 
Department. Officer Murray's life has returned to normal after a 
potentially fatal accident, thanks to the deployment of E-911, 
Automatic Crash Notification (ACN) life saving technologies.
    Two days after Christmas, on the evening of December 27, 2002, 
Officer Murray was returning to the station after completion of his 
patrol duties. Driving his police cruiser, which was recently outfitted 
with a prototype telematics crash detection module, he temporarily lost 
control of his vehicle and veered off the roadway. Attempting to 
correct his slide, he turned his vehicle back on to the roadway, but 
the speed of the vehicle along with slippery conditions made it 
impossible for him to gain full control. Instantly he was catapulted 
across the roadway, nose-diving into a drainage ditch, flipping the 
vehicle, smashing into a utility pole and finally coming to rest upside 
down on the roadway. Unconscious, inverted and trapped, Officer Murray 
lay waiting for help to arrive.
    Previous to impact, Officer Murray had been in radio contact with 
his patrol dispatchers. From the dispatcher perspective, it was obvious 
that something had gone terribly wrong. Officer Murray wasn't 
responding on his radio. However, the recently deployed telematics 
crash detection module was. Within seconds of the incident, detailed 
information providing the exact location of the event, the point of 
impact, along with an open communications channel was shared on the 911 
network infrastructure with the PSAP receiving all the relevant data on 
the calltaker's screen. The Life Flight team was immediately 
dispatched. Flown to the Trauma Center at Houston's Hermann Hospital, 
Officer Murray remained in and out of consciousness for several hours. 
After regaining consciousness several hours later, the doctors said 
that it was the speed of finding him and getting him to the hospital 
that prevented serious injuries.
    All this was possible because Officer Murray's vehicle had been 
equipped with life-saving technology and the 911 network was able to 
receive and share detailed location and critical crash information with 
multiple responders.
    Recognizing the power of such technologies and the communications 
networks to provide emergency services, the FCC recently sought comment 
on a notice of proposed rulemaking, asking whether its regulations on 
access to emergency service communications networks and systems should 
be expanded to address a variety of other devices and services, 
including mobile satellite service (``MSS''), telematics (in-vehicle) 
services, multi-line telephone systems (``MLTS''), resold cellular and 
PCS services; pre-paid calling services; ``disposable'' phones; 
automated maritime telecommunications systems (``AMTS''); and 
``emerging voice services and devices.'' As the leading 911 
constituency, expert and advocate, NENA applauds the Commission's 
leadership in seeking comment on these critical services and taking a 
proactive stance on emergency services. It is essential that we begin 
to anticipate change in the way people communicate and the potential 
impact that these changes will have on access to emergency services. We 
can and should be proactive in addressing the impact on future 
technologies and systems, instead of dealing with the impact of change 
once it has occurred--always looking back, or, like Alice in 
Wonderland, running as hard as we can to stay in the same place.
    Preparing for the future, NENA's Future Path Plan is integrating 
the growing variety of non-traditional ways to access 911 by adding 
components and functions to the overall 911 system to ensure that new 
methods of access are more effective, more dependable, and more 
economical than what we have, or than other alternatives. This 
technical plan for future 911 systems is providing a long-term 
direction for development to support new call sources and needs. In 
this, change can be as much an opportunity as it is a challenge.
    One of the barriers most often cited by wireless carriers is the 
issue of ``PSAP readiness'' and the FCC-required implementation 
timeframes that affect the timing and pace of deployment.
    While it's true that there are PSAPs that are not ``ready,'' there 
are a growing number that are. It should also be emphasized that PSAP 
readiness is not just a direct PSAP concern. E-911 implementation 
depends upon the timely and coordinated production and availability of 
Phase II capable handsets, other location technology, appropriate 
network infrastructure upgrades, PSAP support technologies and other 
technical enhancements.
    Product development and infrastructure upgrades presumably depend 
upon timely orders from customers, and those, in turn, on a willingness 
and understanding of the supplier of what is expected and what is 
needed in project management expertise. In the interest of emergency 
services for wireless customers and the public in general, best efforts 
by all parties should always be the expectation. Sadly this is often 
not the case, and in some instances we are confronted with a 
conspicuous absence of engagement.
    Ultimately wireless 911 calls must be routed to a PSAP on the 
network infrastructure of a landline telephone company. This ``911 
System Service Provider'' is usually an incumbent local exchange 
telephone company (ILEC). A critical stakeholder in the process, ILEC's 
have been for the most part absent from both the original planning and 
FCC rule making on this subject. Subsequent regulatory actions have 
considered the ILEC simply a vendor to the PSAP, in spite of their 
central position in the interconnection/interface complexities uniquely 
brought to the table in wireless E-911. This is untenable to the public 
safety community and dangerous to the wireless calling community.
    In this environment, PSAP readiness is more of an issue of 
leadership. It requires productive, timely and efficient relationships 
between the wireless carrier, ILEC and PSAP, along with other third-
party vendors and decision makers. Constant communications between the 
parties, project management, and forecasting of needs are critical. 
Landline trunking must be ordered and provisioned, technical interface 
issues addressed, and overlapping database functions coordinated. And, 
finally, much of this must occur within a diverse and complicated 
regulatory environment, and it needs to be paid for. If all of this 
doesn't work well, the pace of deployment can be materially impacted.
    I understand that sometimes public policy, presenting distinctive 
and beneficial public goals, may complicate and sometimes compete with 
legislation, and implementing rules and regulations. An example of this 
are LATA boundaries, which have been used to divide local from long-
distance service. These are important to the way service providers 
compete with each other, but they also complicate the timely and cost 
effective provision of 911 service. Perhaps a balancing of both 
objectives is the best answer here.
    Without a doubt, it's easy to point fingers and lay blame, but all 
parties can and should agree that PSAP readiness is an issue that 
reaches beyond the bricks and mortar of the PSAP. It's a systemic issue 
for all parties to address in a sense of common purpose, the public 
interest, frequent communications and cooperative spirit.
Resources and Funding
    Closely linked to the issues of technology and PSAP readiness is 
the availability of sustained resources and funding to deploy wireless 
E-911.
    FCC Docket 94-102, requires that wireless carriers provide location 
information from wireless phones by December 31, 2005 in any case where 
a valid PSAP request has been received. In order to do so, many PSAPs 
require sustained resources to be able to first accept, and then 
process Automatic Number Identification and Automatic Location 
Information (ANI/ALI) from wireless phones, through upgrades of 
technology and recovery of basic costs. Unfortunately, in far too many 
of our nation's communities, these E-911 needs are not being met simply 
because 911 funds and resources are not being allocated for 911 use.
    The costs of maintaining and operating a 911 system are significant 
and necessary. Technical, operational and financial resources are 
required from both the public and private sector. Reliability, 
redundancy, innovations and challenges in modern communications are 
constantly re-defining 911 costs and economies of scale. Funding our 
nation's 911 system is not only a challenge in today's world, but also 
a necessity to enhancing all emergency systems in the future.
    In the days of the Bell monopoly many of these costs were included 
in a consumer's basic service. Early 911 cost recovery mechanisms 
consisted of costs being passed on directly to the consumer in the form 
of surcharges and fees on phone bills. Understanding that 911 is a 
benefit to the public as a whole, these fees and surcharges were used 
for direct 911 expenditures for both the public and private sector.
    Training of dispatchers and turnover of highly skilled employees 
remains a challenge and obstacle for most PSAPs. Tight budgets and 
scarce resources make it that much more difficult to retain highly 
skilled employees. New technologies require more focus on education and 
training, while simultaneously creating a more skilled work force that 
requires additional resources for wages, training and employee 
retention. Dispatchers and call takers are dedicated public servants, 
but they need resources and skills to appropriately answer the call for 
help.
    As new communications technologies emerged, such as mobile 
telephony, surcharges were adopted for wireless phone bills to pay for 
911 services. Today, there are approximately 40 states in the U.S. that 
currently collect a surcharge for E-911 from wireless phone customers. 
All too often these monies sit idle. Not for lack of PSAP need, but 
rather waiting for pricing from LEC tariffs, wireless carrier 
requirements or other local priorities. Caught in the middle, PSAPs are 
torn between making request for services that haven't been priced or 
simply not requesting E-911.
    Instead of paying to develop and deploy E-911, these monies are 
being spent on other government needs that may or may not pertain to 
911. Accruing large sums of money in short periods of time, these funds 
are being reallocated to other purposes within the general fund or 
simply lost in the appropriations process altogether.
    Boosting revenues for strained government budgets and programs, 911 
funding has become an easy target. Subsequently, without appropriate 
funding and resources our 911 systems become antiquated, obsolete and 
unable to handle new communications technologies being used by the 
public. This results in missed deadlines, under-funded systems or no 
deployments at all.
    While I'm not questioning the right of state legislators to make 
critical public policy decisions regarding their budgetary needs, this 
alarming trend is, at best, slowing our progress towards truly 
universal 911 service, and, at worst, outright endangering its 
implementation. The nature of emergency services will always be local 
but the access to those services is a national expectation.
    Protecting and investing 911 monies for 911 purposes is a principle 
and policy agenda that we can and should all agree on.
Solutions, Emergency Services Interconnection Forum (ESIF) and NENA's 
        Strategic Wireless Action Team (SWAT)
    Since the adoption of the Consensus Agreement in 1996 between the 
wireless industry and public safety, much has been made of finding 
solutions to specific technologies, funding obstacles and regulatory 
barriers. And in the years that have followed, we have seen leaders and 
opportunities rise to the occasion.
    Members of this body (United States Senate) took it upon themselves 
to establish a framework for implementation by passing the Wireless 
Communication and Public Safety Act of 1999. Landmark legislation for 
public safety and 911, the Act identifies a need and challenge of 
national leadership by designating 911 as the universal emergency 
telephone number for wireline and wireless phones. Four years later, as 
I've noted, the Act still stands as a shining example of leadership and 
commitment to our nation's emergency communications system.
    As the chief regulatory body, the FCC has demonstrated a commitment 
to the Consensus Agreement and a willingness to inquire by 
commissioning the Hatfield report to better understand the technical 
roles and responsibilities of the many parties that are required for E-
911 deployments. We applauded and praised the FCC and Mr. Hatfield for 
such a thorough report and analysis of wireless E-911 and see it as an 
important roadmap for the technical challenges that lie ahead.
    Likewise we have worked with our fellow public safety organizations 
to support activities such as APCO's Project Locate and the Public 
Safety Foundation of America, which provides grants to expedite the 
implementation of E-911. Similarly, we have worked and supported a 
joint project with the United States Department of Transportation 
(USDOT) Wireless Implementation Program. In this effort, NENA has taken 
the lead to survey State and County 911 coordinators and provide 
national information on readiness of states, counties and PSAPs for 
wireless E-911.
    Of special note, working with the Alliance of Telecommunications 
Industry Solutions (ATIS), NENA co-convened the Emergency Services 
Interconnection Forum (ESIF) to help provide a venue for the 
telecommunications industry, public safety and other stakeholders to 
develop and refine technical and operational interconnection issues 
critical to this process. ESIF allows many different telecommunication 
entities to fully cooperate and interconnect with each other in order 
to determine the best practices and solutions necessary to deploy E-911 
services. (Please refer to the testimony of Susan Miller, President of 
ATIS to learn about this substantive effort being coordinated by NENA 
and ATIS).
    Each and every one of these activities has been an important 
stepping stone to better understand the nature of the problem and 
advance the issues of wireless E-911. Much of what we have accomplished 
thus far in E-911 would not be possible if not for the dedication, 
perspiration and leadership of the many experts in private industry, 
government and 911 in these aforementioned activities.
    Understanding that we as a nation and community are still at a 
crossroads of implementation, and that specific institutional barriers 
exist in technology, PSAP readiness and the funding of our nation's 911 
system, we have launched the Strategic Wireless Action Team (SWAT), to 
examine and address the global and systemic challenges affecting E-911 
deployment.
    In this process, NENA has proactively convened national leaders and 
technical and operational experts to identify priorities, and determine 
the changes needed to improve our nation's 911 system. Specifically, 
this initiative brings together all the relevant constituents--wireless 
and wireline telecommunications companies, state and local 
organizations, and the nation's leading Public Safety groups: NENA, 
APCO and NASNA--in a cooperative effort to address--and resolve--the 
critical barriers to ubiquitous E-911 deployment. Supporting third-
party objectivity, this effort is being organized and facilitated with 
support from the Monitor Group, a preeminent international strategy 
advisory firm; Giuliani Partners, and the PSAP Readiness Fund.
    Focused on systemic solutions and results-based outcomes, SWAT is 
interjecting new dialogue, energy, and resources where others have 
exhausted, given resources, time, or expertise. Moreover, SWAT is 
recognizing the necessity for a comprehensive public/private 
cooperative effort to address the many issues that are affecting the 
911 system--one dealing with solutions, not barriers and contention.
    Today we are faced with an aging 911 network in an era when the 
public demand for cutting-edge communications tools reaches from the 
schoolhouse to corporate offices to the home, in order to function 
throughout the community. While the nation's 911 service providers 
struggle with deploying location technology for wireless telephone 
sets, some parts of the country do not even have basic 911. As segments 
of our community rely more on two-way messaging devices, automatic 
crash notification service, etc., NENA's SWAT recognizes that the 911 
system must be modernized to accommodate emerging technologies and 
interconnected to accommodate the transfer of digital information 
across the country. More than anything, SWAT is an approach to resolve 
the coordination and funding issues systemically by increasing the 
alignment of all critical stakeholders involved in deploying E-911.
    SWAT is an opportunity to do it right: Organize leaders on a 
national level; get the right experts in a room; apply appropriate 
resources and guidance; and identify technologies, tools, and expertise 
needed to assure the consistent delivery of 911 systems throughout the 
U.S. SWAT is designed to look at the components of wireless E-911, 
along with the environment in which it operates, and identify and 
deploy the kind of focused resources necessary to truly foster wireless 
deployment. It's about getting the right people and, the right 
information to solve wireless E-911 problems.
    The initiative is representing an approach premised on the need to 
bring all involved parties to the process and to craft a comprehensive 
recommendation--by June of this year--which overcomes the myriad E-911 
logjams in place today. It is examining the economic, technological, 
operational, policy and political implications of potential E-911 
solutions to balance multiple private interests with public policy 
goals, and develop a recommendation that all parties can support. The 
initiative culminates in a consensus plan to be announced late this 
spring.
    Very much a work in progress, in a relatively short timeframe, SWAT 
has yielded positive results and a candid dialogue along with a renewed 
commitment to the deployment of wireless E-911. Proactive and consensus 
driven--SWAT recognizes that we can't afford to address E-911 issues in 
a contentious and litigious approach, but that we must work together to 
implement this critical services as quickly as we can.
    A critical mass of public safety advocates and leaders, wireline E-
911 system service providers and wireless companies--and their 
respective CEOs--have already committed their ongoing support to this 
initiative. Some have yet to come to the table, but the opportunity 
remains: build a better 911 system for all enhanced services, devices 
and communications.
Final Thoughts
    Like all partnerships, we have had our ups and downs and fair share 
of trying times and difficult moments. There have been finger pointing, 
squabbles over resources and, of course, spin. The sandbox hasn't 
always been productive and pleasant. I am here today to move past that. 
We've got a job to do. It's about solutions, progress and 
implementation, and to the extent that barriers exist, we must work 
together in a committed and coordinated way to overcome them. We must 
find and support solutions and move past rhetoric and sound bites.
    As the National President of the National Emergency Number 
Association, I am tasked with facilitating a discussion that responds 
to the systemic issues of 911. I'm also asked to work collaboratively 
to form solutions. But in the end it comes to one simple goal. It's 
about saving lives, protecting property and ensuring the security for 
all Americans.
    I thank you for your leadership and the opportunity to work with 
all of you in advancing the implementation of E-911.
                                 ______
                                 
          Police Vehicle Automatic Crash Notification Summary
Accident Scenario
    On December 27, 2002 at 10:25 p.m. CST Officer Chris A. Murray of 
the Pasadena, Texas Police Department was returning to his reporting 
sub-station after completion of his patrol duties. He was northbound on 
Red Bluff road in Pasadena, Texas when he temporarily lost control of 
his vehicle causing him to leave the roadway into the west center 
median of the roadway. Quickly correcting his slide into the median's 
drainage ditch, he turned his vehicle back onto the roadway but the 
speed of the vehicle coupled with slippery conditions prevented him 
from gaining full control. His vehicle catapulted across the roadway 
eastbound and nose-dived into a drainage ditch located parallel to the 
roadway on the east side. The vehicle flipped on end with the rear of 
the vehicle moving upwards. As it flipped, the vehicle's roof smashed 
into a utility pole installed on the side of the canal. This impact 
then caused the vehicle to be thrown back onto the roadway eventually 
coming to rest on its roof and trapping the unconscious patrolman in 
his seat.
    Fortunately Patrolman Murray had been in radio contact with his 
patrol dispatchers when the crash occurred. Dispatchers quickly 
assessed the situation and were able to send immediate emergency help 
to his crash location. Emergency responders found the officer trapped 
and unconscious in the car. Extricating him and fearing major head 
trauma due to his unconscious state, they called for Life Flight. He 
was then flown to the Trauma Center at Houston's Hermann Hospital. In 
and out of consciousness for several hours, he was treated for physical 
injuries that included a dislocated shoulder. After 20 hours of close 
observation Officer Murray was released from the hospital.
First Ever Automatic Crash Notification (ACN) Service Application
    Officer Murray's vehicle was one of 500 police vehicles in the 
Texas Harris and Fort Bend county areas equipped with a Prototype 
Telematics Crash Detection Module (CDM) and Sensors. The vehicles are 
being used in support of a First in the Nation long term Automatic 
Crash Notification (ACN) analysis project involving Greater Harris 
County 911 Emergency Network (GHC) and Ford Motor Company.
    Immediately detecting its vehicle's crash, the CDM senses and 
captures vital crash, location, vehicle and occupant data. It 
communicates within seconds with Ford's roadside Telematics Service 
Provider, Cross Country Automotive Services (CCAS), and transmits all 
ACN data in a compressed data pulse format. Simultaneously, a voice 
channel link is also established to vehicle occupants with CCAS 
emergency call attendants. Via newly developed network elements for 
this project, CCAS also immediately receives, within seconds, 911 
telephone routing information from servers and databases of INTRADO, 
GHC's 911 database contractor. Using GPS latitude and longitude (X,Y) 
coordinates transmitted by the vehicle's CDM, INTRADO's Call Routing 
Databases pinpoint the closest 911 Public Safety Answering Point (PSAP) 
to the vehicle in crisis. Telephone routing information is then passed 
back to CCAS for use in conferencing in PSAP 911 call takers. This is 
the first ever use of the Native 911 Network Infrastructure to connect 
and pass emergency information from Telematics Service Providers such 
as CCAS directly to 911 responding centers. INTRADO's database servers 
also immediately display pertinent data elements received from the CDM 
on the PSAP call taker's computer monitor along with vehicle 
information such as car model, year, plate number, color, owner, etc. 
received from CCAS profile database systems. Using the X, Y elements 
from GPS, PSAP monitors also paint Map Displays indicating where the 
accident took place. Detection of the crash, data compilation and 
establishment of all communications links for transference of voice and 
data information to all responders regularly occurs within 30 to 60 
seconds.
Pasadena Accident ACN Data Compilation and Analysis
    Compilation of ACN data from Officer Murray's vehicle indicates 
that its CDM detected the accident at 10:25:17 CST on 12/27/02. Data 
was transmitted to CCAS from the vehicle and voice communications was 
established within 22 seconds although Officer Murray could not respond 
due to being unconscious. Noting the severity of the crash and 
receiving no response from the occupant, CCAS call attendants 
immediately contacted the Pasadena, TX 911 PSAP establishing 3 way 
communications within 10 seconds via the newly developed ACN networks. 
Vital vehicle and crash information including street name and 
coordinate information was passed to the PSAP call taker both by voice 
and in data displays. See Attachments 1 and 2. CCAS call takers were 
then informed by 911 PSAP responders that they were aware of the 
accident due to the dispatcher communications with the vehicle just a 
few seconds earlier. The PSAP following normal procedure dropped 
communications with CCAS attendants at this time. CCAS call takers 
maintained communications with the vehicle until emergency sirens were 
heard arriving at the crash site and responders assisting the driver. 
Total communications time from time of the crash to informing 911 PSAP 
call takers was less then 35 seconds.
    Analysis by Ford Motor engineers of crash pulse data from the 
vehicle's CDM closely parallels driver observations and accident 
investigators' accounts of what occurred during the crash. Crash pulse 
analysis (Attachment 3) indicated a violent lateral movement as the 
vehicle hurled into the east side ditch at an angle but still impacting 
almost head first into the canal (Attachment 4). The CDM's 
accelerometer also measured a severe impact on a vertical plane as the 
roof hit the utility pole (Attachment 5). Next it measured a lesser 
impact as the vehicle landed on the passenger side back in the road 
(Attachments 6 & 7) and eventually noted the rollover and final roof 
resting position of the vehicle (Attachment 8). GPS coordinate 
information from the CDM (lat. 29.64504 long. -95.11654) measured the 
vehicle's exact location allowing CCAS and PSAP Map Databases to 
identify the road as Red Bluff Road in Pasadena, TX. CDM speed and 
occupant sensor data correlated driver's observations. Vehicle profile 
identification information was exact.
Conclusion
    Several months of data analysis from both test vehicles and actual 
crash incidents has proven the efficacy of GHC's ACN service 
introduction in Harris and Fort Bend Counties. In Officer Murray's 
case, had he not been in communication with his dispatcher, ACN 
provided the venue for dispatching immediate help to the exact accident 
location within seconds of its occurrence. ACN significantly reduces 
current response times in vehicle crash emergencies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Burns. Thank you very much.
    Well, I am going to jump here to Mr. Tuller, who is General 
Counsel for Verizon Wireless, and hear his testimony, because 
we are hearing from industry people, then I want to get back to 
Thera, because her message, too, is very good for this 
committee, and there again you can summate if you wish, but 
your full statement will be made a part of the record, and we 
welcome you here today. Thank you very much for coming.

          STATEMENT OF S. MARK TULLER, VICE PRESIDENT 
             AND GENERAL COUNSEL, VERIZON WIRELESS

    Mr. Tuller. Thank you very much, Mr. Chairman. I want to 
stress three issues today about E-911 deployment. First, 
Verizon Wireless has successfully met its schedule for 
deployment of E-911. Second, as we have heard, there is a 
critical mismatch between the readiness that Verizon Wireless 
has achieved and the readiness of the other critical components 
in the E-911 system, particularly the PSAP's, and third, the 
principal reason for this mismatch in readiness is that the 
method of funding the enormous investment for this complex 
technology is unfair, confusing, and inadequate.
    On my first point, Verizon Wireless has progressed. We have 
devoted significant resources to this mandate, and we are fully 
on track. I want to stress, we have heard this morning that E-
911 implementation is complicated both because the technology 
is novel, but also because it involves thousands of vendors, 
wireless carriers, landline carriers, PSAP's, and, in our case, 
it involves millions of customers.
    We have committed to replacing the handsets of our 32 
million customers to enable E-911, all this at a time when the 
wireless industry is facing unprecedented financial pressure, 
competition, and demand for alternative uses of capital, 
including the need for greater coverage, new digital 
technology, and wireless data products. Nonetheless, we have 
met our deadlines for deploying E-911. We provide Phase I 
service to more than 1,700 PSAP's in 38 States, covering an 
estimated 120 million people.
    We have activated Phase II service permitting latitude and 
longitude location to over 260 PSAP's serving about 30 million 
people. We are selling 10 brands of phones that have global 
positioning system capability within them.
    Nearly all of our switches nationwide are able to support 
911 Phase II requests by the PSAP's, and that leads me to the 
second point, the mismatch between our level of readiness and 
the readiness of the other links of the chain, because we and 
the other wireless carriers are under fixed deadlines to make 
ready and deploy our parts of the chain, yet despite our best 
efforts, the PSAP's are lagging behind. There are 4,000 PSAP's 
that have never requested Phase I service from my company, let 
alone Phase II service.
    Additionally, we have found that PSAP's have requested 
service on the expectation that they would be ready in time for 
us, and yet, in reality, did not have proper funding or 
resources to go live. This means our effort was misprioritized 
or, in some cases, wasted.
    However, the most wasteful disparity involves the GPS 
handsets. As I mentioned, we are selling 10 different brands of 
handsets with a complicated chip set inside that enables the 
handset to fix its location from the GPS satellites and relay 
that location information whenever the user makes an emergency 
911 call.
    It is amazing technology, and we pay our vendors a 
significant cost for the GPS chip sets in our phone which we 
cannot charge our customers because of the wireless competitive 
pricing, and as a result of the delays in PSAP deployments, we 
are putting millions of E-911-capable phones in the public's 
hands on the schedule required by the FCC, and those phones are 
useless for E-911, where the PSAP's are not equipped and ready 
to receive the location information.
    Mr. Chairman, at current course and speed, the GPS phones 
that we are selling today will be retired and thrown away 
before most PSAP's can be made ready, and that is related to my 
last point, that the system for funding E-911 is inadequate, 
unfair, and wasteful. The PSAP's and the carriers should be 
supported with E-911 funding, yet all too often PSAP's and 
carriers are deprived of the funding they need, and carriers 
and their customers are expected to pay for E-911 deployment 
without reimbursement.
    As you can imagine, it is very disturbing for my company to 
fund the extra cost of the GPS phones knowing that we do not 
have a clear path to recover our costs, and knowing, as I just 
said, that most of the money will be wasted. The 911 taxes that 
most States require us to put on our customers' bills should be 
used to reimburse all of the carrier and PSAP costs associated 
with deployment. By these taxes, wireless subscribers have paid 
approximately $700 million a year to the States to support 
wireless E-911, but as we have heard, in many cases, they are 
being spent on other things. New York has collected over $200 
million in taxes, but it has not been used to support carrier 
costs. To be blunt, the diversion of funds that we must collect 
from our customers under the label of a 911 tax is akin to 
false advertising by some governments.
    Mr. Chairman, E-911 is moving forward and in some places, 
it is being done right. I especially do want to commend the 
productive partnership between the professionals in the public 
safety community and the professionals within our industry 
working together to get the job done, but to make further 
progress, Mr. Chairman, I ask that you and your Committee 
consider what steps Congress can do to address the funding and 
other problems that are slowing progress toward this goal.
    Thank you.
    [The prepared statement of Mr. Tuller follows:]

         Prepared Statement of S. Mark Tuller, Vice President 
                 and General Counsel, Verizon Wireless
    Thank you for the opportunity to appear before you today. I am Mark 
Tuller, Vice President and General Counsel of Verizon Wireless. Verizon 
Wireless serves over 32 million customers in 49 states and the District 
of Columbia. Our position in the industry gives us a unique perspective 
on the challenges of implementing E-911.
    I commend Chairman Burns and the members of the Subcommittee for 
holding this important hearing to discuss this critical issue for 
consumers, the nation, and the wireless industry. Verizon Wireless and 
all wireless carriers have long recognized the importance of providing 
E-911 service to the public. Wireless phones help ensure public safety 
on highways, in cities, towns, workplaces and neighborhoods. More than 
137 million wireless users in the United States make more than 150,000 
calls daily for help or to report an emergency.
    Since the first FCC proceedings on this issue in the mid 1990s, and 
the subsequent passage of Chairman Burns's landmark Wireless 
Communications and Public Safety Act of 1999, we've come a long way and 
seen tangible results. Verizon Wireless has made significant 
commitments to the full and successful implementation of E-911. We have 
successfully implemented extensive network component upgrades, 
overhauled our handset specifications and purchased modified handsets, 
and completed a complex series of tasks associated with providing 
enhanced 911 Phase I and Phase II location services. \1\ Other wireless 
carriers have also worked tirelessly. As of January 15, 2003:

    \1\ Under the FCC's rules, wireless E-911 has been deployed in two 
phases: Phase I E-911 service provides emergency call takers with the 
telephone number of the mobile caller along with the location of the 
radio transmitter (cell site) handling the call. Phase II E-911 service 
improves upon the accuracy of the information by estimating the 
caller's latitude and longitude of the mobile caller's location. This 
Phase II latitude-longitude information is derived either through the 
use of location determining equipment embedded in the mobile caller's 
handset, in the network or a combination of both.
---------------------------------------------------------------------------
  <bullet> Verizon Wireless provides Phase I E-911 service to a total 
        of 1,728 PSAPs serving an estimated population of 120 million 
        residents in 38 states. We're presently working on filling 
        about 175 requests for Phase I service.

  <bullet> Verizon Wireless has met all milestones for making its 
        national network capable of providing Phase II service to meet 
        PSAP requests.

  <bullet> Verizon Wireless now provides Phase II service to 261 PSAPs 
        in FL, IL, IN, NY, OH, PA, RI, SC, TN, TX, VA, and VT, serving 
        an estimated population of 30 million residents. Verizon 
        Wireless is presently working on about 125 requests for Phase 
        II service.

  <bullet> Verizon Wireless currently offers ten handset models that 
        are Phase II Global Positioning System (GPS) location-capable.

    The work we've done with the public safety community is extensive, 
yet if you consider that there are over 6,000 PSAPs operating in the 
country there is still far more that needs to be done before the 
country has full E-911 capability. There are still critical issues to 
resolve regarding E-911 implementation. These issues are:

  <bullet> PSAP and LEC readiness and coordination

  <bullet> The unfair, confusing, and inadequate system of funding--or 
        rather, not funding--the deployment of E-911 service

  <bullet> The need for a firm public safety plan

I. The Hatfield Report and Overall Status of Wireless E-911--``If We 
        Build It, When Will They Come?''
    As you can see, Verizon Wireless has done all that has been asked 
of us to make our nationwide network ready to meet PSAPs Phase II 
service requests. We invested more than $50 million in capital to 
prepare our network for Phase II, yet only about 400 of the over 6,000 
PSAPs in the country have made themselves ready to order and use Phase 
II service. We've also spent a considerable amount on new handset 
capabilities. Every one of the new phones that we're bringing to market 
now has GPS location capabilities built in. Regrettably these 
nationwide capabilities are going to waste. The critical factor that 
must be overcome is making sure that PSAPs are able to get their 
equipment, vendors and staffs up to speed rapidly to be able to accept 
and use this Phase II service. The Federal Communications Commission 
(FCC) enlisted Dale Hatfield to conduct an analysis and report on the 
technical and operational issues that affect wireless E-911 deployment. 
Dr. Hatfield found that this lack of PSAP readiness has impacted 
nationwide E-911 capabilities. \2\ Mr. Hatfield's inquiry confirmed 
that the focus of attention has ``shifted from discovering, developing, 
evaluating and selecting the ways of locating mobile units to 
integrating the location information into the existing E-911 system.'' 
More specifically, now that wireless carriers have selected and begun 
their deployment of location technologies, there is a need for 
increased attention on, among other things, PSAP and LEC readiness.
---------------------------------------------------------------------------
    \2\ A Report on Technical and Operational Issues Impacting The 
Provision of Wireless Enhanced 911 Services Prepared for the Federal 
Communications Commission by Dale Hatfield.
---------------------------------------------------------------------------
    While wireless carriers, in the midst of the most restrictive 
financial environment in their history, are required by the 
Commission's rules to deploy location technologies and must comply with 
strict implementation deadlines that are not entirely conditioned on 
the readiness of PSAPs or the underlying wireline infrastructure, the 
Commission's wireless E-911 rules provide no assurance that other links 
in the chain will achieve upgrades to their capabilities on a schedule 
that will match the schedule the Commission has imposed on wireless 
carriers. As a result, the wireless industry is in the process of 
investing hundreds of millions of dollars to deploy wireless E-911 
capabilities without any assurance that wireless customers will benefit 
from the location capabilities wireless carriers are incorporating into 
their handset and network infrastructures. Verizon Wireless and the 
wireless industry welcome the findings of the Hatfield Report and its 
emphasis on the importance of involving all of the critical 
stakeholders who must integrate wireless location information into the 
911 systems to better serve the public.
    Significantly, the Hatfield Report addresses the issue of PSAP 
readiness, and concludes that PSAP readiness remains a potential 
detriment to the rapid and efficient rollout of wireless E-911 services 
due to a limit on how much coordination can be carried out on a 
volunteer basis by PSAP personnel with full time responsibilities in 
their home agencies; the difficulty PSAPs are encountering obtaining 
sufficient funding to request wireless E-911 (there are at least 4,000 
PSAPs that have never requested Phase I services from Verizon Wireless, 
and 94 percent have still not requested Phase II); and even more 
troubling, the recent redirection of E-911 funds by state legislatures 
who seek to fund other programs; and the lack of an advocate (or 
``champion'') at the Federal level of government that would work with 
state and local entities to educate PSAPs on the importance of E-911 in 
general, and wireless E-911 services in particular.
    E-911 technology involves not only wireless carriers and PSAPs, but 
also local wireline carriers. For example, some technology changes 
involving the local exchange carrier's (LEC) Automatic Location 
Information (ALI) database are required for the ability to get 
continuous inquiry into a wireless caller's location, not just a one-
time inquiry at the start of the call. This is necessitated by the 
mobile nature of wireless communications. This ``continuous-inquiry'' 
functionality, requested by PSAPs and supported by the wireless 
industry, requires upgrades to LECs' interface with the ALI database.
    Our experience in the Verizon wireline territory has been positive. 
For example, we have rolled out Phase II E-911 in Virginia in a 
cooperative partnership with the PSAPs and Verizon. But other local 
exchange carriers reported they were still in the process of adding 
this capability to their ALI databases when asked by the FCC. Some LECs 
are still seeking state commission approvals to changes to their 
tariffs, and some of these requests are being challenged by PSAPs. 
Waiting for these upgrades and changes to these tariffs and pricing 
schedules have contributed to deployment delay.
II. The Tax and Reimbursement Programs of Some State and Local 
        Governments Have Been Unfair to Customers, Wireless Carriers, 
        and PSAPs
    Verizon Wireless thinks it's time to examine the state and local 
taxes assessed upon wireless consumers to pay for the costs of E-911 
implementation, and the administration of the resulting funding pools. 
The idea was to tax wireless customers to reimburse PSAPs and carriers 
for the enormous costs of E-911 deployment. Unfortunately, the 
customers are being taxed for a service that often is not being 
provided; the PSAPs are frequently not receiving adequate funding from 
the pools; and wireless carriers are not being fully reimbursed for 
their costs.
    Although wireless subscribers contribute approximately $700 million 
a year to support wireless E-911 service, this money is not always 
provided to the PSAP serving the subscriber's home market. For example, 
as the New York Times recently reported, because New York City and Long 
Island operate their own emergency 911 systems, they do not share in 
the millions of dollars raised by the state through consumer 
surcharges.
    Worse still, some states have ``raided'' their E-911 pools to cover 
budget deficits. New York was one of the first states to add a ``911 
tax'' on monthly wireless bills. Ten years later, New York has 
collected over $200 million from wireless customers, but much of the 
money has been diverted to other things. Auditors found that the 911 
funds have paid for police radios, travel expenses and dry cleaning. In 
California, more than $50 million dollars earmarked for PSAP 
implementation of E-911 was diverted in 2001 to close gaps in the state 
budget. North Carolina similarly decided to spend millions of E-911 
dollars on other unrelated matters. Consumers' ability to benefit from 
emergency location information would be greatly enhanced if PSAPs had 
access to, and could prioritize the use of, the hundreds of millions of 
dollars being collected from wireless consumers.
    Twenty six million of our thirty two million Verizon Wireless 
customers remit over $130 million annually to pay for E-911 
implementation. Yet we receive slightly less than a $1 million per 
month for reimbursement of costs associated with E-911 implementation. 
Well over ninety percent of the cost recovery money we do receive is 
for Phase I deployment. And we've not yet been paid for the more than 
$50 million in up-front expenditures for our nationwide Phase II 
network enhancements or the costs of location-determination capability 
added to each GPS handset.
    The inadequate funding and redirection of the 911 surcharge monies 
collected from wireless customers is the single biggest obstacle to 
ubiquitous deployment of E-911. Congress must use its oversight 
authority to bring an end to the scheme of collecting 911 surcharges 
which are never used to reimburse PSAPs or carriers for costs 
associated with E-911 implementation. We also expect during the 
legislative sessions in many states to be facing ``Homeland Security'' 
taxes and fees either as direct surcharges on our customers or as 
charges to the companies. Treatment of E-911 funds to date fails to 
engender confidence that any of that money will be used to implement E-
911, an important component of homeland security. I also fear that the 
lack of an effective cost recovery program will result in consumers 
purchasing Phase II capable phones today that may never operate in an 
area with a Phase II capable PSAP.
III. A Public Safety Plan Is Crucial to E-911 Success
    Creating a model statewide deployment plan should be the first 
priority for every state. Within any given state, there are significant 
inconsistencies from PSAP to PSAP and they are at varying levels of 
readiness and effectiveness. Public and private sector entities would 
benefit from common contractual and operational understandings. These 
varying levels significantly impact a PSAP and/or wireless carriers' 
ability to implement Phase I and Phase II. States should work towards 
harmonizing PSAP readiness within their borders.
    National guidelines may be beneficial to create uniform principles 
that would facilitate deployment and promote PSAP interoperability 
across state borders. There are already a number of states that have 
demonstrated significant success in implementing Phase I in the vast 
majority of their PSAPs. These states share many common hurdles and 
common solutions, which could help states that are not as far along in 
this process. The elements common to statewide solutions are:

  <bullet> A central planning body within the state that manages 
        financial, as well as implementation processes.

  <bullet> Technology neutrality--a must for operational, technical and 
        financial solutions.

  <bullet> Cost recovery funding mechanism for both the carriers and 
        the PSAPs should be in place.

    Each state should create a state E-911 Task Force comprised of 
representation from the public/private sectors, PSAPs, wireline and 
wireless carriers, to establish the requirements and develop the 
program for how 911 and E-911 will be delivered within the state. 
Centralized planning within each state, an established appropriate 
funding mechanism and appointing a state Director/Administrator of 
statewide 911 systems are the key factors that have contributed to 
early state successes. A state Director/Administrator can do further 
assessment planning and build it into current deployment schedules. 
Statewide planning will most likely enable redundancy and 
interoperability among existing PSAPs to give a higher level of service 
in these times. Setting aside local concerns and giving guidance at the 
state level is necessary to achieve success.
    This mirrors the congressional direction included in S. 800, the 
Wireless Communications and Public Safety Act of 1999, to implement 
statewide plans for comprehensive deployment for E-911.
IV. Conclusion
    Verizon Wireless and the wireless industry are proud of our role in 
promoting public safety. Much still needs to be done by all parties to 
the E-911 effort--the FCC, the wireless industry, the technology 
suppliers, and the PSAPs, but we are turning the corner. I thank the 
Committee for holding this hearing and hope that we can continue to 
improve the cooperation and coordination among all parties to make 
enhanced 911 a reality for all Americans.

    Senator Burns. Thank you, and I think we might have found a 
place where we can affect a little bit of change for the 
deployment.
    We have Ms. Thera Bradshaw this morning, and she is with 
the International Association of Public-Safety Communications 
Officials, and we look forward to your comments this morning.

            STATEMENT OF THERA BRADSHAW, PRESIDENT,

     ASSOCIATION OF PUBLIC-SAFETY COMMUNICATIONS OFFICIALS 
                         INTERNATIONAL

    Ms. Bradshaw. Thank you, Mr. Chairman, and to the members 
of your Committee for the opportunity----
    Senator Burns. You might want to pull that microphone up 
close.
    Ms. Bradshaw. Thank you again, Mr. Chairman, and to the 
members of the Committee, for the opportunity to appear before 
you today. I am especially grateful to you, Chairman Burns, to 
Senator Inouye, to Senator McCain, and to Senator Hollings for 
your leadership on drawing the much-needed attention to this 
wireless Enhanced-911 issue. I also, Chairman Burns, want to 
acknowledge yourself and Senator Clinton and Representative 
Shimkus and Representative Eshoo for the dedication you have 
shown and the commitment you have shown in founding the E-911 
Caucus, and would encourage your Congressional colleagues to 
join you.
    I am going to just touch on three things, really, in my 
testimony, the sense of urgency, the need for Federal help in 
terms of champion money and policy, and the direct tie that 911 
has in linking to homeland security.
    I am Thera Bradshaw, president of the Association of 
Public-Safety Communications Officials International, known as 
APCO. I am also assistant general manager in the City of Los 
Angeles, which supports my testimony here today. I have spent 
my career building and managing 911 centers from rural areas of 
both Oregon and Washington to urban areas of San Francisco, and 
now I am in Los Angeles.
    As John mentioned, I was president of the National 
Emergency Number Association, and co-signer on the 1995 
consensus document that really brought the wireless industry 
and public safety together and led to the Federal 
communications rules on wireless Enhanced-911.
    APCO's members, the membership I represent and are most 
proud of, are truly the first of the first responders. They are 
the ones who build and manage the 911 centers. We are the first 
voice people hear when they call 911 for help. We put the 
emergency response in motion, and it is my membership that I 
represent who speak with callers in distress, identify these 
locations where the emergency exists, dispatch the help, and 
provide the means for the responders to actually talk to each 
other when they get to the scene where help is needed. APCO is 
the face of 911, with 16,000 members.
    Mr. Chairman, today we are dependent upon wireless 
technology both in our own personal lives and equally in public 
safety, and in the public safety community. We need technology 
to do our job, we need this technology to be deployed broadly 
and quickly, to be able to respond adequately to emergencies. 
In the post-September 11 that many people have already 
mentioned here in this hearing today, we also must be prepared 
today to respond to terrorist attacks right here in America, 
something I thought I would never see happen in my lifetime.
    Full and effective deployment of Enhanced-911 is a complex 
undertaking. Many have spoken to that, and the readiness of the 
911 centers is imperative. The public safety answering points 
are working hard to prepare for Enhanced-911 deployment, and 
many are ready, but are still waiting for all the stakeholders 
to come together and do their part.
    In jurisdictions where all stakeholders have come together, 
and I have been privileged to be a part of those, that included 
the wireless carriers, the local exchange carriers, the 
equipment manufacturers, and the 911 centers, deployment moved 
quickly and swiftly and was achievable. In jurisdictions where 
that does not happen, progress is either not happening, or 
progress is slow. I urge Congress and the Federal 
Communications Commission to just basically accept no further 
delays, and applaud you for your leadership in this effort.
    At the heart of PSAP readiness, there are two primary 
things that I want to talk about, and I think are important for 
you to hear. One is funding, which a lot of people have alluded 
to and talked about, and the other is training. The most 
valuable resource we have in 911 centers are our human 
resources. It is the people who are taking those calls for 
help, and like John, Jenny and myself, we have all sat there 
and taken those calls for help ourselves, so we have been on 
that first line. I strongly urge Congress in its homeland 
security appropriation to recognize the essential role that 
emergency communications has in protecting our homeland right 
here in America.
    As the Nation's first first responders, APCO asks that you 
clearly define first responder to include, not exclude, but to 
include 911 centers and emergency communications professionals 
who sit and answer those calls.
    Our 911 communications infrastructure must have substantial 
Federal leadership and Federal investment. The diversion of 911 
funds that we have heard about, and it has certainly been a 
point of controversy and is of concern to APCO--and nearly 40 
States have implemented some type of 911 surcharge. This 
funding is critical for the local 911 centers and for PSAP 
readiness. However, in a significant number of States funds 
have been diverted. We know of nearly $500 million that has 
been used for other purposes.
    In my own home State of California, this has happened at 
least three times, and we have also heard about this happening 
elsewhere in some of the testimony this morning. I cannot 
emphasize to you enough, and any of the testimony that you will 
hear or you have heard today, how important this is to life and 
death issues here in America at a most important time. By 
diverting funds intended for 911 deployment, we are prolonging 
the implementation of life-saving technology that many of our 
citizens frankly assume is already in place today.
    I am proud to say that APCO has helped in some 
supplementing of public safety answering points funding. Last 
year, we established the Public Safety Foundation of America to 
actually expedite and to support moving forward with the 
deployment of wireless 911. This foundation, I am proud to say, 
is guided by a coalition bringing a number of stakeholders 
together from our Nation's Governors to cities, counties, and 
our public safety associations, and John Melcher sits on that 
foundation.
    Recently, the Foundation awarded $2.4 million to 29 
different jurisdictions in 20 different States, and Chairman 
Burns, again I would like to thank you, along with Senator 
Dorgan, for participating in those grant announcements and 
taking a little of that money from APCO that we were glad to 
give, and need more of to give. I hear Jenny saying they are 
going to be back.
    The second issue that I think is incredibly important, and 
that I want to bring to your attention, to readiness is the 
human resources, that the people who are taking the calls and 
who are dispatching resources, they have to be adequately 
prepared. There have to be resources to adequately prepare and 
train them to be able to do that most critical job as the first 
first responder.
    Because of an ever-changing environment from technology, to 
laws, to all sorts of things, training of 911 personnel is a 
significant challenge and an ongoing challenge, and frankly, it 
is generally the first thing in the budget to get cut, is 
training dollars. APCO strongly believes that Federal funds 
must be dedicated to training 911 personnel as a means of 
bolstering homeland security and emergency preparedness in 
America.
    Finally, I would be remiss if I did not take the 
opportunity to emphasize the need for adequate spectrum and 
interoperability. The lack of spectrum for public safety has 
led to dangerous congestion. It has directly impacted 
interoperability, the ability to talk to each other at the 
scene of an emergency, and is also a homeland security issue 
that is important, I know, to you, Chairman Burns.
    In closing, the wireless Enhanced-911 effort began after 
this consensus document was signed in 1995, 8 years ago. At 
that time, the need was urgent, and we have now experienced the 
horror of September 11. Our homeland security is threatened in 
a way that was inconceivable to me when I signed that document 
in 1995. We need to make this happen now. We need Enhanced-911 
any time, any place, anywhere available to every citizen, 
visitor, business in America. It is that important.
    And as my colleague has articulated, this is a global 
issue. It is not just a State-by-State or local community 
issue. It is global, and I applaud the efforts of Congress for 
tackling this, taking this on. We stand ready as an association 
to work with you and to work with all stakeholders to address 
the challenges and appreciate very much your championship of 
this issue.
    Thank you.
    [The prepared statement of Ms. Bradshaw follows:]

    Prepared Statement of Thera Bradshaw, President, Association of 
          Public-Safety Communications Officials International
    Thank you, Mr. Chairman and members of the Committee, for this 
opportunity to appear before you today. I am especially grateful to 
Chairman Burns, Senator Hollings and Senator Inouye for your leadership 
in drawing much-needed attention to the E-911 issue.
    I am Thera Bradshaw, President of the Association of Public-Safety 
Communications Officials International, known as APCO. I am also 
Assistant General Manager, Policy and Public Services, for the City of 
Los Angeles Information Technology Agency. My career has been dedicated 
to building emergency communications systems in a variety of venues up 
and down the west coast, from rural Washington and Oregon to urban 
areas such as San Francisco and Los Angeles. In addition to being a 
long-standing member of APCO, I served as President of the National 
Emergency Number Association in 1994-95 and was a co-signer of a 1996 
consensus document within the public safety community that led to the 
FCC rule on E-911 deployment.
    APCO is the oldest and largest not-for-profit professional 
organization dedicated to public safety communications. Our members are 
truly the first of the first responders in an emergency. We are the 
first voice people hear when they call 911 for help--and we put the 
emergency response in motion. In addition to getting as much 
information from the caller as possible, our members identify the 
location of the emergency, dispatch help to that location, and provide 
the means for the responders to communicate with each other on the 
scene. APCO is the face of 911, and we have nearly 16,000 members in 
the U.S. and around the world.
    Mr. Chairman, you and your colleagues are well aware that public 
safety and emergency communications capabilities are critical in our 
increasingly wireless world. Virtually everyday, we hear of yet another 
life being lost or put at greater risk because the location of a 911 
call from a wireless phone could not be identified. As you know, E-911 
technology provides the communications infrastructure to locate these 
calls.
    We need this technology deployed as broadly and as quickly as 
possible. E-911 is a critical component of our public safety net when 
we are faced with fire, crimes in progress, medical emergencies, 
traffic accidents, and hundreds of other possible scenarios requiring 
an immediate emergency response. Unfortunately, in the post-September 
11 world, these potential emergencies also include terrorist attacks on 
U.S. soil.
    Full and effective deployment of E-911 is a multi-faceted 
undertaking, but today I want to focus your attention on one primary 
concern: the readiness of our 911 Centers. In the communications world, 
these centers are known as public safety answering points or PSAPs, and 
I will use that terminology here. I also want to briefly address the 
issues of spectrum availability and interoperability, which are 
critical to the overall communications needs of our nation's public 
safety personnel.
    At the heart of PSAP readiness are two primary issues: PSAPs must 
be adequately funded, and PSAP personnel must be appropriately trained.
    Let me first address the matter of PSAP funding. In terms of any 
Federal appropriations for homeland security or emergency preparedness, 
I strongly urge Congress to recognize the essential role of emergency 
communications in protecting our citizens and our homeland. As the 
nation's first first responders, APCO and its members ask that you 
clearly define the term ``first responder'' and that emergency 
communications professionals be included in this definition.
    I would also like to address the current controversy regarding 
state funding. As you know, nearly 40 states have implemented a 
surcharge on cell phone customers to build a fund dedicated to 
deploying E-911. Given that most states and cities are currently facing 
severe budget deficits, this funding is crucial to PSAP readiness. 
These dollars are required for PSAPs to receive and process location 
information essential to identifying and locating wireless calls to 
911. However, because not all states have enabling legislation that 
clearly specifies how these funds can be expended, a significant number 
of states have already diverted a total of nearly $500 million from 
these funds and used it for other expenses.
    In my home state of California, a proposal was introduced last 
month to transfer $51 million from the State Emergency Telephone Number 
Account to pay for non-911 operations. This follows on the heels of a 
similar transfer of $50 million last year. According to the Comptroller 
for the State of New York, $162 million was shifted from their E-911 
fund and used to pay for non-911 expenses. In a cruel juxtaposition, 
this news was discovered subsequent to learning of the tragic drowning 
of four high school boys in Long Island Sound. The boys made a cell 
phone call to 911 as their rowboat was sinking, but they could not be 
located because E-911 technology was not in place. I cannot emphasize 
this enough--these are life and death issues we are dealing with. By 
diverting funds intended for E-911 deployment, we prolong the 
implementation of this life-saving technology that many of our 
citizens, sometimes to great despair, assume is already in place.
    On a positive note, I am proud to say that APCO is stepping up to 
help with PSAP funding. Last year APCO created the Public Safety 
Foundation of America (PSFA), a public-private partnership dedicated to 
saving lives by supporting and expediting the nationwide deployment of 
E-911. Funding for the PSFA is provided by a variety of sources, 
including donations from corporations, APCO chapters, and other 
organizations.
    Two weeks ago, the PSFA announced its inaugural round of grants, 
awarding nearly $2.4 million to 29 grantees in 20 states. Three more 
grant cycles are scheduled for this year. Recently, several of your 
Senate colleagues joined us in announcing the grant awards in their 
home states. I would like to thank Chairman Burns and Senator Dorgan 
for honoring the PSFA and its grantees by participating in grant 
announcements on February 20 in Montana and North Dakota, respectively. 
Although we realize these grants constitute just a small fraction of 
the total dollars needed to assure PSAP readiness, we at APCO and its 
foundation wanted to provide tangible support as well as technical 
advice toward the E-911 effort.
    I am proud to say the PSFA is the only public safety communications 
organization to provide direct financial support to state and local 
public safety organizations. The PSFA is guided by a coalition of 
organizations with a shared commitment to public safety, including the 
International Association of Chiefs of Police; the International 
Association of Fire Chiefs; the National Association of Counties; the 
National Association of State EMS Directors; the National Emergency 
Number Association; the National Governors Association; and the 
National League of Cities.
    The second issue critical to PSAP readiness is ensuring that our 
public safety communications personnel are adequately trained. Because 
the technology used by the PSAPs is constantly evolving and improving, 
training presents an ongoing challenge and expense to the PSAPs. This 
will be especially true in the next few years as the nation's wireless 
carriers introduce new technologies to meet the FCC rule of nationwide 
E-911 deployment by the close of 2005.
    APCO has long been aware of the importance of training and, in 
1988, established a nonprofit institute to provide affordable training 
and certification for fire, police and EMS dispatch professionals. The 
APCO Institute trains 10,000 individuals per year and remains the only 
not-for-profit educational institute that serves the needs of the 
public safety communications community. Still, funding for continuous 
training remains a challenge to most PSAPs.
    APCO strongly believes that Federal funds should be made available 
for training of public safety communications personnel as a means of 
bolstering homeland security and general emergency preparedness. With 
the continuing threat of terrorist attacks involving the possible use 
of chemical or biological weapons, public safety in even the smallest 
communities has now become a national concern. Moreover, Federal 
assistance is especially important now to help mitigate any cutbacks in 
funding by state and local governments due to budget shortfalls.
    In addition to PSAP readiness, I would also like to address briefly 
the need for additional spectrum and improved interoperability, two 
issues that are critically linked.
    The lack of sufficient spectrum for public safety communications 
has led to dangerous congestion on existing channels. Homeland security 
efforts have increased the need for public safety communications 
capacity and capability, placing even greater demands on scarce public 
safety spectrum allocations. As a result, the ability of our public 
safety agencies to communicate with each other in emergency situations 
is severely limited.
    As you are aware, resolution of the spectrum issue has been pending 
for many years now. In 1996, the joint FCC/NTIA Public Safety Wireless 
Advisory Committee recommended that approximately 24 MHz of spectrum be 
allocated for public safety use within five years. In 1997, Congress 
mandated that the FCC so allocate this spectrum. Although the FCC did 
reallocate the spectrum from TV channels 63, 64, 68 and 69 for public 
safety, Congress' 1997 mandate permitted these television stations to 
remain on the air through 2006--or until 85 percent of households in 
the relevant market have the ability to receive DTV signals, whichever 
is later. At this stage, it is highly unlikely that this 85 percent 
benchmark will be met until long after 2006 and probably not until well 
into the next decade. As a result, police, fire, emergency medical, and 
other public safety personnel must wait indefinitely for the additional 
radio spectrum and communications capabilities that, frankly, they 
needed yesterday. Therefore, we continue to urge that Congress revise 
existing law and establish December 31, 2006, as a firm date for the 
nationwide availability of this radio spectrum for public safety 
communications.
    The lack of spectrum also has direct and significant impact on 
interoperability. Because of non-interoperable radio systems, public 
safety personnel frequently are unable to communicate with other 
responders in an emergency. In the aftermath of the Oklahoma City 
bombing in 1995, emergency response personnel attempting to coordinate 
life saving activities had to rely on hand signals and ``runners'' 
because their radios lacked effective interoperability. To varying 
degrees, similar difficulties were experienced on September 11 at the 
Pentagon and the World Trade Center. Emergency crews coming into New 
York from the surrounding areas found they could not communicate with 
emergency personnel already on the scene because of non-interoperable 
systems. New allocation of spectrum would allow agencies in the same 
geographic areas to utilize common or compatible radio frequency bands, 
permitting a more coordinated and therefore more effective emergency 
response.
    Thank you again for the opportunity to join in this important 
dialogue on E-911 and related public safety communications issues. Once 
again, I commend Chairman Burns, Senator Hollings, Senator Inouye, and 
the members of the Committee for raising the profile of these very 
important issues. APCO and its membership stand ready to work with 
Congress and all other stakeholders to address the challenges before 
us.

    Senator Burns. Thank you very much. Just one little 
suggestion at this point. It may be a global issue, but it 
sounds like to me that the counties, the local communities who 
have not made application for those funds to update their 
PSAP's--and as Mr. Tuller pointed up, we have the equipment out 
there and then there is nobody to talk to on the other end, so 
to speak.
    The county commissioners are all meeting over here in a 
hotel out on Connecticut Avenue. I would suggest you take a 
whole bunch of folks out there and start, because basically it 
starts with a county commissioner who really wants to do 
something about his communications center, and his obligation 
toward public safety. It may be global, but it all boils down 
to one ground-level commissioner, or somebody to plead that 
case. I would suggest that you, before those county 
commissioners go home, I would go over and circulate a little 
bit and make some points.
    Ms. Bradshaw. We appreciate your suggestion and we will be 
glad to do that.
    Senator Burns. Because that is where it starts.
    Mr. Amarosa, with TruePosition, Incorporated, and we 
welcome you here today and look forward to your comments, and 
your full remarks will be made part of the record if you want 
to summarize your remarks.

                 STATEMENT OF MICHAEL AMAROSA, 
           SENIOR VICE PRESIDENT, TruePosition, INC.

    Mr. Amarosa. Thank you, Mr. Chairman. Good morning, and 
good morning, members of the Subcommittee as well. My name is 
Michael Amarosa, and I am Senior Vice President of 
TruePosition, and it is a pleasure to appear before you this 
morning.
    Let me start by thanking you, Chairman Burns and Senator 
Inouye and other members of the Subcommittee for your 
leadership on this important public safety issue. As a result 
of your conviction that E-911 can bring faster emergency 
response to all areas of our country, rural, urban, suburban, 
and your actions on Capitol Hill, much progress has been made 
toward making E-911 a reality.
    Moreover, the recently established Congressional E-911 
Caucus will be a further source of support to this critical 
effort, and I commend the other caucus co-chairs, Senator 
Clinton, Representatives Eshoo and Shimkus for taking a 
leadership role on this issue.
    Wireless location capability is an integral element of 
homeland security. It is a critical instrument in providing the 
E-911 centers, the place where the first call in an emergency 
is received, the first of the Nation's first responders with 
more precise information.
    I spent 24 years of my career working in public safety, 
including managing the largest 911 center in the country in New 
York City. Expeditious and effective emergency response has 
been the cornerstone of my professional endeavors. It was my 
responsibility to bring public safety a range of technologies 
that helped police officers, fire fighters, and emergency 
service workers.
    I was with the NYPD in 1993 at the time of the first 
bombing of the World Trade Center, just blocks from police 
headquarters. I remember clearly standing in the 911 center and 
trying to comprehend the circumstances we had encountered at 
the Twin Towers on that day. It was an experience of what is 
sometimes described as the fog of war. It impressed upon 
everyone organizing our response the critical importance of 
timely, accurate information, redundancy and interoperability, 
the bywords that remain the foundation of emergency 
communications today.
    After September 11, 2001's attack, I visited the site, 
Ground Zero, and directed members of TruePosition employing our 
technology at that location to locate cellular signals at the 
World Trade Center rubble. We were able to locate approximately 
1,600 of those signals, and provided that information to FEMA 
officials to check it against those who could possibly have 
been in the area at the time, but it reminded me once again of 
our inability of the emergency response teams to talk to each 
other and to locate calls from wireless phones to 911. State-
of-the-art technology should not be brought to the scene. It 
should be there, in place.
    TruePosition's research, development, testing, and 
implementation have been central to making E-911 a reality. 
TruePosition has the technology to locate all handsets on the 
market today, and is now providing location technology that is 
in compliance with the FCC's requirements in 12 cities. We are 
particularly proud of our relationship with Cingular Wireless. 
It has produced the most definitive and extensive roll-out of 
E-911 to date.
    The deployment of TruePosition's technology on 2,500 
Cingular cell sites prior to the end of last year met the 
schedule agreed upon by Cingular and the FCC. To date, we have 
deployed more than 4,600 units on Cingular cell sites, and the 
action by Cingular and TruePosition is a tangible demonstration 
that E-911 is a reality.
    I am also pleased to hear today that the FCC is launching 
an E-911 coordination initiative, looking forward also to 
working with them on this issue. For progress to continue, it 
is important that FCC's principal regulations be maintained 
with respect to implementation, timing, and location accuracy. 
The key to success in deployment lies in speeding up the 
lagging factors rather than slowing the leading ones, and this 
means assuring the investment in PSAP infrastructure and 
delineating the responsibility of the private parties 
carefully.
    The obligations of the wireless carriers, the local 
exchange carriers, and other entities that contribute to 911 
effectiveness must be spelled out and must be stable. Constant 
changes to the E-911 deployment deadlines and accuracy 
requirements must be recognized as counterproductive. The 
public investment in ensuring that 911 communications centers 
are able to receive E-911 information and other critical 
information is part of the ongoing process of improving 
homeland security, and should be considered a national priority 
deserving of Federal financial assistance.
    First, funding assistance must be available both to 
modernize the customer premises and equipment of the 911 
centers as well as to train personnel to operate these upgraded 
systems. Second, there are numerous circumstances where the 
monies assessed against wireless phone use ostensibly for the 
purpose of E-911 are diverted to fund other programs or to 
cover State and local government fiscal shortfalls. Any 
financial assistance should address and correct this problem.
    In summary, Mr. Chairman, progress has been made in 
bringing E-911 to the American people. It is now a 
technological reality. The critical next step is to hasten the 
deployment, where a great deal still needs to be done. We look 
forward to supporting your efforts here on the Subcommittee to 
make this universally available, and I thank you for this 
opportunity to speak before you this morning.
    [The prepared statement of Mr. Amarosa follows:]

     Prepared Statement of Michael Amarosa, Senior Vice President, 
                           TruePosition, Inc.
    Good morning Mr. Chairman and members of the Subcommittee. My name 
is Michael Amarosa and I am Senior Vice President of TruePosition, Inc. 
It is a privilege to appear today as part of the Subcommittee's 
continuing review of the implementation of E-911 Emergency Calling 
Systems. Enhanced 911 or E-911 is the technology that locates 
individuals calling for help from a wireless phone. The availability of 
the technology to the public can save lives, protect property, and 
contribute to a more secure America. In fact, wireless location 
capability is an integral element of homeland security and is a 
critical instrument of providing the Nation's first responders with 
more precise information.
    TruePosition commends Chairman Burns, Senator Inouye, and other 
members of the Commerce, Science and Transportation Committee, for 
their enduring leadership on this important public safety issue. Much 
progress can be traced to your conviction that E-911 can bring faster 
emergency response to all areas of the country, rural, urban and 
suburban, and your efforts toward making E-911 a reality. The recently 
established 911 Caucus, which Chairman Burns and Senator Clinton chair 
in the Senate, and Congressman Shimkus and Congresswoman Eshoo chair in 
the House, is a further source of support to this critical effort.
    Expeditious and effective emergency response has been at the center 
of my professional career. I spent 24 years working in public safety. 
It was my honor to manage the largest 911 center in the Nation, that of 
the New York City Police Department, as Deputy Commissioner for 
Technological and Systems Development. The NYPD sought to bring to 
public safety technologies that would speed police, firefighter and 
emergency medical service response to the citizen needing help. I 
represented the NYPD on the Public Safety Wireless Advisory Committee 
(PSWAC), which the Federal Communications Commission (FCC) established 
to address public safety spectrum requirements. During my tenure at the 
NYPD, we undertook and completed a major upgrade of the systems 
supporting 911. This effort encompassed obtaining the necessary 
funding, determining and designing the system upgrades, and 
implementing the upgrades. This experience reflects a microcosm of the 
ongoing national effort to deploy wireless E-911. Since leaving the 
NYPD, my role with TruePosition has given me the opportunity to work 
with the range of 911 communications centers, large and small, urban, 
rural and suburban. In many respects, the challenges the 911 system 
faces today parallel past efforts to bring modern technology to 
emergency response.
    Modern technology is crucial to emergency response. I was working 
as the Director of Communications with the NYPD in 1993 at the time of 
the first bombing of the World Trade Center, just blocks from police 
headquarters. I remember clearly the circumstances we encountered at 
the twin towers that day and how it served as a motivating force behind 
the department's initiative that it have available the latest 
communications technology. Redundancy and interoperability became the 
by-words that remain the foundation of emergency communications today.
    TruePosition's very existence evolves from wireless location 
technology. We have made a substantial investment to develop and 
provide commercially available location technologies that comply fully 
with requirements established by the FCC. TruePosition's research, 
development, testing and implementation have made E-911 a reality. We 
continue to work with the public safety community and with carriers, 
both large and small, to bring about pervasive E-911. After the 
September 11, 2001 attack, TruePosition employed its technology at 
Ground Zero with the Wireless Emergency Response Team (WERT) to locate 
cellular signals at the World Trade Center rubble. We were able to 
locate approximately 1,600 signals. We provided the information to FEMA 
officials to check it against those individuals who could possibly be 
in the area.
    TruePosition is now providing location technology to wireless 
carriers in 12 cities. TruePosition is particularly proud of its 
relationship with Cingular Wireless LLC as it represents the most 
definitive and extensive rollout of E-911 to date. The deployment of 
TruePosition technology on 2500 of Cingular's cell sites prior to the 
end of last year met the schedule agreed upon by Cingular and the FCC. 
Today, Cingular continues to use our technology to fulfill new requests 
from 911 communications centers (referred to as public safety answering 
points ``PSAPs'') for location information that meets the FCC's 
accuracy rules (``Phase II'' information). To date, we have deployed 
more than 4600 units on Cingular's cell sites. By deploying 
TruePosition's network-based location technology, Cingular has ensured 
that its subscribers, along with anyone roaming on its network, do not 
have to purchase new GPS-equipped handsets in order to be located when 
making 911 calls on Cingular's system. The action by Cingular and 
TruePosition is a distinct and tangible demonstration that E-911 is a 
reality.
TruePosition, Inc.
    TruePosition's systems work in almost any environment be it indoor, 
outdoor, urban or suburban. The TruePosition system provides nearly 100 
percent yield and is not affected by obstructions such as tall 
buildings or concrete walls. This capability is critical for emergency 
responders, who depend upon accurate and precise information regarding 
the location of the individual needing help.
    When a person calls 911 from a traditional wireline phone, public 
safety agencies typically can automatically determine the individual's 
location; if the same person calls from a wireless phone, a public 
safety agency, historically and most often today, must rely on the 
caller to provide an accurate location . . . that often heard question 
is asked by emergency communications personnel, ``where is your 
emergency?'' As almost 55 million wireless calls to 911 are made 
annually from wireless phones, the continued rollout of E-911 is 
critical.
    TruePosition's technology is network-based; there is no 
modification necessary to consumer handsets; nor will consumers need to 
purchase new GPS-equipped handsets as is required by other E-911 
solutions. This means that TruePosition's system can locate any mobile 
phone, new as well as old, on the Cingular system. All existing phone 
sets can be located on the TruePosition system within the requirements 
set by the FCC, as soon as the wireless carrier completes deployment. 
There is no need to wait years as consumers slowly replace their 
handsets. Our technology encompasses the four major air interfaces: 
automatic message processing system (AMPS), code-division multiple 
access (CDMA), time-division multiple access (TDMA) and Global System 
for Mobile communications (GSM).
    The TruePosition system determines a wireless phone's geographical 
location by collecting and processing the RF signals transmitted by the 
phone. When a signal is transmitted--when a phone call is placed--the 
system gathers information about the signal from nearby mobile base 
stations. The data are transmitted to a processor that analyzes the 
information and computes the position of the caller by using 
TruePosition's patented Time Difference of Arrival (TDOA) and Angle of 
Arrival (AOA) algorithms. For a 911 call, the TruePosition system then 
determines the location of the call and delivers the information so 
that the appropriate PSAP can dispatch assistance to the caller.
The Federal Communications Commission E-911 Mandate
    Wireless telephone carriers are required to provide Automatic 
Location Identification (ALI). Under the FCC's rules there are separate 
accuracy requirements and deployment schedules for network-based and 
handset-based technologies. The FCC has also developed different 
timetables depending on carrier size. As a result of FCC enforcement 
actions, several of the largest carriers have committed to specific 
deployment schedules.
    The FCC's efforts have been ongoing since 1994. The principal 
requirements have been in place since 1996. The FCC's policies and 
enforcement actions demonstrate substantial judgment and commitment, 
and encompass expertise in engineering, economics and law. It has 
comprehended the investment that must be made and the evolving 
technology. It has resolved difficult issues and struck a careful 
balance between the critical need for location information by the 
American public, while affording carriers and providers adequate time 
to come into compliance. Through its action, the FCC has made clear how 
critical E-911 is; it can be the difference as to whether assistance 
can arrive in time.
The 911 Infrastructure
    The initial discovery, development, and evaluation phase for 
wireless E-911 technology is largely complete. Technology 
unquestionably capable of providing the level of accuracy mandated by 
the FCC is available. Installation is largely accomplished in several 
major markets. For progress to continue, it is important that the FCC's 
principal regulations be maintained with respect to implementation 
timing and location accuracy as that technology is available for 
deployment. The progress that has been made, and that which will 
follow, can be attributed to delineating clearly the responsibilities 
of each of the interests that needs to cooperate to implement E-911. 
The respective obligations of carriers, local exchange carriers and 
public safety agencies must continue to be unmistakable.
    In the context of the 911 communications centers, wireless E-911 
deployment is a systems problem, resulting in part from the reality 
that different components of the system are independently controlled. 
In my experience the key to successful deployment in this situation 
lies in speeding up the lagging factors rather than slowing the leading 
factors. As a practical matter, this means assuring investment in the 
PSAP infrastructure, and delineating the responsibilities of private 
interests (i.e. the carriers) carefully. The obligations of the 
wireless carriers, the local exchange carriers, and the other entities 
that contribute to E-911 effectiveness must be spelled out and they 
must be stable. Constant changes to E-911 deployment deadlines and 
accuracy requirements must be recognized as counterproductive.
    There is some reason for optimism. The recent progress in E-911 
deployment carries a very important implication for how soon E-911 
becomes universally available. The deployment of E-911 systems that has 
begun in some few markets will produce vast and increasing amounts of 
relevant information as an inevitable by-product. That information is 
likely to prove invaluable to all of the wireless E-911 stakeholders--
consumers, public safety agencies, PSAP service providers, wireless 
carriers, technology companies, and regulators. TruePosition believes 
that it will affect public demand for wireless E-911 service; 
demonstrate best practices with respect to design, deployment, and 
operation of wireless E-911 equipment and service; and provide 
benchmarks against which to judge progress and performance.
    Again, my experience in public safety counsels that once there is 
tangible evidence of a service, and how it can speed emergency 
response, the public comprehends the importance and advocates its 
priority. Once embraced by a community's political leadership, the 
financial challenges to finding the public investment necessary to 
enhance the emergency response infrastructure moves toward resolution.
Funding the 911 Infrastructure
    Public investment in ensuring that 911 communications centers are 
able to receive and use E-911 and other information is a critical part 
of improving homeland security and should be considered a National 
priority deserving of financial assistance. The individuals who staff 
the local 911 centers are the first responders a citizen contacts when 
facing an emergency. Confronting the challenge of improving homeland 
security by improving the efficiency of the Nation's 911 centers will 
provide tangible improvement toward getting the right emergency help to 
an incident sooner.
    The current PSAP infrastructure, the communications centers that 
receive 911 calls, face the challenge of integrating the varying 
technologies that bring about automatic number information and 
automatic location information that are the fundamentals of E-911. 
Without increased investment, the current PSAP infrastructure will be 
constrained in its ability to bring E-911 to all Americans. Investment 
must be directed to upgrading internal PSAP infrastructure so that the 
location information and other caller information now being provided by 
wireless carriers can be transmitted efficiently and effectively to the 
911 communications center. Fostering investment in the PSAP 
infrastructure is a critical element in bringing E-911 to the public. 
It will enhance the quality of emergency response.
    The funding issue encompasses at least two elements. The first is 
providing adequate funding that allows each community to make the 
necessary upgrades to receive E-911 information. The second is to 
analyze present funding mechanisms to determine whether monies are 
appropriately directed.
    We begin with one advantage. The formal institutional structures 
are in place. There is no need to create a new significant governmental 
apparatus to provide what is needed. State and local governments have 
built and managed 911 communication centers effectively. The centers 
are an important part of providing core public safety services to their 
communities. In a very real way, 911 communications centers are 
instrumental in providing the most basic government service and their 
performance is a measure of how well government is responding to its 
citizens.
    Funding assistance should be predicated on the specific objective 
of modernizing customer premises equipment of the 911 centers, 
including design and modification so that the 911 communication center 
infrastructure is capable of effective and efficient receipt of 
automatic number, automatic location, and other information via 
wirleline, wireless and emerging technology forms of communication. 
Funding should also be available to train personnel to operate the 
upgraded systems.
    In this latter regard, the ongoing educational efforts of the 
Association of Public Safety Communications Officials, International 
(APCO) have significantly aided both small and large PSAPs in 
understanding the FCC's rules and what must be undertaken to meet the 
formal requirements for making a valid request to a carrier for 
wireless location information. These efforts should continue and will 
assist in ensuring that funds are properly directed to meet the goal of 
a nationwide E-911 capability.
    In an important related issue, present funding structures for 911 
communications centers remain a very serious problem. There are 
numerous circumstances where the monies assessed against wireless phone 
use, ostensibly for purposes of E-911 and other emergency 
communications service cost recovery, are much too often diverted to 
fund other programs or cover state and local government fiscal 
shortfalls. Any financial assistance should address and correct this 
problem. To be clear, TruePosition believes that this will ultimately 
be corrected. As wireless location is implemented, it will produce 
material improvements in safety of life and property. As dramatic 
episodes of the technology's effectiveness come to light, it should 
create a public demand for installation in every community, making the 
diversion of funds less likely. In the meantime, however, it is a 
practice that should be actively discouraged.
Summary
    TruePosition continues to work closely with large and small public 
safety agencies and the dedicated associations and individuals that 
represent them, to best integrate our system into the 911 
communications centers that receive emergency calls. We have also 
worked closely with wireless carriers in their significant cooperative 
effort toward the goal of E-911 deployment. We think that an emphasis 
on those circumstances where challenges remain, such as the need for 
investment to upgrade the nation's 911 communication centers, while 
maintaining the principal E-911 schedules and accuracy standards, is 
the most direct and timely path to pervasive wireless E-911.
    We commend the Subcommittee's leadership in bringing forth 
nationwide Enhanced-911 systems. E-911 will help individuals in need. 
It will save lives and property and make all of us more secure.
    TruePosition values the opportunity to appear before you today.

    Senator Burns. We thank you, and we thank you for making 
the trip down here and sharing your thoughts with us. I have 
just a couple of questions. You all do a pretty good job of 
answering all my questions in your testimony, and it sounds 
like we get a little redundant.
    There are a couple of things I want to ask Mr. Melcher. 
With the success that has been enjoyed by Greater Harris 
County, Texas, and the deployment of 911 down there, when they 
started out to get this done, are there a couple of things that 
they did that we could learn from to hasten our deployment, or 
to make our transition to E-911 a little easier, and sometimes 
save some money? Are there a couple of things that they did do 
down there that maybe pointed out the mistakes that we have 
made in other areas?
    Mr. Melcher. Well, thank you for the recognition of that 
model, Mr. Chairman. I think it fundamentally consists of two 
components, leadership and good fiscal responsibility and 
planning. Our board chairman, also a former county 
commissioner, Mr. Tom Bass, always said that he wanted to be 
able to provide the best 911 technology that was affordable for 
our citizens.
    If you look at the model, it has been pretty successful. 
The user fee on the consumer's home telephone bill is only 34 
cents, and State-wide, we have 50 cents on the wireless phone, 
so that constitutes the bulk of our budget.
    We started our planning back in 1994. We knew that the 
technology we had in the PSAP's was going to be inadequate, 
because we had the old, what we called them dumb CRTs. The old 
informer screens had 16 lines of text, and it was a very 
serial-based technology, and it could only display things like 
123 Main Street.
    We knew that as wireless technology would come along, it 
would not come in as a block number and street name, it would 
come in as a latitude-longitude, so we pushed our vendors very 
hard to come up with computer-integrated telephony that allowed 
our phone systems and our computer systems to talk to each 
other so that when we received something like a latitude-
longitude it would blink a dot on a map, as opposed to coming 
up with something textual, and as you well know--you talk a lot 
about the dirt between light bulbs in Montana--it is kind of 
hard to send a fire truck to latitude X and longitude Y. It 
just does not translate very well over the police radio or fire 
radio.
    In 1996, we launched with our partners TruePosition, and at 
the time Houston Cellular, now Cingular in Houston, the first 
wireless deployment to demonstrate E-911 location technology, 
and the technology we started developing in 1994 for the PSAP's 
was combined with that new wireless location technology that 
TruePosition brought to the scene, and we actually demonstrated 
for our board of managers this is doable. At that time, they 
authorized the funding to upgrade all of our PSAP's and to 
upgrade our LEC network.
    So it is really a matter of good fiscal discipline, good 
financial planning, and good technological planning, and truly 
a matter of leadership. If you have leaders that are committed, 
then you usually have successful teams that work for them, and 
those teams are usually very good in building the coalition 
that they need. It was not just us in public safety, it was the 
local exchange carrier and the wireless carrier, too.
    Senator Burns. Tell me how difficult it was when you dealt 
with six different wireless carriers that used different 
technology as their carriers.
    Mr. Melcher. Well, as the years of therapy will prove, 
eventually, Mr. Chairman, we were very fortunate in that we had 
the Big Six, if you will, and most of their technologies that 
are up and running today in Houston are working very well. One 
of the carriers is a GSM-only carrier, and they are using a 
technology that has yet to be proven, and they are struggling 
at the FCC with a request for waivers. We are not terribly 
sympathetic to that, but the other carriers were very 
forthcoming in their issues.
    What made it easier for us, and I will be honest with you, 
Senator, you had folks in the carrier community who were 
willing to come and sit down and say, look, these are our 
obstacles, we need your help. As a matter of fact, Verizon 
Wireless, the first to deploy in Houston, came and said, OK, we 
are going to turn up this location technology, but we are going 
to route-based on Phase I, the old cell and sector routing, as 
opposed to Phase II.
    Well, we kind of pitched a woollybugger fit, and there are 
some folks in the room--as a matter of fact, John Scott is here 
and many of his colleagues who sat down with us and said, 
explain to us why this is such an issue. And we have in our 
jurisdiction 48 cities, and there are 165 public safety 
agencies, so getting it right the first time and sending it to 
the right PSAP the first time was incredibly important to us, 
because that shaves minutes off the call.
    They understood our plight. They went back to their vendor. 
They went back to the third-party provider INTRADO who does the 
routing for those things, and within about 30 to 35 days came 
up with a game plan, invited us up to take a look at it, we 
loved it, approved it, adopted it, and our colleagues that were 
in the same boat in Chicago and St. Clair County and others in 
other areas of the country bought off on it, and it was truly a 
collaborative effort, and I think it was a very good piece of 
evidence that if sane people, not zealots, but sane, 
reasonable, thinking people that have solutions in their bag 
can come and sit down with others of like mind and like 
capability, you can truly solve these issues.
    Senator Burns. Well, what I was trying to do is help Mr. 
Tuller out of his dilemma, that we have got the equipment and 
we do not have the infrastructure to handle them, and sometimes 
Congress, in fact, more times than not, gets the cart before 
the horse and does some requirements before really the system 
is ready to accept them.
    I have another question now, one more, and I think it is 
directed toward Ms. Bradshaw and Ms. Hansen more than anything 
else. You say training of operators, receivers, this kind of 
thing, money for these kinds of people. Is it hard to find 
people who really have the qualifications to be not managers, 
but just the average person that takes the 911 call? Are those 
folks hard to find and hard to train?
    Ms. Bradshaw. It takes a very unique individual to be 
listening to life-and-death calls, and so I would say that the 
answer to your question is yes, it is difficult to find 
personnel who will work in the Nation's 911 centers. We have a 
project that is actually underway called Project Retain, 
through APCO, that is looking at this very issue, because one 
of the key things, and this is why my plea to you was for 
funding, in some cases, the people are not adequately paid.
    In some cases, my colleague to the left of me is saying in 
most cases, it takes pay to be able to support a family and a 
home, and if there is not adequate pay for these professionals, 
and it does not come up to the level of other public safety 
professionals like fire fighters and police officers, it is 
very difficult to keep an individual. Once they are hired, they 
may choose to take a different direction in their career, and 
the reason is for money, so there are dollars.
    But on the training side, the training piece of this, so 
they have the ability to be prepared to do their job, is 
incredibly important, and, again, it takes resources to be able 
to train. The centers are staffed 24 hours a day, 365 days a 
year. Generally, most training is done on an overtime basis in 
order to keep the consoles staffed to be able to take the 
calls, so training dollars and overtime dollars are important 
in every one of the 911 centers' budgets, and it is important 
resources that I believe the Federal Government could be 
incredibly helpful with.
    Senator Burns. Jenny, you are in charge of a State-wide 
project. Tell me your approach to the different counties. We 
have got 56 counties in Montana. Tell me about your penetration 
as far as making the plea to the counties and the importance of 
it, and the importance of interoperability.
    Ms. Hansen. Thank you, Senator. Most of it has been focused 
on leadership. They look to the 911 program office to guide 
them in identifying a minimum standard of care in technology 
and in training.
    We have even gone so far as to identify a minimum standard 
of care through Senate bill 41 that identified minimum training 
standards for a dispatcher in the State of Montana, and now we 
are looking toward minimum technology standards for those 
centers to improve not just basic and enhanced landline 
services, but embrace wireless in the future, so that once we 
deploy landline and we go State-wide with that service, we will 
not be building an obsolescent system to provide wireless in 
the future.
    Senator Burns. Well, we thank you for coming today, and I 
think we have found an area where maybe we can affect some 
change, maybe some funds or awareness. I would suggest that you 
all call your State representatives that serve in State 
legislatures, as Mr. Koon does, and to say hey, if you have got 
the money, we would like to deploy that money. We would like to 
modernize these communication centers and PSAP's as soon as we 
can. That is why the money was collected. Let us spend it for 
that purpose.
    And I think I had a couple of calls from other Senators 
that were not going to make it today. They may have some 
questions. We will leave the record open, and they will submit 
those to you in writing. If you could respond to the Committee 
and the individual Senators, I would certainly appreciate that.
    Other than that, we appreciate your coming today and 
sharing your experiences with us, identifying some areas in 
which we can be of help, and we hope we just keep working 
together, because we think it is a very important project, and 
thank you, and these hearings are closed.
    [Whereupon, at 11:45 a.m., the hearing adjourned.]
                            A P P E N D I X

    Response to Written Question Submitted by Hon. Barbara Boxer to
                       Hon. Jonathan S. Adelstein
    Question. I believe that an Enhanced 911 system should be a 
national priority and available to everywhere in America. That may 
require greater federal oversight. Commissioner Adelstein, what 
additional resources and authority does the FCC need in order to accept 
full responsibility for the fast implementation of Enhanced 911 
nationwide?
    Answer. I share your concerns regarding the prompt deployment of 
wireless E-911. It may be instructive in responding to your question to 
also walk through the current procedures for initiating wireless E-911 
service.
    Under our rules, E-911 implementation is triggered by a mobile 
wireless carrier's receipt of a valid request for service from a public 
safety answering point (PSAP) or other requesting entity (e.g., a 
state-wide or region-wide emergency services board). In order to avoid 
unnecessary expenditures by mobile wireless carriers, to make a ``valid 
request'' a PSAP must be able to show that it has:

  <bullet> a mechanism in place to fund its expenses

  <bullet> requested any necessary equipment upgrades and secured a 
        commitment from its vendors that such upgrade will be in place 
        within six months

  <bullet> made a timely request to the local exchange carrier for any 
        necessary facilities, services or upgrades.

    Under this framework, local governmental entities--the PSAPs--in 
significant part control the pace of E-911 rollout. Where PSAPs are 
adequately funded, and where there is local (and statewide) commitment 
to E-911 implementation, rollout has been occurring, and generally 
speaking nationwide wireless carriers have been meeting their 
implementation obligations.
    Where wireless carriers are not meeting these obligations, the 
Commission has not hesitated to exercise its enforcement authority over 
these carriers. We will continue to take strong enforcement action for 
violation of the E-911 rules, where appropriate.
    However, the FCC does not have jurisdiction over state and local 
funding or management of emergency services support. Under the 911 Act, 
the FCC is directed to provide support and assistance to states on 911 
and E-911 implementation, but is barred from imposing any financial 
obligations (unfunded mandates) on the states. Thus, without an 
increase in the FCC's authority to regulate entities that are not its 
licensees, it would be difficult--if not impossible--for the agency to 
take on ``full responsibility'' for the fast implementation of E-911 
nationwide.
    Given the current regulatory landscape, a more immediately 
constructive route to full implementation of E-911 nationwide might be 
for Congress to focus on how to get necessary funding most directly to 
the PSAPs that need it, rather than on giving the FCC more authority 
over these entities. I know that the National Emergency Number 
Association and the Association of Public Safety Communications 
Officials International both have initiatives underway to work with 
PSAPs on deployment and funding issues. These organizations probably 
are well situated to provide Congress with information on the level of 
funding that PSAPs will require to deploy wireless E-911 on a wide-
scale basis.
    Local exchange carriers (LECs) also play an important role in 
wireless E-911 implementation. LECs serve as the 911 system provider in 
most areas, providing selective routers, trunking, database, and other 
services necessary for the delivery of E-911. While the FCC does have 
jurisdiction over local exchange carriers, this jurisdiction is shared 
with state public utility commissions (PUCs), who generally have 
authority over LECs' intrastate operations and services. The provision 
of 911 service by LECs, which is highly localized in nature, has 
traditionally been overseen by state PUCs, and charges associated with 
LEC provision of 911 service are governed by intrastate tariffs.
    The FCC has not imposed specific requirements on LECs in connection 
with the provision of wireless E-911, but has indicated that it will 
consider doing so if a need for such regulation is demonstrated. 
However, if direct regulation of LECs--with respect to either cost 
recovery, or other implementation matters--is necessary to accelerate 
wireless E-911 implementation, a direct and unambiguous grant of 
specific authority to the FCC to impose such regulation would help to 
minimize potential legal challenges.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Barbara Boxer to
                             S. Mark Tuller
    Question 1. What can wireless carriers do to speed up the 
deployment of wireless E-911 location services?
    Answer. E-911 implementation is complicated because it requires the 
capabilities of a number of parties--vendors, wireless carriers, 
landline carriers and PSAPs--to succeed. Each party has to be 
absolutely certain that it is capable of delivering the service 
required when necessary. Verizon Wireless has devoted significant 
resources to upgrading its nationwide network to be able to provide E-
911 service when requested by Public Safety. We have done this in 
anticipation of requests from Public Safety; we expect that if all 
other parties involved in the implementation of E-911 were to take 
similar accountability for their own readiness that nationwide E-911 
deployment would be accelerated.
    With all parties working together to achieve ubiquitous deployment, 
undue delays will be minimized. Carriers will continue to work with the 
PSAPs, LECs and vendors to provide timely service.
    Verizon Wireless also intends to fully participate in the FCC's E-
911 initiative, which will serve as a clearinghouse for all involved 
parties to iron out any difficulties in implementation. Moreover, we 
continue to work daily with individual PSAPs around the country as they 
move towards Phase I and Phase II readiness.

    Question 2. How can wireless carriers ensure that the technology 
for delivering wireless E-911 location services does not become 
stagnant, so the quality of information is constantly improving?
    Answer. The technology developed for E-911 was only recently 
developed and thus represents the most current location technology 
compatible with wireless networks, landline networks, and PSAP 
infrastructure. Despite the newly-developed technology, innovations are 
ongoing to improve upon the information delivered and to maximize its 
utility. At least one industry forum has brought together technical 
staff from industry and the PSAP community to work on technical issues 
associated with the provision of E-911.
    Verizon Wireless has also worked with individual PSAPs to meet 
demands for customization, where feasible, and to enhance that PSAP's 
ability to utilize the location information. The combination of 
continuous efforts by wireless carriers to improve the quality and 
robustness of their networks with collaborative efforts to create 
innovative solutions to problems as they arise will ensure that E-911 
technology does not become stagnant. It will be equally important that 
the components of the ``E-911 pipeline'' controlled by landline 
carriers and PSAPs continue to evolve and improve.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Barbara Boxer to
                              John Melcher
    Question 1. What is the public safety community doing to speed up 
the implementation of wireless 911 location services across the United 
States?
    Answer. The public safety community is presently engaged in several 
national projects and initiatives to speed up implementation and 
stimulate wireless E-911 deployment. These efforts include various 
public and private partnerships, technical forums and stakeholder 
groups organized to advance the deployment of E-911. Collectively, they 
represent the many layers of E-911 implementation and the commitment of 
the public safety community to our nation's emergency communications 
system.
    The U.S. Department of Transportation (USDOT) Wireless 
Implementation Program, supported through a partnership with NENA, and 
the participation of the Association of Public Safety Communications 
Officials (``APCO'') and the National Association of State Nine One One 
Administrators (``NASNA'') is providing a NENA/DOT ``Clearinghouse'', 
which includes a number of contracts, agreements and other documents 
useful to Public Safety Answering Points (PSAPs), wireless carriers and 
E-911 service systems providers as they implement E-911.

        To view the Clearinghouse please visit: http://dot.nena.org/
        index.asp

    The Clearinghouse is supported by the Wireless Deployment Profile, 
a six-month survey conducted by NENA, in which State and county 911 
coordinators provided information on readiness of states, counties and 
PSAPs for wireless E-911.

    To view Profile maps and survey information please visit: http://
198.30.105.186/

    Likewise, NENA is supporting the work of APCO's Project Locate, 
which identifies model communities for E-911 implementation and the 
Public Safety Foundation of America, which provides grants to 
individual PSAPs to help speed up E-911 implementation.
    Understanding that we as a nation and community are still at a 
crossroads of implementation, and that specific institutional barriers 
exist in technology, PSAP readiness and the funding of our nation's 911 
system, NENA launched the Strategic Wireless Action Team (SWAT), to 
examine and address the global and systemic challenges affecting E-911 
deployment.
    This initiative recognizes that since the inception of 911, the 
public and private sectors have been partners in developing, enhancing 
and maintaining our nation's 911 system, but that new solutions and 
approaches are needed to resolve the myriad of coordination and funding 
issues related to implementation.
    In this process, SWAT recognizes the need to bring together, and 
engage all the relevant constituents--wireless and wireline 
telecommunications companies, state and local organizations, subject 
matter experts, government, executive leadership and public safety--in 
a cooperative effort to address--and resolve--the critical barriers to 
ubiquitous E-911 deployment.
    SWAT is premised on a process to craft a comprehensive systemic 
recommendation by June of 2003 and to specifically examine the 
economic, technological, operational, policy and political implications 
of potential E-911 solutions. SWAT is balancing multiple private 
interests with public policy goals, and working to achieve a 
recommendation that all parties can support. The initiative will also 
reach into individuals States, counties and communities to coordinate, 
as appropriate, with other national, state and local E-911 related 
efforts underway.

    Question 2. How are you assessing the state of readiness for the 
public safety answering points?
    Answer. In addition to using the tools, resources, and projects 
mentioned above, NENA, in conjunction with the Alliance for 
Telecommunications Industry Solutions (ATIS) has established the 
Emergency Services Interconnection Forum (ESIF) to identify and resolve 
many of the technical issues related to the interconnection of 
emergency services and telephony networks.
    This past February, ESIF released the ``Wireless E-911 Phase II 
Readiness Package,'' to further assist PSAPs in E-911 deployment 
readiness.
    The ESIF Readiness Package is a checklist and standard evaluation 
method for PSAPs to utilize in determining and documenting their status 
for wireless carriers from whom they request Phase II implementation.
    Consistent with the Federal Communications Commission (FCC) 
requirements for wireless E-911 deployment, the ESIF Readiness Package 
allows PSAPs to document their readiness and determine the next steps 
in deploying wireless E-911.
    The PSAP Readiness Package, can be found on the NENA website at 
(www.nena.org).

    Question 3. What do you think the public safety community needs 
from Congress, the Federal Agencies to speed up the deployment of 
wireless 911 location?
    Answer. Wireless E-911 represents a fundamental shift in 
expectations of the public in regards to citizen activated emergency 
response. No longer is 911 just of local concern--it is global--
requiring national leadership and resources to better serve the 
American public.
    Funding our nation's 911 system is not only a challenge in today's 
world, but also a necessity to enhancing all emergency systems in the 
future. Closely linked to the issues of implementation and PSAP 
readiness, the availability of sustained resources and funding to 
deploy wireless E-911 is of paramount importance.
    Unfortunately, in far too many of our nation's communities, 
wireless E-911 implementation needs are not being met simply because 
there are enough resources available or that 911 funds collected are 
not being allocated for 911 use.
    As a foundation to our nation's public safety system, we would look 
to Congress and related Federal Agencies to ensure our nation's 911 
systems are properly funded, have access to various federal, state and 
local resources to ensure timely and efficient deployment of wireless 
E-911 and remain a priority in our nation's emergency response system.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Barbara Boxer to
                              Jenny Hansen
    Question. What do the states and localities need to compel the 
wireless carriers and the local exchange carriers to fully cooperate in 
deploying wireless 911 services?
    Answer.

    Strong State Programs. Some state 911 programs were established 
with the statutory backing and authority to be effective in providing 
leadership and others were not. Attention should be given to 
strengthening the coordinating and leadership role of the states that 
lack it, and ensuring that wireline and wireless 911 are under the 
oversight of a single state agency.
    FCC Enforcement. I believe that the majority of wireless carriers 
are now attempting to cooperate. Monetary penalties from the FCC 
helped, and the cooperation we see is more indicative of the fear of a 
hammer than of a genuine industry wide desire to assure 911 service 
viability. Congress needs to force the paradigm change necessary for 
essential public services like 911 to be a collaborative effort 
involving the service providers and agencies that are responsible for 
public safety response to those who use the services.
    Current Networks and New Technology. Wireless public networks are 
inherently different from the traditional telecommunications networks 
on which much of the nation's telecommunications technology and 
policies are based. Wireless carriers are competitive with an economic 
model that in most cases is the antithesis of the model for the 
traditional hard line local exchange carriers. They are the forbearers 
of the telecommunications services we can expect in the future. They 
are global in nature with the dynamic markets of Earth driving the 
design and capabilities of their systems, not a national 
pragmaticenterprise operating as a regulated monopoly. In the next few 
years they will be competing with hard line carriers who move from 
regulated to competitive and new concept services whose technology is 
yet to emerge. In all cases 911 will be an essential service.
    A National 911 Program Office. Congress needs to invent a new type 
of collaboration system that supports the inclusion of 911 capabilities 
in telecommunications innovation. Telecommunications companies should 
know what the rules are, and have a mechanism to work through 911 
design issues before service is initiated. There should be no doubt 
that 911 service will be required. But there should also be a permanent 
capability for solving the issues early in, cooperation with other 
carriers if appropriate.
    At the federal level this capability will need to assure both an 
interstate capability for 911 call and information sharing, and a 
mechanism for promoting international standards for abbreviated dialing 
emergency numbers. 911 has its parallels in other countries, 112 in 
Europe for example. The numbers are different but the systems handling 
the telecommunications service are the same with a need to support 
every country's chosen dialing pattern. Nationally the 911 networks 
should be ubiquitous with national support for the backbone that makes 
the system transparent to the carriers and their customers.
    The states and local government within the states have an 
obligation to assure that the 911 systems operate effectively to meet 
their local requirements. Congress has no place here, other than to 
assure that every state has adequate coordination capabilities to meet 
its obligation to work with adjacent states and the federal government. 
State coordination is essential, both as the federal point of contact 
and, more importantly, as the link to the local government service 
providers who ultimately answer the call when 911 is dialed. Dale 
Hatfield, in his report to the FCC, recommended the creation of a 
national 911 Program Office. This could serve as the single point of 
contact for these (and other) issues in this country.
    A National Voice. We are asking that Congress make 911 as important 
a priority for the nation as they have in making sure that the nation 
has an effective transportation system. There are clear parallels and 
the Federal Department of Transportation Model may be the best model 
for the new paradigm of 911 in America. States have a major role in 
determining when and where the system is built, under clear guidance on 
the capabilities of off and on ramps. Innovation comes from both the 
states and federal groups working on new ways to make the highways 
safer. A federal program that provides small items like a manual for 
uniform signage make knowing the rules of the road easier while opening 
an national market for those who make signs. But when you cross Lookout 
Pass headed from Mullan to Saltese only the signs tell you that you 
have entered Big Sky Country, the pavement lines up perfectly. 911 
needs a similar feel, nationwide.

                                  <all>

</pre></body></html>
